<html>
<title> - THE FOUNDATION FOR DEVELOPING NEW ENERGY TECHNOLOGIES: BASIC ENERGY RESEARCH IN THE DEPARTMENT OF ENERGY (DOE) OFFICE OF SCIENCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   THE FOUNDATION FOR DEVELOPING NEW
                   ENERGY TECHNOLOGIES: BASIC ENERGY
                     RESEARCH IN THE DEPARTMENT OF
                     ENERGY (DOE) OFFICE OF SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2008

                               __________

                           Serial No. 110-121

                               __________

     Printed for the use of the Committee on Science and Technology






     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE

44-269PS                  WASHINGTON : 2008

--------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
PAUL KANJORSKI, Pennsylvania         BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
ANDRE CARSON, Indiana
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant
                            C O N T E N T S

                           September 10, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     7

Statement by Representative Judy Biggert, Acting Ranking Minority 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........     8

Prepared Statement by Representative Bob Inglis, Ranking Minority 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........     8

                               Witnesses:

Dr. Patricia M. Dehmer, Deputy Director for Science Programs, 
  Office of Science, Department of Energy
    Oral Statement...............................................     9
    Written Statement............................................    11
    Biography....................................................    20

Dr. Steven B. Dierker, Associate Laboratory Director for Light 
  Sources; National Synchrotron Light Source II Project Director, 
  Brookhaven National Laboratory
    Oral Statement...............................................    21
    Written Statement............................................    23
    Biography....................................................    27

Dr. Ernest L. Hall, Chief Scientist, Chemistry Technologies and 
  Materials Characterization, GE Global Research
    Oral Statement...............................................    28
    Written Statement............................................    29
    Biography....................................................    31

Dr. Thomas P. Russell, Silvio O. Conte Distinguished Professor, 
  Polymer Science and Engineering Department, University of 
  Massachusetts-Amherst; Director, Materials Research Science and 
  Engineering Center; Associate Director, MAssNanoTech
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    43

Discussion
  Investigation of Research and Development Across the Department 
    of Energy and Other Agencies.................................    44
  Retaining the Energy Science Workforce.........................    46
  Alternative Transportation Fuel................................    47
  Industrial Use of Facilities...................................    49
  Energy Frontier Research Centers...............................    50
  Proprietary Information........................................    51
  Supporting BES Facilities......................................    52
  Basic Research and Long-term Scientific Challenges.............    54

              Appendix: Answers to Post-Hearing Questions

Dr. Patricia M. Dehmer, Deputy Director for Science Programs, 
  Office of Science, Department of Energy........................    58

Dr. Steven B. Dierker, Associate Laboratory Director for Light 
  Sources; National Synchrotron Light Source II Project Director, 
  Brookhaven National Laboratory.................................    63

Dr. Ernest L. Hall, Chief Scientist, Chemistry Technologies and 
  Materials Characterization, GE Global Research.................    64

Dr. Thomas P. Russell, Silvio O. Conte Distinguished Professor, 
  Polymer Science and Engineering Department, University of 
  Massachusetts-Amherst; Director, Materials Research Science and 
  Engineering Center; Associate Director, MAssNanoTech...........    67


  THE FOUNDATION FOR DEVELOPING NEW ENERGY TECHNOLOGIES: BASIC ENERGY 
      RESEARCH IN THE DEPARTMENT OF ENERGY (DOE) OFFICE OF SCIENCE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2008

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   The Foundation for Developing New

                   Energy Technologies: Basic Energy

                     Research in the Department of

                     Energy (DOE) Office of Science

                     wednesday, september 10, 2008
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, September 10, 2008 the House Committee on Science and 
Technology, Subcommittee on Energy and Environment will hold a hearing 
entitled ``The Foundation for Developing New Energy Technologies: Basic 
Energy Research in the Department of Energy (DOE) Office of Science.''
    The Subcommittee's hearing will examine the Basic Energy Sciences 
program in DOE's Office of Science, with a focus on stewardship of the 
major light and neutron source facilities as well as its recent 
initiatives to advance research for specific energy applications. The 
hearing will also explore the program's level of coordination with and 
role with respect to DOE's applied energy research programs.

Witnesses

        <bullet>  Dr. Patricia Dehmer is the Deputy Director of Science 
        for the DOE Office of Science, and former Director of the Basic 
        Energy Sciences program. Dr. Dehmer will summarize the program, 
        and describe the Department's efforts to integrate energy 
        research efforts between its basic and applied programs.

        <bullet>  Dr. Steven Dierker is the Associate Laboratory 
        Director for Light Sources at Brookhaven National Laboratory. 
        Dr. Dierker will testify on his experience both managing and 
        building major light source facilities.

        <bullet>  Dr. Ernest Hall is the Chief Scientist for Chemistry 
        Technologies and Materials Characterization at GE Global 
        Research. Dr. Hall will testify on GE's experience as an 
        industrial user of the facilities managed by the Basic Energy 
        Sciences program.

        <bullet>  Dr. Thomas Russell is a Professor of Polymer Science 
        and Engineering at the University of Massachusetts at Amherst 
        and Director of its Materials Research Science and Engineering 
        Center on Polymers. Dr. Russell will testify on his experience 
        as a university user of the major facilities in the Basic 
        Energy Sciences program.

Background

    The Basic Energy Sciences (BES) program in the DOE Office of 
Science supports fundamental research in materials sciences, physics, 
chemistry, and engineering with an emphasis on energy applications. 
This includes a broad portfolio of basic research that provides 
essential knowledge that will lead to development of advanced energy 
technologies. BES is by far the largest program in the Office of 
Science, with a final FY 2008 budget of $1.28 billion and an FY 2009 
Presidential Request of $1.57 billion. (The total FY 2008 budget for 
the Office of Science is $4.04 billion, and the FY 2009 Request is 
$4.72 billion.)
    The expanded knowledge gained through research supported by BES 
underpins the applied energy research supported by other DOE programs 
and by the private sector. Better characterization of materials at a 
molecular level and greater knowledge of chemical reactions at the 
atomic level are necessary if we are to achieve major improvements in 
energy efficiency and develop new sources of energy. For example, 
better understanding of photochemistry and material characteristics 
will enable the development of more efficient photovoltaic cells and 
higher electricity production from solar energy. Research into the 
transport of electrical charge and the properties of new self-healing 
nanoscale materials may lead to the development of advanced batteries 
for vehicles and for large-scale use of intermittent renewable energy 
sources like wind and solar. Furthermore, geosciences research over a 
wide range of spatial scales and time scales will be necessary to 
predict with confidence the ability to safely sequester CO<INF>2</INF> 
emissions from coal and natural gas plants.
    A major function of the BES program is its role as a steward of 
several large-scale facilities at various National Laboratories 
throughout the country. These national facilities house unique 
instrumentation that is essential to the conduct of advanced research 
in the basic energy sciences. The light sources and neutron sources are 
used to characterize materials and examine chemical processes by 
observing the ways in which either neutrons or specific kinds of light 
waves interact with the target that a researcher wishes to study. 
Approximately 9,000 scientists use these facilities each year. In 
addition to DOE scientists, the facilities are used by university 
researchers and their students and by researchers from roughly 160 
private companies, including Boeing, Dow, Ford, General Electric, IBM, 
Merck, and Pfizer.

Light Sources
    All of the currently operational light sources in the U.S. are 
synchrotrons, a generic diagram of which appears in Figure 1. They 
often have a diameter of several hundred meters and produce ultra-high 
intensity light over a wide range of wavelengths from infrared (long, 
low-energy) to x-rays (short, high-energy). This light can be precisely 
tuned to act like a powerful microscope that can be used to examine 
aspects of the atomic structure of materials that control their 
mechanical, thermal, electrical, optical, magnetic, and many other 
properties and behaviors. These operational light sources are the:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <bullet>  Advanced Light Source (ALS) at Lawrence Berkeley 
        National Laboratory in Berkeley, CA;

        <bullet>  Advanced Photon Source (APS) at Argonne National 
        Laboratory in Argonne, IL;

        <bullet>  National Synchrotron Light Source (NSLS) at 
        Brookhaven National Laboratory in Upton, NY; and

        <bullet>  Stanford Synchrotron Radiation Laboratory (SSRL) at 
        Stanford Linear Accelerator Center (SLAC) in Stanford, CA.

    In addition, two light sources are currently under construction. 
One is the Linac Coherent Light Source (LCLS) at SLAC, which is a 
linear accelerator rather than a synchrotron ring. It is being 
converted from a high energy particle physics facility to one that is 
designed to examine physical and chemical processes at a far higher 
time resolution than any light source operating today. DOE's total 
project cost for LCLS is currently $420 million, and it is scheduled to 
begin operating late in 2010. The other is the National Synchrotron 
Light Source-II (NSLS-II) at Brookhaven which will replace NSLS and 
have a far higher spatial resolution than current facilities. DOE's 
total project cost for NSLS-II is currently set at $912 million, and it 
is scheduled to begin operations in 2015.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Neutron Sources
    Neutrons can penetrate deep into materials to give precise 
information about positions and motions of atoms in the interior of a 
sample. Because of their unique characteristics, they are particularly 
well-suited to study the magnetic structure and properties of 
materials. They are also especially sensitive to the presence of light 
elements such as hydrogen, carbon, and oxygen which are found in many 
biological materials. The current operational neutron sources are the:

        <bullet>  High Flux Isotope Reactor (HFIR) at Oak Ridge 
        National Laboratory (ORNL) in Oak Ridge, TN;

        <bullet>  Manuel Lujan Jr. Neutron Scattering Center (Lujan 
        Center) at Los Alamos National Laboratory in Los Alamos, NM; 
        and

        <bullet>  Spallation Neutron Source (SNS) at ORNL.

    A fourth neutron source, the Intense Pulsed Neutron Source (IPNS) 
at Argonne National Laboratory was terminated this year.
    SNS (see Figure 2) began operations in 2006 and was the last major 
facility completed by the Office of Science. Its total project cost was 
$1.4 billion. ORNL has integrated management of SNS and HFIR. HFIR 
provides continuous neutron beams, and SNS provides high intensity 
pulsed beams. Continuous beams allow researchers to study the effect of 
neutrons on materials over time and to produce unique isotopes that may 
be used for medical or other purposes. Pulsed beams allow scientists to 
get an instantaneous, high-resolution snap-shot of a material.

Electron Beam Characterization Centers
    The three electron beam characterization centers contain various 
specialized instruments to provide information on the structure, 
chemical composition, and other properties of materials from the atomic 
level up using various techniques based primarily on the way a beam of 
electrons scatters from a research sample. The centers are the:

        <bullet>  Electron Microscopy Center for Materials Research 
        (EMCMR) at Argonne National Laboratory;

        <bullet>  National Center for Electron Microscopy (NCEM) at 
        Lawrence Berkeley National Laboratory; and

        <bullet>  Shared Research Equipment (SHaRE) User Facility at 
        ORNL.

Nanoscale Centers
    The five new BES Nanoscale Science Research Centers (NSRCs) are 
facilities in which new synthesis and processing capabilities are 
integrated with tools and expertise for characterization and 
corresponding resources for theory, modeling, and simulation. The 
centers are the:

        <bullet>  Center for Functional Nanomaterials at Brookhaven 
        National Laboratory (to be completed within months);

        <bullet>  Center for Integrated Nanotechnologies at Sandia 
        National Laboratories and Los Alamos National Laboratory;

        <bullet>  Center for Nanophase Materials Sciences at ORNL;

        <bullet>  Center for Nanoscale Materials at Argonne National 
        Laboratory; and

        <bullet>  Molecular Foundry at Lawrence Berkeley National 
        Laboratory.

Academic and Industrial Use
    As indicated previously, these facilities are utilized by 
scientists from many institutions across the Nation. The demand for 
access to the facilities exceeds the time available, and management of 
the competing requests for time on the facilities is an ongoing 
challenge. DOE uses several methods to allocate time among the 
competing requests. The most common procedure for researchers to gain 
access to the facilities is through submission of a research proposal. 
DOE evaluates the proposals through a competitive process using 
standard peer-review procedures.
    Industrial or academic institutions also have the option to fund 
the installation and maintenance of a workstation at the end of a 
particular beamline at some facilities. In exchange for their 
investment, the scientists associated with the funding institution have 
priority use for the majority of the time available through that 
workstation. Another option for industrial users who wish to maintain 
full intellectual property rights associated with their research 
project is to pay the total cost recovery of their facility use.

Competitive Research support through BES
    The Office of Science also supports basic energy sciences through 
the award of grants to individual researchers and groups of researchers 
through a competitive process. University researchers and DOE 
scientists working at the National Laboratories are eligible to compete 
in these funding opportunities. Beginning in 2001, the Office of 
Science BES program held a series of ten Basic Research Needs 
workshops. The workshops included participants from industry, 
universities, and the relevant DOE applied programs. Topics included 
solar energy utilization; the hydrogen economy; superconductivity; 
solid-state lighting; advanced nuclear energy systems; combustion of 
21st century transportation fuels; electrical-energy storage; 
geosciences as it relates to the storage of energy wastes (the long-
term storage of both nuclear waste and CO<INF>2</INF>); materials under 
extreme environments; and catalysis for energy-related processes. The 
purpose of the workshops was to bring together members of the energy 
research community to determine priority areas for future funding in 
basic energy sciences. The Basic Energy Sciences Advisory Committee 
integrated the findings of the workshops and produced a strategic plan 
that identified several ``grand challenges'' in energy research.
    Chairman Lampson. This hearing will come to order. I wish 
you a good afternoon, and welcome to today's hearing on basic 
energy research in the DOE Office of Science. There has been a 
lot of attention in recent years on developing new clean energy 
technologies but not enough on strengthening the foundations 
that will make these future technologies possible. That is what 
the Basic Energy Sciences program in the Office of Science is 
all about.
    This program covers a wide range of fundamental research 
that supports our efforts to achieve major advancements in 
energy technologies. Basic research in materials science, 
physics, and chemistry will enable us to make cheaper, more 
efficient solar cells; long-lasting batteries for plug-in 
hybrid vehicles; and high-temperature superconductors that 
would dramatically reduce energy losses on the electric grid. 
And these are just a few examples.
    This afternoon we will also hear about the important role 
played by major research facilities built and managed by the 
BES program. These facilities are real jewels of our national 
research infrastructure. They are utilized by over 9,000 people 
each year, including professors and students from universities 
across the country, as well as researchers from companies that 
manufacture a wide range of products from power generation 
equipment and appliances to pharmaceuticals. There is high 
demand for use of these unique facilities and the research 
opportunities that they provide.
    Today we will hear from a distinguished panel of witnesses 
about how this program is gearing up to address the broad scope 
of our energy challenges. I also want to hear about the 
relationship between the BES program in the Office of Science 
and the near-term applied programs at DOE, like those managed 
by the Office of Energy Efficiency and Renewable Energy and the 
Office of Fossil Energy. We want to ensure that important 
discoveries at BES move on to be incorporated into new energy 
applications.
    The Basic Energy Sciences program is a critical component 
in our energy research and development portfolio. I thank our 
witnesses for appearing before the Subcommittee this afternoon, 
and I look forward to your testimony.
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    Good morning and welcome to today's hearing on basic energy 
research in the DOE Office of Science. There has been a lot of 
attention in recent years on developing new clean energy technologies, 
but not enough on strengthening the foundations that will make these 
future technologies possible. That is what the Basic Energy Sciences 
program in the Office of Science is all about.
    This program covers a wide range of fundamental research that 
supports our efforts to achieve major advancements in energy 
technologies. Basic research in materials science, physics, and 
chemistry will enable us to make cheaper, more efficient solar cells; 
long-lasting batteries for plug-in hybrid vehicles; and high-
temperature superconductors that would dramatically reduce energy 
losses on the electric grid. And these are just a few examples.
    This morning we will also hear about the important role played by 
major research facilities built and managed by the BES program. These 
facilities are real jewels of our national research infrastructure. 
They are utilized by over 9,000 people each year including professors 
and students from universities across the country, as well as 
researchers from companies that manufacture a wide range of products 
from power generation equipment and appliances to pharmaceuticals. 
There is high demand for use of these unique facilities and the 
research opportunities they provide.
    Today we will hear from a distinguished panel of witnesses about 
how this program is gearing up to address the broad scope of our energy 
challenges. I also want to hear about the relationship between the BES 
program in the Office of Science and the near-term applied programs at 
DOE, like those managed by the Office of Energy Efficiency and 
Renewable Energy and the Office of Fossil Energy. We want to ensure 
that important discoveries at BES move on to be incorporated into new 
energy applications.
    The Basic Energy Sciences program is a critical component in our 
energy research and development portfolio. I thank our witnesses for 
appearing before the Subcommittee this morning and I look forward to 
your testimony.

    Chairman Lampson. I would like to recognize our 
distinguished acting Ranking Member, Ms. Biggert, for your 
opening statement. You are recognized for five minutes.
    Ms. Biggert. Thank you, Mr. Chairman, and thank you for 
holding this hearing today on the Basic Energy Sciences Program 
in the Department of Energy's Office of Science. This is 
certainly near and dear to my heart. Unfortunately, 
Representative Inglis cannot be here today because of a 
scheduling conflict, but he will be submitting his statement 
for the record.
    The BES Program supports vitally important fundamental 
research which will lead to the breakthroughs necessary to 
develop tomorrow's technologies and achieve energy 
independence. It also operates world-class scientific user 
facilities, three of which are located at Argonne National Lab 
in my district. Thanks to research supported by the BES 
program, Argonne has been able to take the lead role in 
developing the next generation of energy resources, 
particularly in the area of nuclear power. Most recently they 
have helped to develop an advanced nuclear reprocessing 
technology called UREX which literally reburns spent fuel to 
extract more energy. At the same time it improves efficiency 
and vastly reduces the toxicity and danger of the final waste 
product. This new process has the potential to end I think 
America's contentious debate over waste disposal, except maybe 
at Yucca Mountain, which has stymied efforts to bring this 
important source of clean, safe, carbon-free technology into 
more widespread use. But nuclear power is just one example of 
the technologies we must develop to meet our long-term energy 
needs. Moving forward, the BES Program and the research it 
supports will continue to play an integral role in solving our 
nation's energy problems.
    So I welcome our highly experienced and informed panel of 
witnesses. I look forward to their testimony and would like to 
thank them for sharing their knowledge with us today.
    With that, Mr. Chairman, I yield back the balance of my 
time.

    Chairman Lampson. Thank you, Ms. Biggert. If there are 
additional opening statements, they will be placed in the 
record at this point.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good afternoon. Thank you, Chairman Lampson, for holding this 
hearing about the Basic Energy Sciences program in the Department of 
Energy's Office of Science.
    In many ways, basic research is the lifeblood of our economy. 
Through better understanding of the nature of energy and matter in our 
universe, we can discover new ways to improve and harness these forces. 
We need Office of Science research facilities, like the Spallation 
Neutron Source, well before we can realize applications in 
superconductors, solar panels, and fuels of the future like hydrogen.
    Basic research also plays a role in educating young scientists and 
cultivating the inventive spirit of American science. We need a 
constant supply of young, talented scientists to keep America on the 
cutting edge of expertise and competitiveness in energy and help us 
tackle the emerging problems of the future.
    South Carolina research universities are pushing the envelope with 
innovative research in both basic and applied energy sciences. The 
Basic Energy Sciences program supports this work every year through 
competitive research grants. With nearly $3 million in grants to South 
Carolina universities in FY 2008 alone, the Basic Energy Sciences 
program is a partner in promoting innovative research and training the 
next generation of scientists in South Carolina.
    I'm interested in learning how the resources and facilities of the 
Basic Energy Sciences benefit the scientists, students, and industry 
researchers that use them and what this program is doing to generate 
new energy advancements and ideas. I also hope to learn how this 
program can better serve the needs of its users.
    I thank our witnesses for being here today and I yield back the 
balance of my time.

    Chairman Lampson. At this time I am pleased to introduce 
our witnesses. Dr. Patricia Dehmer is the Deputy Director of 
Science for the Department of Energy Office of Science and the 
former director of the Basic Energy Sciences Program. Dr. 
Steven Dierker is the Associate Laboratory Director for Light 
Sources at Brookhaven National Laboratory. Dr. Ernest Hall is 
the Chief Scientist for Chemistry Technologies and Materials 
Characterization at GE Global Research. Dr. Thomas Russell is a 
Professor of Polymer Science and Engineering at the University 
of Massachusetts at Amherst and Director of its Materials 
Research Science and Engineering Center on Polymers.
    Each of you have five minutes for your spoken testimony. 
Your written testimony will be included in the record for the 
hearing, and when you all complete your testimony, we will then 
begin with questions from the panel here. Each Member will be 
given five minutes to question each of you.
    Before we get started and before I recognize Dr. Dehmer, I 
would like to recognize a lady who is in our audience. Her name 
is Mary Creagh. She is a member of the United Kingdom 
Parliament and is representing a constituency of Wakefield in 
Yorkshire. So welcome. Glad you are here joining us today and 
visiting the House of Representatives.
    With that, Dr. Dehmer, you may begin.

   STATEMENT OF DR. PATRICIA M. DEHMER, DEPUTY DIRECTOR FOR 
   SCIENCE PROGRAMS, OFFICE OF SCIENCE, DEPARTMENT OF ENERGY

    Dr. Dehmer. Thank you, Mr. Chairman, Congresswoman Biggert, 
for the opportunity to testify on the Basic Energy Sciences 
Program. I served as the Director of that program for 12 years 
from 1995 through 2007. This program has two components. The 
first is fundamental research structured to address DOE's 
missions, primarily its energy mission. The research program 
supports nearly 5,000 Ph.D. scientists and more than 1,500 
students in the disciplines of chemistry, materials science, 
and aspects of biosciences and geosciences. The knowledge 
gained from this research ultimately underpins development of 
new energy technologies.
    The second component of the BES Program is the design, 
construction, and operation of a truly remarkable collection of 
scientific user facilities. These facilities support the 
research program first by enabling the production of new 
materials and then by enabling their characterization at the 
atomic level using beams of x-rays, neutrons, and electrons. In 
fiscal year 2007, 9,000 users visited these facilities.
    During the past decade the BES Program constructed $2 
billion of facilities on schedule and within budget. This 
included the Spallation Neutron Source at Oak Ridge National 
Laboratory, the complete reconstruction of one of our 
synchrotron radiation light sources from the ground up, and 
five nanoscale science research centers. More than $1 billion 
of additional facilities are now in design or construction. 
This collection of facilities supported by BES is the best in 
the world and it is a critical component of maintaining U.S. 
supremacy in the physical sciences.
    The central principle of the BES Program, and one that I 
take very seriously, is that discovery science is the 
foundation of innovation and future technologies. This was the 
inspiration for a series of one dozen workshops begun in 2001 
that linked the basic research community, the applied research 
community, and industry in topics relevant to energy. About 
1,500 researchers attended these workshops over a six-year 
period. We also involved representatives from DOE's National 
Nuclear Security Administration and all six of DOE's technology 
programs. Of the 10 specialty workshops, seven of them had 
plenary speakers from the Office of Energy Efficiency and 
Renewable Energy. The reports of those workshops describe what 
I call a new era of science, an era in which materials 
properties are designed to specifications and chemical 
reactions are manipulated at will. It is a science of control 
at the atomic level. It is the science of the 21st century.
    But to do this we need knowledge that we do not have. I 
cannot overstate this. Even the simplest concepts still elude 
us. Here is just one example. Despite the efforts of hundreds 
if not thousands of researchers around the world, we still do 
not understand the mechanism of high temperature 
superconductivity which was discovered 22 years ago. There are 
now dozens of examples of high temperature superconducting 
materials. Now, you may ask, why is it important to understand 
the mechanism of this? Well, the application of 
superconductivity is no longer decades away, not even years 
away. Superconducting cable has been used for some time now, 
and earlier this summer nearly half-a-mile of power cable was 
installed in an existing underground right-of-way as part of 
the Long Island Power Authority.
    But without knowing the mechanism of high temperature 
superconductivity, we are still using trial-and-error methods 
to develop these materials. We have no basis for the rational 
design of new and better materials. This is the 20th century 
way of doing business. It might even be the 19th century way of 
doing business. It is certainly not 21st century science.
    This example is replicated in virtually every energy 
technology, from solar energy conversion to electrical energy 
storage in batteries to solid state lighting. We need to enter 
this new era of science that our workshops described.
    I would like to close with one additional observation from 
our workshops. During the years of our workshops, we saw rapid 
growth of interdisciplinary energy and environmental science 
activities developed at institutions around the country, both 
at universities and national laboratories. Our two traditional 
funding mechanisms, individual investigator and small group 
awards, both focus largely on single-discipline research. In 
fiscal year 2009, we modified our small group funding mechanism 
to specifically address multi-disciplinary groups of 
investigators working on very challenging problems in energy. 
We call these group awards the Energy Frontier Research 
Centers. Together they represent a small part, about 15 
percent, of the total research portfolio, but we think they 
will be an important part.
    Mr. Chairman, thank you very much for inviting me to 
testify. Thank you also for your continued support of the Basic 
Energy Sciences Program in the Office of Science over these 
years.
    [The prepared statement of Dr. Dehmer follows:]
                Prepared Statement of Patricia M. Dehmer
    Thank you Mr. Chairman, Ranking Member Inglis, and Members of the 
Committee for the opportunity to appear before you to provide testimony 
on the Basic Energy Sciences (BES) Program in the Department of 
Energy's (DOE's) Office of Science. I served as the Director of the 
Office of Basic Energy Sciences for 12 years, from 1995 through 2007, 
and I am pleased to share with you my perspectives on that program.

Overview of the Basic Energy Sciences Program

    Like other programs in the Office of Science, there are two 
signature components of the BES program. First, the BES program 
supports a robust program of fundamental research strategically 
structured to serve DOE's missions, primarily its energy mission. This 
program supported nearly 5,000 Ph.D. scientists and more than 1,500 
students in FY 2007. Second, the BES program supports the design, 
construction, and operation of an unparalleled collection of major 
scientific user facilities, which provide the most advanced tools for 
materials research in the world. These facilities are a critical 
component of maintaining U.S. leadership in the physical sciences. 
Together these facilities hosted more than 9,000 users in FY 2007. In 
FY 2007, the BES program funded research in more than 173 academic 
institutions located in 48 states and in 13 Department of Energy 
laboratories located in nine states. Approximately 40 percent of the 
research activities were sited at academic institutions.
    The research disciplines that the BES program supports--condensed 
matter and materials physics, chemistry, geosciences, and aspects of 
physical biosciences--are those that help us understand, predict, and 
ultimately control the material world around us. The research provides 
the knowledge base for:

        <bullet>  The discovery and design of new materials with novel 
        structures, functions, and properties. Examples come from the 
        world of nanoscale materials, where the unusual properties of 
        materials at the nanoscale are exploited for energy 
        technologies. For example, nanoscale particles permit a new-
        class of thermoelectrics, materials that convert heat into 
        electricity. By embedding nanoscale structures into bulk 
        thermoelectric materials, researchers have melded nanoscale 
        electronic control with bulk-level microstructural tailoring, 
        leading to very high thermoelectric conversion efficiencies. 
        Such advances are especially critical for the conversion of 
        waste heat in vehicles into useful electricity, which increases 
        fuel efficiency.

        <bullet>  The control of the physical and chemical 
        transformations of materials. An example is the control of 
        chemical reactivity through catalysts that are more selective, 
        more specific, and ``greener'' than those of past decades and 
        that are used daily in the chemical, fuels, and biotechnology 
        industries.

    In the 20th century, scientists learned to observe and understand 
the interactions among atoms and molecules that determine material 
properties and processes. Now, scientists are poised to begin to direct 
and control the outcomes on an atom-by-atom and molecule-by-molecule 
basis. This will not be easy. We don't yet know how to achieve these 
capabilities. But their development is critical if we are to meet the 
formidable energy and environmental challenges that confront us now.
    The central tenet of the BES program is that discovery science is 
at the foundation of innovation and future technologies. Many stories 
demonstrate that new knowledge can be quickly transferred to 
applications and technology development. One recent example is in the 
area of battery research.
    A basic research project initiated by the BES program at the 
Massachusetts Institute of Technology more than a decade ago led to the 
discovery of a new nanostructured cathode\1\ material for battery 
applications. Based on the knowledge gained, the faculty member that 
BES supported founded a high-tech start-up company, A123Systems in 
Watertown, Massachusetts, to commercialize this new battery technology. 
The development was further supported by a DOE Office of Science Small 
Business Innovation Research grant starting in 2002 and by a grant from 
the DOE Office of Energy Efficiency and Renewable Energy starting in 
2006. Within the last three years, the A123Systems' batteries reached 
the commercial marketplace in power tools produced by North America's 
largest toolmaker, Black and Decker, and they currently are being 
implemented in hybrid and plug-in hybrid electric vehicles, among other 
applications. In August 2007, A123Systems and General Motors (GM) 
announced the co-development of A123Systems' nanophosphate battery for 
use in GM's electric drive E-Flex system for its hybrid vehicles. This 
joint effort is expected to expedite the development of batteries for 
both electric plug-in hybrid vehicles and fuel cell-based vehicles.
---------------------------------------------------------------------------
    \1\ Electric current flows out of the cathode.
---------------------------------------------------------------------------
    There are many illustrations of the importance of BES fundamental 
research, but I am particularly proud of five broad program areas that 
have had significant and long-term impacts in:

        <bullet>  the design and discovery of new materials, which have 
        led to improved magnetic materials, superconductors, 
        semiconductors, ceramics, alloys, and a host of new and exotic 
        materials of potential technological importance;

        <bullet>  the determination of the mechanisms of catalysis and 
        the rational design of new catalysts, which have impacted 
        virtually all of the DOE energy missions including conversion 
        of crude oil, natural gas, coal and biomass into clean burning 
        fuels and the development of less-energy-demanding routes for 
        the production of basic chemical feedstocks;

        <bullet>  the conversion of energy from the sun to electricity 
        and to useful fuels through comprehensive programs integrating 
        chemistry, materials sciences, and biosciences;

        <bullet>  the determination of the chemical and physical 
        properties of the heavy elements (the actinides, their fission 
        products, and the transactinides), which supports DOE missions 
        in advanced nuclear fuels, predictions of how spent nuclear 
        fuels degrade, and how radionuclides are transported under 
        repository conditions; and

        <bullet>  the development of major tools of the physical 
        sciences for visualizing materials at the atomic level and in 
        real time, particularly the tools and facilities for x-ray, 
        neutron, and electron beam scattering and the tools for 
        ultrafast chemistry.

    These activities represent comprehensive national programs and, in 
most cases, these are truly unique national programs.
    The conviction that basic research in the physical sciences is a 
wellspring of new energy technologies was the inspiration for a series 
of Basic Research Needs workshops linking the basic research, applied 
research, and development communities in topical areas relevant to 
energy resources, production, conversion, transmission, storage, 
efficiency, and waste mitigation. The workshops, which were initiated 
in 2001, created levels of excitement and energy in the basic research 
communities supported by the BES program that I had never before 
experienced.
    The workshops described how basic research could help address 
short-term showstoppers in energy technologies (such as the development 
of storage materials for hydrogen) and also how basic research must 
address grand science challenges to provide the foundation for new, 
transformational technologies. The workshops helped create a research 
portfolio in the BES program that both serves the present and shapes 
the future. Such a portfolio can underpin a national decades-to-century 
energy strategy.
    Together, these workshop reports highlighted a remarkable 
scientific journey that took place during the past few decades. The 
resulting scientific challenges, which no longer were discussed in 
terms of traditional scientific disciplines, described a new era of 
science--an era in which materials functionalities would be designed to 
specifications and chemical transformations would be manipulated at 
will.
    Over and over, the recommendations from the workshops described 
similar themes--that in this new era of science we would design, 
discover, and synthesize new materials and molecular assemblies through 
atomic scale control; probe and control phonon,\2\ photon, electron, 
and ion interactions with matter; perform multi-scale modeling that 
bridges multiple length and time scales; and use the collective efforts 
of condensed matter and materials physicists, chemists, biologists, 
molecular engineers, and those skilled in applied mathematics and 
computer science.
---------------------------------------------------------------------------
    \2\ A phonon is a quantized vibration in the crystal structure of a 
solid.
---------------------------------------------------------------------------
    The importance of the nanoscale was another recurring theme. At the 
root of the opportunities provided by nanoscience is the fact that all 
of the elementary steps of energy conversion (e.g., charge transfer, 
molecular rearrangement, and chemical reactions) take place on the 
nanoscale. Thus, the development of new nanoscale materials, as well as 
the methods to characterize, manipulate, and assemble them, create an 
entirely new paradigm for developing new and revolutionary energy 
technologies. The five new Nanoscale Science Research Center user 
facilities, which the BES program recently completed, were conceived 
because of this, and they have become the signature contribution of the 
DOE to the National Nanotechnology Initiative.
    To become as proficient--or ideally even more proficient--than 
nature in making and transforming materials will require knowledge that 
we do not yet have. This challenge cannot be overstated. Even basic 
concepts elude us. For example, we do not understand the mechanism of 
high-temperature superconductivity, which was discovered more than 20 
years ago; yet without such understanding the rational design of new 
superconductors is impossible. We have limited ability to 
conceptualize, calculate, or predict processes far from equilibrium; 
yet all natural and most interesting human-induced phenomena occur in 
systems that are away from the equilibrium. All living systems exist 
far from equilibrium. Quite succinctly, we can articulate the 
challenges, but today's scientific tools are not sufficient to address 
them. We are looking for new concepts and theories to understand how 
nature works. The disciplines supported by the BES program seek a 21st 
century equivalent to the development of quantum mechanics 100 years 
ago.
    The scientific user facilities that the BES program supports--five 
Nanoscale Science Research Centers and the world's largest suite of 
synchrotron radiation light source facilities, neutron scattering 
facilities, and electron-beam microcharacterization centers--enable the 
fabrication of new materials and the examination of materials and their 
transformations at the atomic scale through x-ray, neutron, and 
electron beam scattering. These facilities derive directly from the 
needs of the research program. Once the province of a few hundred 
specialists, mostly physicists, these scattering facilities now are 
used by nine thousand researchers annually from dozens of disciplines 
and subdisciplines.
    The BES program facilities were driven by the need to correlate the 
microscopic structure of materials with their macroscopic properties, a 
topic that long predates our knowledge of the existence of atoms. The 
visible light microscope, invented about four hundred years ago and 
based on optics studies dating back one thousand years, gave us an 
initial glimpse of nature's assemblies. The microscope opened the world 
of mineral, plant, and animal structures and even showed us individual 
cells. Although now superbly perfected, the fundamental laws of physics 
limit the resolution (i.e., the smallest features that can be seen) of 
visible light microscopes to features equal to the wavelength of 
visible light, roughly a few hundred nanometers. The typical size of an 
atom is tenths of a nanometer. Thus, instruments with resolutions one 
thousand times better than the best visible light microscopes are 
required to see atoms. The laws of physics, which explain why these 
first microscopes fail to resolve individual atoms, also point to the 
solution. To see atoms, we must use substitutes for visible light--
probes that are themselves as small as the atoms under investigation. 
Three such probes are x-rays, electrons, and neutrons. The ability of 
these probes to teach us about the arrangements of atoms in materials 
was realized soon after their discovery in the early 1900s.
    The resulting facilities for x-ray, electron, and neutron 
scattering that were planned, constructed, and are now operated by the 
BES program have revolutionized our understanding of materials. These 
facilities--and their availability to the broad national and 
international communities--are one of the great success stories of the 
BES program and the DOE.
    During the past 10 years, the BES program has delivered nearly $2 
billion of facilities and upgrades on schedule and within budget. Among 
others, this includes the Spallation Neutron Source, the complete 
reconstruction of the Stanford Synchrotron Radiation Laboratory, five 
Nanoscale Science Research Centers, and numerous instrument fabrication 
projects. On the drawing board and under construction are future 
generations of each of these facilities as well as future generations 
of the instruments used at them. Many of these new facilities will be 
complex, costly, and time consuming to construct. Billion-dollar-class 
facilities with construction times of six to eight years will not be 
unusual. As in the past, continued sound planning for them is critical.
    In what follows, I provide additional details on the BES program 
and its subprograms; some likely future priorities for both research 
and facilities, including the mechanisms for establishing these 
priorities; and the importance of a program of R&D integration that 
recognizes the respective roles of discovery, innovation, application, 
development, and deployment.

Addressing the Nation's Energy Challenges in the New Era of Science

    The 21st century has brought with it the recognition of staggering 
challenges for advanced energy technologies. Finite supplies of fossil 
fuel resources, uneven distribution of those resources, and the 
negative global effects of their use demand change. It is unlikely that 
incremental advances in current energy technologies, many of which are 
rooted in 19th century discoveries and 20th century development, will 
meet the need for the projected doubling or tripling of world energy 
consumption by the end of the 21st century.
    BES and its predecessor organizations have supported a program of 
fundamental research focused on critical mission needs of the Nation 
for over five decades. The federal program that became BES began with a 
research effort initiated to help defend our nation during World War 
II. The diversified program was organized into the Division of Research 
with the establishment of the Atomic Energy Commission in 1946 and was 
later renamed Basic Energy Sciences as it continued to evolve as a 
result of provisions included in the Atomic Energy Act of 1954, the 
Energy Reorganization Act of 1974, the Department of Energy 
Organization Act of 1977, and the Energy Policy Acts of 1992 and 2005.
    Today the research supported by the BES program touches virtually 
every aspect of energy resources, production, conversion, transmission, 
storage, efficiency, and waste mitigation. Research in materials 
sciences and engineering leads to the development of materials that 
improve the efficiency, economy, environmental acceptability, and 
safety of energy generation, conversion, transmission, storage, and 
use. Research in chemistry leads to the development of advances such as 
efficient combustion systems with reduced emissions of pollutants; new 
solar photoconversion processes; improved catalysts for the production 
of fuels and chemicals; and better separations and analytical methods 
for applications in energy processes, environmental remediation, and 
waste management. Research in geosciences results in advanced 
monitoring and measurement techniques for reservoir definition and an 
understanding of the dynamics of complex fluids, such as oil, flowing 
through porous and fractured subsurface rock. Research into the 
molecular and biochemical nature of photosynthesis aids the development 
of solar photo-energy conversion.
    As described above, in 2001 the Basic Energy Sciences Advisory 
Committee conducted a major study to assess the scope of fundamental 
scientific research that must be considered to address the DOE missions 
in energy efficiency, renewable energy resources, improved use of 
fossil fuels, safe and environmentally acceptable nuclear energy, 
future energy sources, and reduced environmental impacts of energy 
production and use. The results of the week-long workshop were 
published in early 2003 in the report Basic Research Needs to Assure a 
Secure Energy Future. That report inspired a series of ten follow-on 
Basic Research Needs workshops over the next five years, which together 
attracted more than 1,500 participants from universities, industry, and 
DOE laboratories. The topics of the ten workshops were: the hydrogen 
economy, solar energy utilization, superconductivity, solid-state 
lighting, advanced nuclear energy systems, combustion of 21st century 
transportation fuels, electrical-energy storage, geosciences as it 
relates to the storage of energy wastes (the long-term storage of both 
nuclear waste and carbon dioxide), materials under extreme 
environments, and catalysis for energy-related processes.
    After the first workshop in early 2003, Basic Research Needs for 
the Hydrogen Economy, the BES program issued solicitations for FY 2005 
funding for individual investigator and small-group awards in areas of 
hydrogen production, storage, and use. An astounding 668 qualified pre-
applications were received in five submission categories: novel 
materials for hydrogen storage; membranes for separation, purification, 
and ion transport; design of catalysts at the nanoscale; solar hydrogen 
production; and bio-inspired materials and processes. Three of the five 
focus areas--novel storage materials, membranes, and design of 
catalysts at the nanoscale--accounted for about 75 percent of the 
submissions. Following a review, principal investigators on about 40 
percent of the pre-applications were invited to submit full 
applications; 227 full applications were received; and 70 awards were 
made totaling $21,473,000. Additional funding of $7,205,000 was awarded 
in subsequent years. BES involved staff from the DOE Office of Energy 
Efficiency and Renewable Energy (EERE) in the pre-application review 
process to ensure basic research relevance to technology program goals. 
Furthermore, BES program staff began participating in the DOE Hydrogen 
Program Annual Merit Review, which also involved EERE and the DOE 
Offices of Fossil Energy and Nuclear Energy, to promote information 
sharing. Beginning in FY 2006, the BES program staff organized parallel 
sessions at that meeting for the BES principal investigators.
    This funding has enabled significant advances in understanding 
hydrogen-matter interactions. Recent accomplishments include:

        <bullet>  the discovery of atomic-scale mechanisms explaining 
        reversible hydrogen storage within complex metal hydrides;

        <bullet>  the development of novel micro- and nano-patterning 
        syntheses for a new generation of fuel cell membranes with 
        superior power output;

        <bullet>  theoretical predictions and experimental validation 
        of new architectures and compositions of catalyst alloys for 
        efficient hydrogen production from fossil fuels as well as for 
        fuel cell applications;

        <bullet>  the synthesis of mixed metal oxide photoelectrodes 
        for solar hydrogen production;

        <bullet>  the identification of chemical pathways to convert 
        biomass to hydrogen and other fuels; and

        <bullet>  advances in the development of oxygen-tolerant 
        enzymes for bio-inspired hydrogen production.

    A number of these accomplishments have led to follow-up 
developments by the applied research programs. Of particular note is 
the successful development of electrocatalysts with ultra-low platinum 
content that are 20 times more active by mass and more stable than pure 
platinum for converting hydrogen to electricity in fuel cell 
applications and dramatically reduce the cost of potential future fuel 
cell systems.

The Energy Frontier Research Centers

    Very similar scientific themes emerged from multiple workshops in 
the Basic Research Needs series, and it became clear that in the future 
we would need broader solicitations than those used to support work in 
hydrogen production, storage, and use. The workshops also showed that 
the challenges of energy research transcend any single discipline and 
very often require many different disciplines to join together. In 
addition, during the years that the workshops were underway (2001-
2007), we saw the advent of energy/environment centers at universities 
across the Nation and at DOE laboratories. Requests for funding from 
both the academic sector and the laboratory sector became 
commensurately larger and more multi-disciplinary as groups of 
researchers joined together to tackle difficult problems in energy 
research. This prompted discussions over the past few years about the 
establishment of Energy Frontier Research Centers to complement the 
existing single-investigator awards and small-group (but largely 
single-discipline) awards.
    With completion of the final Basic Research Needs workshop in late 
2007, the BES program was primed to propose and implement an Energy 
Frontier Research Centers program in the FY 2009 Presidential Budget 
Request. The Energy Frontier Research Centers should be viewed as a 
funding mechanism, along with the more traditional single-investigator 
and small-group grants, rather than a new program. The Energy Frontier 
Research Centers represents about 15 percent of the total BES research 
portfolio in FY 2009. Depending on the results of the first 
solicitation, it is possible that the program might grow to a maximum 
of perhaps 25 percent of the total BES research portfolio over a period 
of five to ten years.
    The Energy Frontier Research Centers awards are expected to be in 
the $2-$5 million range annually for an initial five-year period. A 
2008 Funding Opportunity Announcement requested applications from the 
scientific community in a competition open to academic institutions, 
DOE laboratories, and other institutions as well as to partnerships 
among them. The Energy Frontier Research Centers are expected to bring 
together the skills and talents of multiple investigators to enable 
research of a scope and complexity that would not be possible with the 
standard individual investigator or small group awards. Up to 
$100,000,000 will be awarded in FY 2009, pending appropriations, and 
will support perhaps 25 to 35 individual centers. No building 
construction will be part of the awards. As the program matures, it is 
anticipated that competitions will be held every few years and that 
renewal submissions will be openly competed with new submissions.

General Comments on R&D Integration

    As is demonstrated by the Basic Research Needs workshop series, the 
BES program is committed to R&D integration. The workshops and their 
follow-on solicitations seek to partner the BES program with its 
counterparts in the DOE technology offices. More broadly, DOE 
coordinates its basic research efforts in the Office of Science 
programs with the Department's applied technology offices through a 
number of processes and mechanisms. These include:

        <bullet>  scientific and technical workshops such as the Basic 
        Research Needs series;

        <bullet>  structured, targeted research efforts driven by 
        program manager-level coordination between the basic and 
        applied R&D programs;

        <bullet>  joint program planning and/or program reviews;

        <bullet>  joint funding solicitations or jointly coordinated 
        solicitations;

        <bullet>  shared grantee/contractors meetings and conferences 
        to bring the research communities together;

        <bullet>  portfolio assessment efforts by structured oversight 
        groups (DOE R&D Council); and

        <bullet>  coordination working group efforts guided by senior 
        management (DOE S&T Council).

    Coordination between the basic and applied programs is also 
enhanced through joint programs, jointly funded scientific facilities, 
the program management activities of the DOE Office of Science Small 
Business Innovation Research and Small Business Technology Transfer 
Programs, and the Experimental Program to Stimulate Competitive 
Research. DOE program managers have established formal technical 
coordinating committees (e.g., the Energy Materials Coordinating 
Committee) that meet on a regular basis to discuss R&D programs with 
wide applications for basic and applied programs. Additionally, co-
funding research activities and facilities at the DOE laboratories and 
using funding mechanisms that encourage broad partnerships are also 
means by which DOE facilitates greater communication and research 
integration within the S&T communities. Taken in sum, these 
coordination activities are widespread and have contributed 
significantly to DOE's capabilities and success in achieving mission 
goals.

Basic Energy Sciences Subprogram Details

    The Basic Energy Sciences program has two subprograms: Materials 
Sciences and Engineering, which supports research and all of the 
facility operations, and Chemical Sciences, Geosciences, and 
Biosciences, which supports research. The two research components and 
the facility operations component are described below.

Materials Sciences and Engineering Research
    This activity supports fundamental experimental and theoretical 
research to provide the knowledge base for the discovery and design of 
new materials with novel structures, functions, and properties.
    In condensed matter and materials physics--including activities in 
experimental condensed matter physics, theoretical condensed matter 
physics, materials behavior and radiation effects, and physical 
behavior of materials--research is supported to understand, design, and 
control materials properties and function. These goals are accomplished 
through studies of the relationship of materials structures to their 
electrical, optical, magnetic, surface reactivity, and mechanical 
properties and of the way in which materials respond to external forces 
such as stress, chemical and electrochemical environments, radiation, 
and the proximity of materials to surfaces and interfaces. The activity 
emphasizes strongly correlated materials, which are a wide class of 
materials that show unusual, often technologically useful, electronic 
and magnetic properties. Intensively studied strongly correlated 
materials include the high-temperature superconductors.
    In scattering and instrumentation sciences--including activities in 
neutron and x-ray scattering and electron and scanning probe 
microscopies--research is supported on the fundamental interactions of 
photons, neutrons, and electrons with matter to understand the atomic, 
electronic, and magnetic structures and excitations of materials and 
the relationship of these structures and excitations to materials 
properties and behavior. Major research areas include fundamental 
dynamics in complex materials, correlated electron systems, 
nanostructures, and the characterization of novel systems. The 
development of next generation neutron, x-ray, and electron microscopy 
instrumentation is a key element of this portfolio.
    In materials discovery, design, and synthesis--including activities 
in synthesis and processing science, materials chemistry, and 
biomolecular materials--research is supported in the discovery and 
design of novel materials and the development of innovative materials 
synthesis and processing methods. Major research thrust areas include 
nanoscale synthesis, organization of nanostructures into macroscopic 
structures, solid state chemistry, polymers and polymer composites, 
surface and interfacial chemistry including electrochemistry and 
electro-catalysis, synthesis, and processing science including 
biomimetic and bioinspired routes to functional materials and complex 
structures.

Chemical Sciences, Geosciences, and Biosciences Research
    This activity supports experimental and theoretical research to 
provide fundamental understanding of chemical transformations and 
energy flow in systems relevant to DOE missions.
    In fundamental interactions, basic research is supported in atomic, 
molecular, and optical sciences; gas-phase chemical physics; ultra-fast 
chemical science; and condensed phase and interfacial molecular 
science. Emphasis is placed on structural and dynamical studies of 
atoms, molecules, and nanostructures, and the description of their 
interactions in full quantum detail, with the aim of providing a 
complete understanding of reactive chemistry in the gas phase, 
condensed phase, and at interfaces. Novel sources of photons, 
electrons, and ions are used to probe and control atomic, molecular, 
and nanoscale matter. Ultra-fast optical and x-ray techniques are 
developed and used to study chemical dynamics.
    In photochemistry and biochemistry, research is supported on the 
molecular mechanisms involved in the capture of light energy and its 
conversion into chemical and electrical energy through biological and 
chemical pathways. Natural photosynthetic systems are studied to create 
robust artificial and bio-hybrid systems that exhibit the biological 
traits of self assembly, regulation, and self repair. Complementary 
research encompasses organic and inorganic photochemistry, photo-
induced electron and energy transfer, photoelectrochemistry, and 
molecular assemblies for artificial photosynthesis. 
Photoelectrochemical conversion is explored in studies of 
nanostructured semiconductors. Biological energy transduction systems 
are investigated, with an emphasis on the coupling of plant development 
and microbial biochemistry with the experimental and computational 
tools of the physical sciences.
    In chemical transformations, the themes are characterization, 
control, and optimization of chemical transformations, including 
efforts in catalysis science; separations and analytical science, 
actinide chemistry, and geosciences. Catalysis science underpins the 
design of new catalytic methods for the clean and efficient production 
of fuels and chemicals and emphasizes inorganic and organic complexes; 
interfacial chemistry; nanostructured and supramolecular catalysts, 
photocatalysis and electrochemistry, and bio-inspired catalytic 
processes. Heavy element chemistry focuses on the spectroscopy, 
bonding, and reactivity of actinides and fission products; 
complementary research on chemical separations focuses on the use of 
nanoscale membranes and the development of novel metal complexes. 
Chemical analysis research emphasizes laser-based and ionization 
techniques for molecular detection, particularly the development of 
chemical imaging techniques. Geosciences research covers analytical and 
physical geochemistry, rock-fluid interactions, and flow/transport 
phenomena; this research provides a fundamental basis for understanding 
the environmental contaminant fate and transport and for predicting the 
performance of repositories for radioactive waste or carbon dioxide 
sequestration.

Scientific User Facilities Operations
    This activity supports the R&D, planning, and operation of 
scientific user facilities for the fabrication of materials and for the 
examination of materials through x-ray, neutron, and electron beam 
scattering.
    For approved, peer-reviewed projects, operating time is available 
without charge to researchers who intend to publish their results in 
the open literature. The synchrotron light sources, producing mostly 
soft and hard x-rays, examine the fundamental parameters used to 
perceive the physical world (energy, momentum, position, and time). The 
unique properties of synchrotron radiation--high flux and brightness, 
tunability, polarizability, and high spatial and temporal coherence, 
and the pulsed nature of the beam--afford a wide variety of 
experimental techniques in diffraction and scattering, spectroscopy, 
and spectrochemical analysis, imaging, and dynamics. Neutron sources 
take advantage of the electrical neutrality and special magnetic 
properties of the neutron to probe atoms and molecules and their 
assembly into materials. With unique characteristics such as 
sensitivity to light elements, neutron scattering has proven to be 
invaluable to polymer and biological sciences. The high penetrating 
ability of neutrons allows property measurements and nondestructive 
evaluation deep within a specimen. Neutrons have magnetic moments and 
are thus uniquely sensitive probes of magnetic species within a sample. 
The Nanoscale Science Research Centers provide the ability to fabricate 
complex nanostructures using chemical, biological, and other synthesis 
techniques, to characterize them, to assemble them, and to integrate 
them into devices.
    Because of the large numbers of users who visit the synchrotron 
radiation light sources--nearly half of all users of the Office of 
Science facilities--the light sources are of particular interest. The 
size and demographics of the user community have changed dramatically 
since the 1980s when only a few hundred intrepid users visited the 
light sources each year.
    In the charts below, many demographic trends are illustrated. Among 
other things, the commissioning of the Advanced Light Source at 
Lawrence Berkeley National Laboratory in 1993 and the Advanced Photon 
Source at Argonne National Laboratory in 1996 more than doubled the 
capacity of the light sources. The growth in users was additionally 
spurred by the influx of new users, notably those who studied 
macromolecular crystallography. Finally, it is interesting to note that 
the total number of users reached a maximum in FY 2006. This is largely 
due to funding limitations during FY 2006 through FY 2008.
    The charts below show the numbers of users at the BES synchrotron 
radiation light sources each year as a function of facility (Chart 1); 
user discipline (Chart 2); and user home institution (Chart 3). In 
Chart 1, APS is the Advanced Photon Source at Argonne National 
Laboratory; ALS is the Advanced Light Source at Lawrence Berkeley 
National Laboratory; SSRL is the Stanford Synchrotron Radiation 
Laboratory at Stanford Linear Accelerator Center; and NSLS is the 
National Synchrotron Light Source at Brookhaven National Laboratory.
    In all of the charts below, there is a standard definition of 
``user.'' A user is a researcher who proposes and conducts peer-
reviewed experiments at a scientific facility or conducts experiments 
at the facility remotely. A user does not include individuals who only 
send samples to be analyzed, pay to have services performed, or visit 
the facility for tours or educational purposes. The term user also does 
not include researchers who collaborate on the proposal or subsequent 
research paper but do not conduct experiments at the facility. For 
annual totals, an individual is counted as one user at a particular 
facility no matter how often or how long the researcher conducts 
experiments at the facility during the year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Several years ago the BES program reevaluated the metrics used to 
assess effective operation and utilization of the synchrotron light 
source facilities, looking potentially to broaden the metrics from 
those used previously in annual reports to Congress: hours of operation 
of the accelerator complex and numbers of users who annually visit the 
facilities. With the cooperation of the facilities, new measures were 
devised that provided quantitative assessments of instrument 
capability, instrument capacity, and staffing levels. These measures 
were piloted in FY 2005 and FY 2006, and data were collected for FY 
2007 and FY 2008 as well. These pilot studies show that overall 
effectiveness of operation and utilization of the synchrotron light 
sources could be improved but that usually such improvements would 
require additional operations costs, although some improvements could 
be gained from enhanced strategic planning within and across 
facilities. These studies supported enhanced funding requests for the 
facilities in FY 2007 and FY 2008; however, the proposed increases were 
not funded in the appropriations for those years. Increases have been 
requested again in FY 2009.

Future Directions

    The BES program supports a broad portfolio of work, and planning 
for the future is an ongoing activity. The first set of Basic Research 
Needs workshops and the report Directing Matter and Energy: Five 
Challenges for Science and the Imagination are complete. Together they 
describe a continuum of research from the most fundamental questions of 
how nature works to the ``show-stopper'' questions in the applied 
research programs supported by the DOE technology offices. The BES 
programs' portfolios have been reassessed and restructured as necessary 
to reflect the results of these workshops. In addition to the work 
identified in these workshops, other BES priority areas include general 
support for ultrafast science, chemical imaging, and mid-scale 
instrumentation. Funding for all of these activities was requested in 
FY 2007-FY 2009; however, the FY 2007 and FY 2008 appropriations were 
not sufficient to support many of the new directions.
    Planning for the facilities sponsored by the BES program is also an 
ongoing activity. The BES program has a long tradition of planning, 
constructing, and operating facilities well. During the past 10 years, 
the BES program has delivered nearly $2 billion of facilities and 
upgrades on schedule and within budget. Among others, this includes the 
Spallation Neutron Source, the complete reconstruction of the Stanford 
Synchrotron Radiation Laboratory, five Nanoscale Science Research 
Centers, and numerous instrument fabrication projects for the major 
scientific user facilities.
    The 2003 Office of Science report, Facilities for the Future of 
Science: A Twenty-Year Outlook, describes the long-range plan for the 
Office of Science facilities. As high priorities, the report includes 
construction of the Linac Coherent Light Source, which is nearing 
completion and will begin operations in FY 2009, and the Transmission 
Electron Aberration-corrected Microscope, which already has delivered 
an early prototype.
    Mid-term priorities include upgrades to the Spallation Neutron 
Source, which was commissioned in FY 2006. The upgrades consist of an 
energy upgrade to the linac and the construction of a second target 
station; the former will undergo cost and schedule baselining this 
year, and the later is preparing for Critical Decision 0, Approval of 
Mission Need. Another mid-term priority is the construction of the 
National Synchrotron Light Source-II. This project moved up in priority 
owing to elimination of technical impediments, and it is scheduled to 
begin construction in FY 2009.
    Far-term priorities include upgrades to the Advanced Photon Source 
and the Advanced Light Source. These activities as well as the 
consideration of next-generation light sources are now under 
consideration by the BES program. Recently, the Basic Energy Sciences 
Advisory Committee has been charged to sponsor a Photon Workshop to 
consider the science drivers for new photon sources. The workshop will 
identify new grand energy and scientific opportunities in materials, 
chemistry, biology, medicine, environment, and physics that can be 
addressed with diffraction, excitation, and imaging by photons. The 
primary outputs of the workshop will be (1) the evaluation of the 
impact of each new opportunity in advancing the frontier of science or 
enabling new approaches to energy challenges, and (2) the definition of 
the photon attributes required to realize each opportunity. The photon 
attributes include coherence length, time structure, energy, energy 
resolution, brightness, intensity, spatial resolution, and 
polarization. It is expected that this workshop will help set the 
course for photon science facilities for the next decade.
    Five-year BES program planning is consistent with funding profiles 
proposed by the America COMPETES Act of 2007 (P.L. 110-69), which would 
lead to a doubling of funding in the Office of Science in seven years.

Concluding Remarks

    Thank you, Mr. Chairman, for providing this opportunity to discuss 
the Basic Energy Sciences program. This concludes my testimony, and I 
would be pleased to answer any questions you might have.

                    Biography for Patricia M. Dehmer
    Patricia M. Dehmer is the Deputy Director for Science Programs in 
the Office of Science at the U.S. Department of Energy (DOE). In this 
position, Dr. Dehmer is the senior career science official in the 
Office of Science, which supports more than $4B in research annually. 
Dr. Dehmer provides scientific and management oversight for the six 
science programs, for workforce development for teachers and 
scientists, and for construction project assessment. The Office of 
Science supports research at 300 colleges and universities nationwide, 
at DOE laboratories, and at other private institutions.
    From 1995 to 2007, Dr. Dehmer served as the Director of the Office 
of Basic Energy Sciences in the Office of Science. She built a world-
leading portfolio of work in condensed matter and materials physics, 
chemistry, and biosciences. During this period, Dr. Dehmer also was 
responsible for the planning, design, and construction phases of more 
than a dozen major construction projects totaling $3 billion. Notable 
among these were the $1.4B Spallation Neutron Source at Oak Ridge 
National Laboratory, five Nanoscale Science Research Centers totaling 
more than $300M, and the start of two new facilities for x-ray 
scattering--the Linac Coherent Light Source at SLAC, which is the 
world's first hard x-ray free electron laser, and the National 
Synchrotron Light Source-II at Brookhaven National Laboratory, which 
will provide the highest spatial resolution of any synchrotron light 
source in the world.
    Dr. Dehmer began her scientific career as a postdoctoral fellow at 
Argonne National Laboratory in 1972. She joined the staff of the 
Laboratory as an Assistant Scientist in 1975 and became a Senior 
Scientist in 1985. In 1992, the Laboratory established a new scientific 
rank that recognizes sustained outstanding scientific and engineering 
research, and Dr. Dehmer was among the one percent of the Laboratory's 
technical staff promoted to that rank, now called Argonne Distinguished 
Fellow.
    Dr. Dehmer received the Bachelor of Science degree in Chemistry 
from the University of Illinois and the Ph.D. degree in Chemical 
Physics from the University of Chicago. Her studies of the interactions 
of electronic and atomic motion in molecules provided fundamental 
understanding of energy transfer, molecular rearrangement, and chemical 
reactivity and resulted in more than 125 peer-reviewed publications.
    Dr. Dehmer is a fellow of the American Physical Society and the 
American Association for the Advancement of Science. For the 15 years 
prior to joining DOE, she served in dozens of elected and appointed 
positions in scientific and professional societies and on review 
boards. Dr. Dehmer was awarded the Meritorious Presidential Rank Award 
in 2000 and the Distinguished Presidential Rank Award in 2003.

    Chairman Lampson. Thank you, Dr. Dehmer. Dr. Dierker, you 
are recognized.

   STATEMENT OF DR. STEVEN B. DIERKER, ASSOCIATE LABORATORY 
 DIRECTOR FOR LIGHT SOURCES; NATIONAL SYNCHROTRON LIGHT SOURCE 
      II PROJECT DIRECTOR, BROOKHAVEN NATIONAL LABORATORY

    Dr. Dierker. Thank you, Mr. Chairman, and also 
Congresswoman Biggert for the opportunity to provide testimony 
on the Basic Energy Sciences Program. I have served as the 
Director of the National Synchrotron Light Source since 2001 
and then more recently as the Associate Lab Director for Light 
Sources and Project Director for the National Synchrotron Light 
Source II Project at Brookhaven National Lab, I am pleased to 
share with you my perspective on the synchrotron light sources 
operated by the BES Program.
    Under BES leadership, the four BES light source facilities 
have thrived and flourished. They have really become one of the 
great success stories of the past 25 years. Created by a 
handful of pioneering physicists, they are now used by more 
than 8,000 academic, industrial, and government researchers 
annually from all disciplines and from every state in the 
United States as well as overseas. My own experience with the 
National Synchrotron Light Source (NSLS) is representative of 
the other BES light sources. With close to 1,000 publications 
per year, the NSLS is one of the most prolific scientific 
facilities in the world. Each year it attracts about 2,200 
scientists from 350 universities and 90 companies to conduct 
research at 65 beamlines in such diverse fields as biology, 
physics, chemistry, geology, medicine, environmental, and 
material science.
    The BES light sources give researchers unique capabilities 
for carrying out basic research that is essential for the 
development of future energy technologies. For example, using 
the BES light sources, scientists have studied catalysts that 
could help improve the performance of hydrogen-powered fuel 
cells, a key component of future clean car technologies; have 
studied the electrolytes in lithium ion batteries with the aim 
of improving their performance; have studied the properties of 
high temperature superconductors, materials that conduct 
electricity with almost zero resistance and promise high-
efficiency transmission of power for the electric grid; and 
have studied flame chemistry and combustion leading to more 
efficient designs for fuel spray nozzles. These are only a few 
examples of the wide-range, high-impact fundamental and applied 
research made possible by the light sources.
    The goal in operating a major light source facility is to 
enable world-class science and technology and to operate with 
maximum effectiveness for all users. Large numbers of users now 
want to use a very limited number of beamlines, a situation 
distinctly different from that even 20 years ago. Many 
beamlines are oversubscribed and cannot meet user demand for 
beamtime. The light sources truly represent a scarce national 
resource. As a result of these trends, the BES light source 
facilities are taking a greater role in constructing and 
operating the beamlines and instruments in order to better 
accommodate user needs and to ensure stable, reliable 
operations.
    In selecting the beamlines to be constructed at the 
facilities, facility management needs to ensure that the 
appropriate capabilities are present so that it is as 
productive as possible. Planning needs to prioritize among 
competing demands and strike the appropriate balance between 
different communities. All key stakeholders, including the user 
community, funding agencies, and facility management, actively 
engage in facility planning through workshops, white papers, 
advisory committee meetings, and others. This inclusiveness in 
planning is a hallmark of the DOE selection process and is a 
key contributor to DOE's successful management of the light 
sources.
    Light sources routinely operate 5,500 hours per year, or 
about 24 hours per day for 230 days. The accelerators at the 
heart of the light sources operate very reliably, generally 
delivering 95 percent of their scheduled time. However, not all 
of the beamlines are operating at their full potential. It is 
critically important that today's facilities be provided full 
support for operations to meet the ever increasing demand for 
synchrotron facilities. Support for research and development 
for new instrumentation and detectors is equally important.
    The utility of today's light sources have been greatly 
expanded by technological progress in many areas. However, 
there is a critical need for even more advanced and powerful 
storage ring based light sources. The economic and energy 
security of the United States requires we make major advances 
in developing alternative energy and pollution control 
technologies. Achieving this will require basic research 
leading to scientific breakthroughs and developing new 
materials with previously unimagined properties.
    To realize this promise, it is essential that we develop 
new synchrotron radiation tools that will allow the 
characterization of materials with nanoscale resolution, 
capability that doesn't exist today. In order to fill this, the 
program is carrying out the design and construction of the 
National Synchrotron Light Source II which will give this 
capability. No other synchrotron light source will have the 
beam characteristics of this facility, and it will be part of a 
new era of science that is key to America's competitiveness.
    The program has outstanding track records successfully 
constructing large and very productive facilities. The 
construction plans for facilities are subjected to rigorous 
series of reviews, and the resulting cost, schedule, and 
technical baselines establish realistic goals for the 
construction of those facilities.
    As a project director, I have opportunity to work closely 
with the program management as part of the integrated project 
team that shares a common goal of constructing the new facility 
on schedule and within the approved budget. It is a pleasure to 
work with a DOE team that has such an excellent track record 
and understanding of the challenges in construction of new 
facilities.
    Thank you, Mr. Chairman, for providing this opportunity to 
discuss the program.
    [The prepared statement of Dr. Dierker follows:]
                Prepared Statement of Steven B. Dierker
    Thank you Mr. Chairman, Ranking Member Inglis, and Members of the 
Committee for the opportunity to appear before you to provide testimony 
on the Basic Energy Sciences (BES) Program in the Department of 
Energy's (DOE's) Office of Science (SC). I have worked in industry, in 
academia, and, since 2001, in the DOE national laboratory system, first 
as Director of the National Synchrotron Light Source and most recently 
as the Associate Laboratory Director for Light Sources and the Project 
Director for the National Synchrotron Light Source II Project at 
Brookhaven National Laboratory. I am pleased to share with you my 
perspectives on the synchrotron radiation light sources operated by 
BES.

Synchrotron radiation light sources

    Under BES leadership, the four BES light source facilities, the 
National Synchrotron Light Source (NSLS) at Brookhaven National 
Laboratory (BNL), the Stanford Synchrotron Radiation Laboratory (SSRL) 
at the Stanford Linear Accelerator Center (SLAC), the Advanced Light 
Source (ALS) at Lawrence Berkeley National Laboratory (LBNL), and the 
Advanced Photon Source (APS) at Argonne National Laboratory (ANL), have 
thrived and flourished. They have become one of the great success 
stories of the past 25 years. Created by a handful of pioneering 
physicists, they are now used by more than 8,000 academic, industrial, 
and government researchers annually from all disciplines and from every 
state in the U.S. as well as foreign countries.
    My own experience is with the National Synchrotron Light Source, 
which is representative of the other BES light sources. With close to 
1,000 publications per year, the NSLS is one of the most prolific 
scientific facilities in the world. Each year, it attracts about 2,200 
scientists from 350 universities and 90 companies to conduct research 
at 65 beamlines in such diverse fields as biology, physics, chemistry, 
geology, medicine, and environmental and materials sciences.
    The BES light sources give researchers unique capabilities for 
carrying out basic long-term research that is essential for the 
development of future energy technologies. For example, using the BES 
light sources, scientists:

        <bullet>  have studied catalysts that could help improve the 
        performance of hydrogen-powered fuel cells, a key component of 
        future clean-car technologies;

        <bullet>  have studied electrolytes in lithium-ion batteries 
        with the aim of improving their performance;

        <bullet>  have studied the properties of high-temperature 
        superconductors, materials that conduct electricity with almost 
        zero resistance and promise high efficiency transmission of 
        power for the electric grid; and

        <bullet>  have studied flame chemistry and combustion, leading 
        to more efficient designs for fuel spray nozzles.

    These are only a few examples of the wide-ranging high-impact 
fundamental and applied research made possible by the synchrotron 
radiation light sources.

User Access and Facility Management

    The goal in operating a major light source facility is to enable 
world-class science and technology and to operate with maximum 
effectiveness for all users. Large numbers of users now want to use a 
very limited number of beamlines, a situation distinctly different from 
that even 20 years ago. Many beamlines are oversubscribed and cannot 
meet user demand for beamtime. The light sources represent a scarce 
national resource. As a result of these trends, the BES light source 
facilities are taking a greater role in constructing and operating the 
beamlines and instruments in order to better accommodate user needs and 
to ensure stable, reliable operations.
    In selecting the beamlines to be constructed at the light source 
facilities, facility management needs to ensure that the appropriate 
capabilities are present at the facility so that it is as productive as 
possible. Facility planning needs to prioritize among competing demands 
and strike the appropriate balance between different scientific 
communities. All key stakeholders, including the user community, 
funding agencies, and facility management, are actively engaged in 
facility planning through workshops, whitepapers, advisory committee 
meetings, and other means. This inclusiveness in planning is a hallmark 
of the DOE selection process and is a key contributor to DOE's 
successful management of the light source facilities.
    BES light sources routinely operate about 5,500 hours per year, 
i.e., 24 hours per day for about 230 days, with the remainder required 
for necessary maintenance and upgrades. The accelerators at the heart 
of the light sources operate very reliably, generally delivering 95 
percent or more of their scheduled operating hours. However, not all of 
the beamlines are operating at their full potential. It is critically 
important that today's facilities be provided full support for 
operations to meet the ever increasing demand for synchrotron radiation 
facilities. Support for research and development for new 
instrumentation and detectors is equally important to take maximum 
advantage of today's facilities.

Advances in Synchrotron Light Sources

    The utility of today's light sources has been greatly extended by 
technological progress in many areas that has resulted in spectacular 
gains in source performance. Nevertheless, there is a critical need for 
even more advanced and powerful storage ring based light sources.
    The economic and energy security of the United States requires that 
we make major advances in developing alternative energy and pollution 
control technologies--such as the use of hydrogen as an energy carrier; 
the widespread, economical use of solar energy; or the development of 
the next generation of nuclear power systems. Achieving this will 
require basic research leading to scientific breakthroughs in 
developing new materials with previously unimagined properties. 
Examples include catalysts that can split water with sunlight for 
hydrogen production, materials that can reversibly store large 
quantities of hydrogen, materials for efficient power transmission 
lines, materials for solid state lighting with 50 percent of present 
power consumption, and materials for reactor containment vessels that 
can withstand fast-neutron damage and high temperatures. The National 
Nanoscience Initiative is predicated on the promise of exploiting the 
remarkable changes in properties of materials when structured on the 
nanoscale to develop new materials with enhanced properties.
    To realize this promise, it is essential that we develop new 
synchrotron radiation tools that will allow the characterization of the 
atomic and electronic structure, the chemical composition, and the 
magnetic properties of materials with nanoscale resolution, 
capabilities that are beyond today's light sources. In order to fill 
this capability gap and to further the accomplishment of its mission, 
the BES program plans to construct the National Synchrotron Light 
Source II (NSLS-II) facility as a replacement for NSLS. NSLS-II will 
enable the study of material properties and functions, particularly 
materials at the nanoscale, at a level of detail and precision never 
before possible. No other synchrotron light source worldwide will have 
the beam characteristics and advanced instrumentation of NSLS-II. It 
will be part of a new era of science that is key to America's 
competiveness, where material properties can be sufficiently well 
understood to be predictable and ultimately tailored to specific 
applications.

Construction Project Management

    The BES program has an outstanding track record, successfully 
constructing some of the largest and most productive facilities within 
the Office of Science. The so-called ``Lehman Reviews'' ensure that the 
lessons-learned within SC inform the plans for new facilities. The 
NSLS-II facility construction plans were subjected to a rigorous series 
of these SC Lehman reviews and the resulting cost, schedule, and 
technical baseline that was approved by the Deputy Secretary of Energy 
is robust, establishing realistic goals for the construction of the 
facility.
    As the NSLS-II Project Director, I have the opportunity to work 
closely with the BES program management and the DOE Brookhaven Site 
Office as part of an Integrated Project Team that shares the common 
goal of constructing NSLS-II on schedule and within the approved 
budget. It is a pleasure to work with a DOE team that has such an 
excellent track record and understanding of the challenges encountered 
in the construction of new facilities.
    In what follows, I provide additional details on these topics.

Synchrotron radiation light sources

    Synchrotron radiation light sources are large and complex 
facilities for accelerating electrons to nearly the speed of light and 
then storing them in a circular orbit using a storage ring consisting 
of hundreds of large magnets and other components. At controlled points 
around the storage ring, the electrons are made to emit high intensity 
narrow beams of light at wavelengths that span the range from the 
infrared, through the visible, to soft, and hard x-rays. This 
synchrotron radiation light is a natural phenomena, similar to the 
starlight we see at night, but a synchrotron radiation light source 
produces much more intense and narrow beams and at many locations 
around the storage ring. These light beams are transported down 
``beamlines'' to experiment stations containing sophisticated apparatus 
that allows researchers to use the light to study the properties of 
materials.
    The information obtained in experiments carried out at synchrotron 
light sources often cannot be obtained any other way. A synchrotron 
radiation light source may have 60 or more of these experimental 
beamlines, all operating simultaneously. The facility can thus host a 
large number of research groups, all carrying out different experiments 
at the same time.
    The wealth and variety of experimental techniques available at 
synchrotrons is characterized by the very wide photon energy range they 
can offer, from the far infrared to the very hard x-ray. Most 
techniques, and the instruments that enable these techniques to be 
performed, are associated with a particular photon energy range. Thus, 
the wide energy range offered to users is served by a wide variety of 
experimental techniques. While each of the beamlines is different and 
complementary, they can be grouped into the following four major 
categories:
    Diffraction and scattering techniques make use of the patterns of 
light produced when x-rays are deflected by the closely spaced atoms in 
solids and are commonly used to determine the structures of fully 
ordered or partially ordered materials, from ferroelectrics for use in 
electronics to new superconductors for possible power applications.
    Macromolecular crystallography is the most powerful method for the 
determination of the three-dimensional structure of large biological 
molecules (macromolecules). This technique can be used to design 
therapeutic drugs and determine the structure and mechanisms of enzyme, 
nucleic acids, viruses, and numerous other molecules in order 
understand life processes and how to better diagnose and treat disease.
    Imaging techniques produce pictures with fine spatial resolution of 
the sample being studied, for use in research ranging from visualizing 
plaque formation in Alzheimer's disease patients to the environmental 
analysis of soils.
    Spectroscopy is used to study the energies of particles that are 
emitted or absorbed by samples that are exposed to a light-source beam. 
It provides unique information on the composition of a sample and the 
chemical nature of the bonding. Experiments include measuring the 
concentration and chemical nature of impurities in systems, from soils 
to silicon solar cells, or measuring the excitations of magnetic 
systems to develop better performing nano-magnetic memory devices.

User Access and Facility Management

    Users of the facilities include academic, industrial, and 
government scientists and engineers. The results of the vast majority 
of user research are made available in the public domain by publication 
in the open literature. There is also a limited need for access to 
carry out proprietary research that utilizes these unique facilities to 
benefit the national economy. Proprietary research is the only mode of 
user access for which there is a charge for beam time.
    The facilities have adopted policies for user access that are 
designed to achieve the following objectives:

        <bullet>  ensure open and fair access by the scientific 
        community at large;

        <bullet>  sustain the highest standards of scientific and 
        technical excellence; and

        <bullet>  respond and adapt to varying user needs and funding 
        realities

    The key to delivery of outstanding science and technology is 
rigorous peer review that is fair, clear, expedient and sensitive to 
the needs of users. Various external independent advisory committees 
play key roles in providing this.
    Users access the facilities by submitting proposals as either 
General Users or as Partner Users. General Users are individuals or 
groups who need access to beam time to carry out their research using 
existing beamlines. They typically only supply samples, but can also 
provide custom instrumentation or end-stations for the duration of 
their experiments. General Users apply for access by submitting a 
scientific proposal that is evaluated by an independent review panel. 
The amount of beam time allocated to the proposal depends on the rating 
of the proposal relative to other proposals requesting beam time and on 
beam time availability.
    In some cases, users have a need to obtain experimental results on 
an expedited schedule. This is often the case when the synchrotron 
measurement can be done in a short amount of time and is only one step 
of an overall experimental program. Examples include high throughput 
measurement of properties of materials grown using combinatorial 
synthesis techniques, screening of protein molecules to identify large, 
well diffracting crystals, or the solution of many time critical 
analytical problems studied in industry. To serve this need, ``Rapid 
Access'' proposals receive an expedited review and can usually be 
scheduled for beamtime within a week or two.
    Partner Users are individuals or groups who carry out research at 
beamlines and also enhance the beamline capabilities and/or contribute 
to its operation. Partner Users typically develop instrumentation in 
some manner, either bringing external financial and/or intellectual 
capital into the evolution of the beamlines, or by making an external 
contribution to the operation of the beamlines. Partner User 
contributions have to be made available to the General Users and so 
benefit them as well as the facility. To encourage involvement and in 
exchange for making these contributions available to General Users and 
the facility, Partner Users may be recognized for their investments by 
receiving a specified percentage of beam time on one or more beamlines 
for a limited period, typically several years, with the possibility of 
renewal.
    Various models have emerged for allocation of beamline resources, 
i.e., for determining who specifies, builds, owns, operates, maintains, 
and uses the beamlines. Beamline allocation models range from Facility 
Owned and Operated Beamlines (FOOBs) that are built, owned, and 
operated by the facility for general users to Participating Research 
Teams (PRTs) and Cooperative Access Teams (CATs) in which consortia of 
outside users build, own, and operate the beamlines. PRTs and CATs are 
a special case of a Partner User group in which the PRT/CAT has brought 
in external funds to independently and wholly build, maintain, staff 
and operate a beamline. The PRT/CAT is required to provide some 
fraction of beamtime--typically 25 percent--to General Users and to 
provide training and assistance to General Users who are allocated beam 
time on their beamline. In exchange, the PRT has complete control over 
the beamline and manages its scientific program for the remaining 
available beam time of up to 75 percent for a renewable term of 
typically three years.
    Many facilities have a mixture of FOOBs, PRTs, and/or CATs. The BES 
light source facilities are currently evolving their access models to 
emphasize FOOBs in most cases in order to better accommodate user needs 
and to ensure stable, reliable operations.

Construction Project Management

    The DOE has extensive experience with effectively managing large 
scale construction projects to deliver the mission need safely, on 
time, and within budget. The requirements for projects to achieve this 
have been stated in the DOE Order 413.3A, Program and Project 
Management for the Acquisition of Capital Assets, and its 
implementation manual, DOE M 413.3-1, Project Management for the 
Acquisition of Capital Assets. All projects costing more than $20M are 
carried out in accord with these requirements.
    DOE Order 413.3A defines five Critical Decisions, or ``CDs''--
formal determinations or decision points in a project life cycle that 
allow the project to proceed to the next phase and commit resources. 
Each decision constitutes a work authorization for a specific phase of 
the project. The Deputy Secretary of Energy serves as the Secretarial 
Acquisition Executive (SAE) for the Department and approves site 
selection and Critical Decisions for Major System Project.
    CD-0, Approve Mission Need, authorizes preparation of a Conceptual 
Design Report, Acquisition Strategy, Risk Management Assessment, and 
Safety Documentation. CD-1, Approve Alternative Selection and Cost 
Range, authorizes the expenditure of Project Engineering and Design 
funds to proceed with Title I (preliminary) and Title II (final) 
design. CD-2, Approve Performance Baseline, establishes the technical, 
schedule, and cost performance baseline for the project. CD-3, Approve 
Start of Construction, authorizes the project to start full-scale 
construction. CD-4, Approve Project Completion, is accomplished when 
the project scope has been delivered and demonstrated to be functioning 
properly and safely and the facility is ready to begin operations.
    An essential element of project management systems is the control 
of changes to the performance baseline. Changes to project execution 
are evaluated in terms of baseline impacts. Through a graduated 
hierarchy of change control authority, appropriate levels of management 
become involved in decisions regarding project changes.
    Real-time monitoring of a project occurs through established 
mechanisms among project participants. Progress reviews of the project 
are conducted by SC, typically at semiannual intervals, with results of 
these reviews provided to the Under Secretary for Science. Quarterly 
Progress Reviews are conducted between the Under Secretary for Science 
and the Federal Project Director. Formal project reporting, including 
monthly data submissions into the DOE Project Assessment and Reporting 
System (PARS), is in effect for the duration of a construction project. 
The monthly PARS report also serves as the basis for the NSLS-II 
Project's input to the Office of Engineering and Construction 
Management (OECM) Monthly Project Status report to the Deputy Secretary 
of Energy.
    The safety and security of all staff, guests, contractors, vendors, 
and the environment is a primary priority in construction projects. It 
is expected that all staff and contractors will plan, manage, and 
execute their respective duties consistent with the requirements of the 
tenets of Integrated Safety Management to ensure that the facility is 
designed, constructed, and operated in a safe and environmentally sound 
manner to ensure the protection of the workers, the public, and the 
environment.

Concluding Remarks

    Thank you, Mr. Chairman, for providing this opportunity to discuss 
the Basic Energy Sciences program. This concludes my testimony, and I 
would be pleased to answer any questions you might have.

                    Biography for Steven B. Dierker
    Steven Dierker is the Associate Laboratory Director for the Light 
Sources Directorate and the Director of the National Synchrotron Light 
Source II (NSLS-II) Project at Brookhaven National Laboratory (BNL). As 
NSLS-II Project Director, he has overall line management responsibility 
and authority for carrying out the NSLS-II Project, including the 
design, construction, and transition to operations of the NSLS-II 
facility to ensure all mission requirements are fulfilled in a safe, 
cost-efficient, and environmentally responsible manner. In addition to 
the NSLS-II Project, the Light Sources Directorate also includes the 
National Synchrotron Light Source (NSLS), which reports to Dr. Dierker.
    After earning B.S. degrees in both physics and electrical 
engineering in 1977 from Washington University, Dierker earned both an 
M.S. and Ph.D. in physics from the University of Illinois, Urbana-
Champaign, in 1978 and 1983, respectively. His Ph.D. research involved 
the first observation of Raman scattering from superconducting gap 
excitations, which has now become a widespread and powerful technique 
for investigating the physics of superconductors.
    In 1983, he joined the Semiconductor and Chemical Physics Research 
Department at AT&T Bell Laboratories and carried out research using 
light scattering and neutron scattering to study problems in soft 
condensed matter, most notably the hexatic phase of freely suspended 
liquid crystal films and activated dynamics of binary fluids in porous 
media.
    In 1990, he joined the University of Michigan, where he was 
Professor of Physics and Applied Physics. At Michigan, he pioneered the 
development of the new technique of X-ray Photon Correlation 
Spectroscopy (XPCS) and carried out the first convincing demonstration 
of the feasibility of this technique in a study of Brownian motion of 
gold colloids. Dierker helped to plan the design, construction, and 
operation of beamlines at the APS, with funding from the U.S. 
Department of Energy and the National Science Foundation.
    In 2001, Dierker joined BNL to become Director of the NSLS, which 
has a $37M annual operating budget, a staff of 200, and serves more 
than 2,200 users per year. He became the Associate Laboratory Director 
for the Light Sources Directorate at BNL when that Directorate was 
created in 2003. He also continued to serve as the Chair of the NSLS 
until he stepped down from that position to become the Director of the 
NSLS-II Project in December, 2005.

    Chairman Lampson. Thank you, Dr. Dierker. And Dr. Hall, you 
are now recognized.

  STATEMENT OF DR. ERNEST L. HALL, CHIEF SCIENTIST, CHEMISTRY 
TECHNOLOGIES AND MATERIALS CHARACTERIZATION, GE GLOBAL RESEARCH

    Dr. Hall. Thank you, Mr. Chairman, acting Ranking Member 
Biggert. Good afternoon, and thank you for inviting me to 
address the Committee and provide GE's perspective on the 
Department of Energy's Office of Sciences Basic Energy Science 
Program.
    I am a Chief Scientist at GE Global Research, GE's central 
research and development organization. We are arguably the 
largest and most diversified industrial research lab in the 
Nation, if not the world with a proud heritage of innovation 
spanning more than 100 years.
    GE researchers have a proven record of delivering 
meaningful technology from breakthrough developments that 
include medical X-rays in the early 1900's and the first U.S. 
jet engine in the 1940's to advancing new energy sources today 
such as solar and wind.
    The mission of GE Global Research is the same as it was at 
the time of our founding in 1900, to drive innovations that 
create new and better GE products that meet the need of our 
customers and society.
    I have 36 years of experience in advanced methods of 
materials characterization and for the past 17 years have 
managed a group of scientists at GE Global Research who use the 
most advanced tools for the analysis of structure and 
composition of GE materials including significant usage of the 
DOE synchrotron and neutron facilities.
    Today I would like to share my views on the DOE's Office of 
Sciences BES Program and what it means to research conducted at 
GE. In short, access to national synchrotron, neutron, and 
electron beam facilities managed by BES is critical to the 
development of new technologies by GE. GE primarily uses DOE 
synchrotron facilities at Brookhaven and Argonne National Labs, 
and has used the NIST and Argonne neutron facilities, and 
electron microscopy at Lawrence Berkeley and Oak Ridge National 
Labs. The research we perform at these national facilities is 
critical to GE's technology and product development and 
addresses some of the most important national needs. We use the 
synchrotron X-ray sources to provide us with higher energy, 
higher resolution, and higher throughput experimentation than 
we can achieve in our own labs. For example, we can achieve a 
30X reduction in the time required for some experiments using 
the synchrotron. These more intense x-ray sources also allow us 
to conduct experiments in environments that better approximate 
those encountered when the materials are used in applications 
such as gas turbines or aircraft engines.
    Examples of our research at the synchrotron facilities 
include the measurement of chemical processes occurring during 
the operation of advanced batteries for hybrid vehicles; the 
determination of the atomic mechanisms by which materials store 
and release hydrogen for hydrogen-powered cars; development of 
nanotechnology; fuel cell development; and measuring stresses 
and strains in a non-destructive way to predict the life of 
turbine parts associated with our gas turbine business in South 
Carolina and our aircraft engine business in Ohio and 
Massachusetts. We have used the Intense Pulsed Neutron Source 
at Argonne to study new phosphor and detector materials for 
higher-resolution medical imaging equipment, homeland security 
devices, and higher-efficiency lighting. While GE is a 
significant user of the synchrotron light source facilities, we 
could never fully utilize our own synchrotron, making access to 
DOE facilities essential. In addition, the regional strategy 
put in place by DOE is a favorable model, with GE using the 
Brookhaven site most frequently given its proximity to our R&D 
center in upstate New York.
    While we have found ways to effectively utilize these 
facilities, there are some potential improvements that I wish 
to highlight on behalf of the industrial user community. We 
would urge these facilities to make availability to industrial 
users a top priority. We understand this will need to be 
properly balanced with outstanding fundamental research, which 
is currently the main priority. Industrial research has a 
unique set of needs and requirements, including the need for 
prompt access, reliable operation, and the ability to conduct 
repeated experiments on large numbers of samples for process 
development and validation which is vital to developing robust 
and reliable commercial technology. We would advocate the 
creation of a system that would make facility time available to 
industry with minimum bureaucracy and cost. If DOE wishes to 
impact the broadest spectrum of industrial users, then it is 
important to provide more than just access to the facility. 
Particularly for smaller companies, it will be important to 
provide access to facility researchers who can assist with set-
up of experiments, data collection, and data processing and 
interpretation.
    We are very supportive of the recent shifts by the DOE that 
gives funding for the construction and maintenance of beamlines 
or endstations to the facility. This increases availability and 
standardization.
    Finally, we urge that simple and cost-effective mechanisms 
be put in place for industry to conduct proprietary research. 
This is particularly important when industry is using the 
facility as a characterization tool rather than conducting 
fundamental research.
    Mr. Chairman, I want to thank you and the other Members of 
the Committee for the opportunity to provide testimony. We have 
strong collaborations in place with many agencies, especially 
the Department of Energy. It is our hope that we can continue 
to make these industry-government partnerships even stronger so 
that we can deliver real technologies to the marketplace that 
solves some of the world's most pressing challenges. Thank you.
    [The prepared statement of Dr. Hall follows:]
                  Prepared Statement of Ernest L. Hall
    Mr. Chairman, Ranking Member Inglis, and Members of the Committee: 
good morning and thank you for inviting me to address the Committee and 
provide GE's perspective on the Department of Energy's Office of 
Science's Basic Energy Sciences program.
    I am Ernie Hall, a Chief Scientist in the Chemistry Technologies 
and Materials Characterization labs at GE Global Research, GE's 
centralized research and development organization. We are arguably the 
largest and most diversified industrial research lab in the Nation, if 
not the world, with a proud heritage of innovation spanning more than 
100 years. This is my official statement and has been entered into the 
record.
    From breakthrough developments that include medical x-ray in the 
early 1900s and the first U.S. jet engine in the 1940s, to advancing 
new energy sources today such as solar and wind, GE researchers have a 
proven record of delivering meaningful technology. The mission of GE 
Global Research is the same as it was at the time of our founding in 
1900--to drive innovations that create new or better GE products that 
meet the needs of our customers and society.
    In my current role, I am expected to provide a broad, technical 
vision to all of the global technology organizations at GE Global 
Research, our GE businesses and our end customers. I have 36 years of 
experience in advanced methods of materials characterization and I have 
authored more than 175 external technical publications. For the past 17 
years I managed a group of scientists at GE Global Research who use the 
most advanced tools for analysis of the structure and composition of GE 
materials, including significant usage of DOE's synchrotron and neutron 
facilities.
    Today, I would like to share my views on the DOE's Office of 
Science's Basic Energy Sciences program and what it means to research 
conducted by GE. In short, access to national synchrotron, neutron, and 
electron beam facilities managed by BES is critical to the development 
of new technologies by GE. GE primarily uses DOE synchrotron facilities 
at Brookhaven and Argonne National Labs, and has used the NIST and 
Argonne neutron facilities, and electron microscopy at Lawrence 
Berkeley and Oak Ridge National Labs.
    The research we perform at these national facilities is critical to 
GE's technology and product development, and addresses some of the most 
important national needs. We use the synchrotron x-ray sources to 
provide us with higher energy, higher resolution, and higher throughput 
experimentation than we can achieve in our own labs. For example, we 
can achieve a 30X reduction in the time required for some experiments 
using the synchrotron. These more intense x-ray sources also allow us 
to conduct experiments in environments that better approximate those 
encountered when the materials are used in applications such as gas 
turbines or aircraft engines.
    Examples of our research at the synchrotron facilities include 
measurement of chemical processes occurring during operation of 
advanced batteries for hybrid vehicles; determination of the atomic 
mechanisms by which materials store and release hydrogen for hydrogen-
powered cars; development of nanotechnology, including ceramic 
membranes for industrial sensors; fuel cell development; and measuring 
stresses and strains in a non-destructive way to predict the life of 
turbine parts associated with our gas turbine business in Greenville, 
South Carolina and our aircraft engine business in Cincinnati, Ohio and 
Lynn, Massachusetts. We have used the Intense Pulsed Neutron Source at 
Argonne to study new phosphor and detector materials for higher-
resolution medical imaging equipment, homeland security devices, and 
higher-efficiency lighting.
    While GE is a significant user of the synchrotron light source 
facilities, we could never fully utilize our own synchrotron, making 
access to DOE facilities essential. In addition, the regional strategy 
put in place by DOE is a favorable model, with GE using the Brookhaven 
site most frequently given its proximity to our R&D center in upstate 
New York.
    While we have found ways to effectively utilize these facilities, 
there are some potential improvements that I wish to highlight on 
behalf of the industrial user community. We would urge these facilities 
to make availability to industrial users a top priority. We understand 
that this will need to be properly balanced with outstanding 
fundamental research, which is currently the main priority. Industrial 
research has a unique set of needs and requirements, including the need 
for prompt access, reliable operation, and the ability to conduct 
repeated experiments on large numbers of samples. This process 
development and validation is vital to developing robust and reliable 
commercial technology, yet is often in competition with the drive for 
unique, cutting-edge academic research taking place at the national 
resources.
    GE enjoys a strong, collaborative relationship with the DOE. 
However, because industrial research utilizing the synchrotrons is not 
a top priority, it is my team's experience that gaining access to 
sufficient beam time on a timely basis can be challenging. We would 
advocate the creation of a system that would make facility time 
available to industry with minimum bureaucracy and cost.
    Based on my own experience as a researcher, I would like to make an 
additional point. If DOE wishes to impact the broadest spectrum of 
industrial users, then it is important to provide more than just access 
to the facility. We are fortunate at GE to have outstanding scientists 
on our research staff, some of whom have worked at the national 
facilities as graduate students or post-doctoral associates. This will 
not be true for all companies, especially smaller businesses. In 
addition to beam time, it is important to provide access to facility 
researchers who can help with experiment set-up, data collection, and 
data processing and interpretation. I have been involved with the 
Shared Research Equipment (SHaRE) program at Oak Ridge National 
Laboratory, providing access mainly to electron microscopes and 
administered by DOE BES, and in my mind this is a good model for access 
to advanced instrumentation for both academic and industrial 
researchers.
    Another area that I would like to call attention to is the need for 
available end-stations for specific experiments. As you may know, while 
the synchrotron or neutron facility produces the x-rays or neutrons 
needed for experimentation, it is also necessary to have experimental 
stations to receive the beams and conduct the experiments. Many of 
these are specialized for specific experiments. In the past, most of 
these end stations were built by Participating Research Teams, mainly 
from universities, which received government funding for their 
construction. Over time, these stations may or may not have been well-
maintained, or available to industrial use. In recent years, the DOE 
has switched to giving the funding for end-station construction to the 
facility directly. We applaud this change since it makes these stations 
available for other users, standardizes hardware and software use 
across the facility, and allows the facility to continue to maintain 
and modernize these end-stations.
    The final point that I wish to make concerns proprietary research. 
The competitiveness of U.S. industry relies upon proper patent 
protection of the technology that we have invested to develop. There 
needs to be proper protection in place for the situation where an 
industrial researcher conducts an experiment on a proprietary material 
at a national facility. At present, the national facilities have a 
``total cost recovery'' option for proprietary research, but the high 
cost of this option again seems to put priority on basic, publishable 
research. We of course recognize that research conducted jointly by 
national facilities and industry should be considered as a separate 
category, but urge a re-examination of the case where an industrial 
scientist wants to run an experiment on a material under development in 
an industrial lab. GE has not used the ``total cost recovery'' option 
extensively, since most of our research is on the structure of 
engineering materials, and we can often publish these more general 
results. However, it is our understanding that proprietary issues can 
be particularly problematic for the chemical and pharmaceutical 
industries.
    Mr. Chairman, I want to thank you and Members of the Committee for 
the opportunity to provide testimony. We have strong collaborations in 
place with many agencies, especially the Department of Energy. It is 
our hope that we can continue to make these industrial-government 
partnerships even stronger so that we can deliver real technologies to 
the marketplace that solve some of the world's most pressing 
challenges. This concludes my testimony and I would be pleased to 
answer any questions.
    Thank you.

                      Biography for Ernest L. Hall
BS, Massachusetts Institute of Technology, 1973, Metallurgy and 
        Materials Science

Ph.D., Massachusetts Institute of Technology, 1977, Materials Science 
        and Engineering

    Dr. Ernest L. Hall joined GE Global Research in 1979. He is 
presently Chief Scientist for Chemical Technologies and Materials 
Characterization, where he is responsible for shaping the technical 
vision and strategic technology direction of his organization and GE 
Global Research. From 1991 until 2008 he was manager of the 
Microstructural and Surface Science Laboratory, which provides 
capabilities for micro- and nano-scale imaging, surface analysis, x-ray 
diffraction and crystallography, nano-property measurement, and 
quantitative image analysis. His particular areas of expertise include 
the techniques and applications of analytical transmission electron 
microscopy in materials science. In his role as a technical contributor 
he has conducted microstructural investigations of a wide variety of 
different materials, including semiconductors, superconductors, and 
nickel and titanium-based alloys for aircraft engine and aerospace 
applications.
    Ernie is author or co-author of over 175 technical publications, 
one book chapter, and has edited four books on the methods and 
applications of analytical electron microscopy and other advanced 
characterization methods in materials research. From 1984 to 1990 he 
served as an adjunct professor in the Materials Engineering Department 
at Rensselaer Polytechnic Institute. Prior to joining GE, he spent two 
years as a Research Associate/IBM Postdoctoral Fellow at MIT.
    In 1984 Ernie was awarded the Alfred H. Geisler Award by the 
Eastern New York chapter of ASM for his metallurgical research and, in 
1989, was named a Coolidge Fellow, the highest honor awarded by GE 
Global Research, for his outstanding and sustained research 
contributions. He has served as past Chairman of the Hudson-Mohawk 
chapter of TMS, as National Program Vice Chair and Chair for the 
Microscopy and Microanalysis annual meeting, on the editorial board of 
Metallurgical Transactions, as Chair of GE's Teacher Industrial 
Fellowship program, and as coordinator of the both the Coolidge Fellows 
and the Lab Manager Council at GRC. He has served on the governing 
Boards of both the Microscopy Society of America and the Microbeam 
Analysis Society.
    Ernie has also served on the scientific advisory board of the DOE-
BES Shared Research Equipment (ShaRE) program at Oak Ridge National 
Lab, as an invited participant in the ``Nanoscience Opportunities at 
NSLS-II'' workshop at Brookhaven National Lab, and as Session Chair at 
the 2007 DOE-BES roadmap/grand challenges workshop on Future Science 
Needs and Opportunities for Electron Scattering.

    Chairman Lampson. Thank you, Dr. Hall. Dr. Russell, you are 
recognized.

      STATEMENT OF DR. THOMAS P. RUSSELL, SILVIO O. CONTE 
   DISTINGUISHED PROFESSOR, POLYMER SCIENCE AND ENGINEERING 
  DEPARTMENT, UNIVERSITY OF MASSACHUSETTS-AMHERST; DIRECTOR, 
 MATERIALS RESEARCH SCIENCE AND ENGINEERING CENTER; ASSOCIATE 
                     DIRECTOR, MASSNANOTECH

    Dr. Russell. Chairman Lampson, acting Ranking Member 
Biggert, thank you for the opportunity to testify. I am 
speaking to you as a scientist with 16 years of experience at 
the IBM Almaden Research Center as well as an academician at 
the University of Massachusetts at Amherst in the Department of 
Polymer Science and Engineering.
    I think from an academic perspective, it is critical to be 
able to assess the directions or how the Department of Energy 
assesses the directions as to where they are going to be 
funding research. They have done this very effectively by study 
groups and workshops and have derived five grand challenges 
that are facing the scientific community, and these grand 
challenges transcend specific disciplines and they address 
problems that relate to anything from photovoltaics to solid-
state lighting.
    One must also be critical in terms of asking about 
technology transfer, and I would like to give you three 
personal examples of research that was supported by the 
Department of Energy, Basic Energy Sciences, in my own 
research, and this is dealing with block copolymer materials 
and thin films. This has led to recent air gap technology that 
IBM is currently employing which will allow chips to operate 
faster and more efficiently.
    A second example is flash memory whereby using a similar 
type of technology, the longevity of your memory sticks 
actually can be increased significantly.
    A final example is in magnetic storage whereby we have 
developed technology where we can get 10 terabits of 
information per square inch, and for your own perspective, what 
this means is that you will be able to put 25 DVDs on a disk 
the size of a quarter. Actually, it is 250 DVDs on a disk the 
size of a quarter. That, in my opinion, is something that truly 
addresses the issue of American Competitiveness.
    Another area that the DOE must involve themselves in is as 
stewards of these facilities. As an academician, I have 
students and post-doctoral fellows who are actively conducting 
research, and they conduct research at these eight facilities. 
It is essential that these facilities be available and that 
they be reliable. I could not have said this 15 years ago, but 
yet under the stewardship of the Department of Energy, in 
particular, under guidance of Dr. Dehmer actually, what has 
been done is that these facilities have been transformed into 
being very reliable and available so that when my students or 
post-doctoral fellows go to these facilities, they will be able 
to do the experiments that they were planning to do.
    Another issue concerns the number of facilities, and there 
is an issue associated with overlap and the facilities may be 
doing similar things. That is true, they do. There is also an 
issue associated with regionality, and Dr. Dierker has already 
addressed the issue of oversubscription of these facilities; 
and it is essential that these facilities be available to the 
academic community in order to execute the research. These 
tools in my opinion are indispensable, and they become even 
more critical as we move to smaller and smaller structures. We 
hear a lot about nanostructured materials, and these facilities 
are ideally suited to address problems on the nanoscale. That 
also is going to be essential in terms of American 
Competitiveness.
    As a professor, one thing that has not been addressed is 
that these facilities are a tremendous educational tool for 
both students and post-doctoral fellows; and for the future of 
the United States in terms of the scientists that are being 
trained. Having the ability to gain experience at these 
facilities and learn the science these facilities enable is 
absolutely essential.
    I would also like to address these Energy Frontier Research 
Centers. Energy is the number one problem that is facing the 
United States and all of mankind. We have a situation now where 
we must be able to develop routes by which we can access or 
generate energy from any of a variety of means. It in my 
opinion is essential to involve the academic community. There 
is a tremendous amount of research, fundamental research, that 
needs to be done, and this can be done very effectively in the 
academic community. The industrial sector also can perform such 
research but we are in a situation whereby more research right 
now, fundamental research, is imperative in addition to the 
development that can be provided by the industrial sector.
    I would finally like to address one other thing. Everything 
sounds rosy, and it is not and the reason it is not rosy is 
that the single most critical problem for me in dealing with 
the Department of Energy is the budgets and budget reductions. 
This does not seem like a big issue to some extent, but let me 
give you one example. As an academician, we need to write 
proposals. Proposals take several months in order to write. 
Last year we were in a situation where I would say that 
approximately 300 proposals that were written and submitted to 
the Department of Energy addressing energy issues, issues that 
are the most critical problem facing us right now. At the end 
of all of this, after all the proposals were written, ranked, 
et cetera, the funding was cut from this initiative. For me as 
an academician, this is truly frustrating. It takes a huge 
amount of effort and energy in order to write these proposals, 
in order to fund the research and students and post-doctoral 
fellows that work with me. So for me, budget reductions are 
probably one of the single most critical problems that we are 
facing right now from the academic sector.
    With that, Chairman, I would like to thank you for the 
opportunity to present to you an academic perspective with a 
little bit of industrial perspective thrown in.
    [The prepared statement of Dr. Russell follows:]
                Prepared Statement of Thomas P. Russell
    I am in the unique position of having received support as an 
individual investigator from the Department of Energy, Office of 
Science, Basic Energy Science for the past 25 years both as an 
industrial scientist and as an academician. I have served on the 
Committee of Visitors who reviewed the research portfolio that the 
Office of Science, Basic Energy Science, supports and the processes 
used to make funding decisions. In addition, I have also been involved 
with the national synchrotron and neutron facilities that the 
Department of Energy stewards, as a user, as a member of research team 
efforts, as a member of proposal review panels, and as a member of 
advisory boards for the facilities. I have also served on panels that 
have mapped out the course of x-ray and neutron sciences in the United 
States. While I have actively used the facilities within the United 
States, I have also used facilities in Europe and in Asia and am in a 
position to assess the performance of the Department of Energy in the 
operation of these facilities in comparison to other countries.

Research Portfolio

    The research portfolio of the Department of Energy, Office of 
Science, Basic Energy Science encompasses and exceptionally large range 
of topics. Due to the breadth of the programs that span from soft to 
hard materials including synthetic and natural (biological) materials 
as well as a suite of national user facilities, it is truly a daunting 
task to cover every research area in sufficient detail with the budget 
limitations that are common to any funding agency. Infinite resources 
would, of course, solve all problems. However, due to the limitations 
in the budget, it is reasonable, in fact mandatory, to ask the question 
as to whether BES is allocating its resources properly. Guidance for 
research directions, in general, are established via reports from 
workshops wherein expertise from around the world are brought together 
to review the current state of affairs in a particular area and where 
the future directions of a field lay. The results of these studies are 
balanced with the potential impact that a given area will have on 
society and American Competitiveness.
    One such study group led to five grand challenges in basic science. 
These grand scientific challenges strike at the essence of the 
fundamental science stifling advances in many disciplines. Take, for 
example, the topic of non-equilibrium phenomena. Everyday we are 
exposed to and use materials that are in a state that is very far 
removed from their most preferred or, in other words, lowest energy 
state. Virtually processes that industry uses to generate materials are 
trapped in a non-equilibrium state. Yet, processes have been developed, 
more often than not by trial and error, to produce materials to meet 
end-user (consumer) needs. However, if we really understood exactly how 
the materials got to their final state, then we would have predictive 
capabilities in being able to optimize the structure and properties of 
a material. While this may seem like an obvious example, glassy 
materials, glass that is used for windows and drinking or grains of 
sand or powder passing through a funnel or rush hour traffic are 
situations where materials are tapped in a state far removed from 
equilibrium. Each of these examples represents objects that are really 
fluid-like in nature but are jammed or trapped in state where they are 
essentially frozen. Yet, can we control the state of these jammed 
materials or even develop routes by which the materials can be unfrozen 
without leading to catastrophic events. Think, for example, of mud 
slides or earthquakes where systems are trapped and the sudden release 
of the snag restraining the system and event that is highly desirable 
(as in traffic of in powder flow through a constriction) or highly 
undesirable (as in mud slides or earthquakes). As of yet, we still do 
not have a fundamental understanding of systems that are trapped in 
these highly non-equilibrium states.
    The five grand challenges that have been put forth by a panel of 
renowned scientists represent a superb platform that BES will use to 
guide future funding directions. These are challenges that transcend 
any one discipline but will have far reaching consequence to society 
and American Competitiveness. How different disciplines will address 
all or some of these challenges will be discipline-dependent, yet these 
challenges provide BES with excellent guidance for resource 
allocations. Does this mean that all research must fall under one of 
these grand challenges? Absolutely not! This raises another aspect of 
BES program managers that is critical. As a member of the Committee of 
Visitors reviewing the process by which funds were allocated, in 
general, the peer-review process was adhered to. Proposals from 
researchers in academia, industry and laboratories were reviewed and 
the program officer would make decisions based on these 
recommendations. However, there were instances where the program 
officer would fund a risky proposal. In most cases, these risks paid 
off, leading to new areas of science that clearly advance American 
technology. One case in point is combinatorial chemistry which led to 
start-up companies like Affymax, Affymetrics and Symyx Technologies 
where libraries of materials, generated by performing literally 
thousands of reactions in parallel, are used to uncover materials with 
unique properties or drugs with exceptional response. This flexibility 
is, in my opinion, extremely valuable and it has been used effectively, 
albeit with discretion and care.
    Is there evidence that the decision to fund basic science leads to 
true advances in American technology? This is the age-old question of 
whether there has any value in supporting basic research. Are there 
concrete examples where the funding of basic science has led to 
technological developments? To address this question, I would like to 
provide a brief description of the funding of my own research by BES. 
When I was at the IBM Almaden Research Center I had submitted a 
proposal to examine the behavior of polymers (plastics) at the 
interface with another polymer. From IBM's perspective, this research 
was of importance, since it addressed issues of delamination, where two 
adjoining layers of materials separate. If this occurs, this would lead 
to a failure of the device or chip or, in the least, degradation in the 
performance of a material. From a basic science point of view, 
fundamental questions concerning the behavior of a polymer molecule at 
an interface were never asked. These studies led to the development of 
processes and materials to control such delamination problems while 
using non-propriety materials and processes to uncover the fundamental 
science.
    One type of material that was intensively studied was block 
copolymers, two different polymers that are tied together at one end. 
These materials are like soap, where you have two components that 
simply do not mix and separate from each other. In the case of soap, 
there is a part that is oily or hydrophobic and one part that will 
dissolve in water or hydrophilic. Now polymers are about 10 nm in size. 
So, if I have a copolymers, we have two parts that are about 10 nm in 
size that want to separate from each other and, like in the case of 
soap, the size of the molecule and the fact that they are tied together 
limits how far apart the sections can get from each other. The 
consequence of this is that these molecules form domains that are tens 
of nanometer or less in size. The basic research that BES supported 
allowed us the opportunity to develop routes to control how these 
domains are arranged in thin films that can be generated by routine 
spin-coating processes that the microelectronics industry is using 
every day. In addition, we learned how to remove one of the domains, 
producing films that had nanoscopic holes. This seemingly simple 
process has had a tremendous impact on the microelectronics industry 
already and, soon, in the magnetic storage industry.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    By using these films with the nanoscopic holes, silicon can be 
evaporated in the holes and, with subsequent processing, tiny islands 
of silicon can be produced where each of the islands are separate from 
each other by either the remaining polymer or the polymer can be 
replaced with an electrically insulating material, like silicon oxide. 
Researchers at IBM used this very simple technology to increase the 
lifetimes of flash memory devices (memory sticks), since a critical 
component in the device is a floating gate where electrons are stored. 
However, the process of transferring electron from a source to the gate 
is destructive over time. So, if one has a single piece of silicon 
acting as the gate, with time the source will short-out with the gate. 
However, by using the copolymer technology describe above, the gate is 
broken up into a large number of smaller pieces that are insulated from 
each other and, if one of these pieces shorts-out, it does not cause a 
failure of the device, since we have a large number of smaller pieces 
left. The figure shows a side view of one of these gates where the 
copolymer templating process has resulted in a significant increase in 
the longevity of the device.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This simple concept of copolymer templating has led to yet another 
technological breakthrough. In a microelectronic circuit the speed that 
the electrons travel in the circuit depends on the dielectric constant 
of the materials surround this wires. Ideally, you would like to have 
the wires suspended in air, but this, of course, is impossible, since 
the elements of the circuit must be solid to support a multi-layered 
structure. If, though, you use the polymer film with nanoscopic holes, 
as described above, and you place this on the existing insulating 
material between the wires on the circuit, then you can use the film 
with holes as a template to etch or drill into the insulating 
materials. Subsequently, you can cover the tops of the holes in the 
insulator, trapping air pockets in the insulator. The consequence of 
this is that the dielectric constant is significantly decreased, 
allowing faster and more efficient transport of electrons through the 
device. An example of a multilayered circuit is shown in the figure and 
IBM is adopting this strategy in the manufacture of devices beginning 
in 2009.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We can go even one step further. Let's consider this polymer film 
with the nanoscopic holes. Any of a variety of standard processes can 
be used to fill the holes with a material that is magnetic. If we could 
address each of these magnetic elements and force the spin of each tiny 
magnet to be up or down (this is a typical process that is used for 
magnetic storage in current computers) and, if we could read each of 
these tiny elements, then we could far exceed the predictions of 
Moore's law that governs the magnetic storage industry. Now with the 
copolymers, we can control the size and separation distance between 
each of these elements by controlling the size of the molecule. 
Recently, laboratories across the United States learned how to control 
the ordering of arrays of these elements and, in the no-to-distant 
future, we will be able to produce storage media that is so dense that 
we could put 100 DVD or a disc that is the size of a quarter! An 
example of an array of elements produced by this copolymer templating 
technology is shown in the figure. Here, each of the little holes is 8 
nm, about 100,000 times smaller than a human hair! This will represent 
an incredible breakthrough in the storage density far exceeding that 
predicted by Moore's Law, and will revolutionize everything magnetic 
storage and, I dare to say, the life of the average American. In 
addition, this storage density will impact numerous technologies and 
significantly impact American Competiveness.
    There are other applications where these simple templates are 
having impact in the biological arena, as for example in the separation 
of virus particles or in the generation of surfaces that can promote or 
retard cell proliferation. However, the developments that have been 
made using copolymer templates are extensive. This represents just one 
particular project that BES had supported where the objective was a 
fundamental scientific question, i.e., basic research, that have had 
significant impact on technology and, by default, American 
Competitiveness. It should be noted that the time scale over which the 
current technological advances are being made is on the five- to ten-
year time frame. For all intents and purposes, this time scale was 
fairly rapid. Another additional factor that has direct impact on the 
``turn-around'' time is that the processes that are required for the 
copolymer templating processes are non-disruptive, i.e. these materials 
could be integrated into the existing fabrication processes. If an 
entire new process was required to enable the use of these templates, 
the chance of them seeing the light-of-day in an industrial process 
would be slim or, at least, delayed by another 5-10 years. Fabrication 
lines are simply so expensive to build, that introducing new processes 
is getting progressively harder.

Facilities

    The Office of Science, BES, is the steward of the national user 
facilities located at national laboratories across the country which 
includes synchrotron x-ray facilities, reactor-based neutron sources, 
spallation neutron sources, electron microscopy facilities and ignition 
laboratories. I am most familiar with the x-ray and neutron facilities 
constitute essential tools for the execution of my research. I have 
also been a member of the Kohn Panel, which documented the state of 
neutron sources and made recommendations to BES to ensure the vibrancy 
of neutron science in the United States, and the Birgenau Panel, which 
documented the state of synchrotron x-ray facilities (both hard and 
soft x-rays) and made recommendations to BES on the operation and 
future directions for national x-ray sources in the United States. In 
addition, I also chaired two panels to establish the design and 
operation criteria for the spallation neutron source. When I was a 
member of the Basic Energy Science Advisory Committee, neutron and x-
ray facilities were undergoing major revamping, the Advanced Neutron 
Source (a reactor source) was put on indefinite hold (essentially 
canceled due to extensive costs), the foundations were laid for the 
construction of the Spallation Neutron Source, now operational at the 
Oak Ridge National Laboratory, and the Advanced Photon Source was just 
being commissioned. As a general statement, these facilities should be 
considered as jewels of the national laboratories that provide an 
invaluable resource to science and technological advances in the United 
States and hold significant promise for the future.
    Does the Department of Energy manage these facilities well? With 
the resources available to BES, I feel that the DOE BES does an 
exceptional job. While these facilities have required substantial 
investment to design, construct and operate, BES has made every effort 
to ensure that the facilities operate in a manner where the reliability 
and availability of the sources exceed the criteria established by the 
Kohn panel. This requires that the facilities operate in a dedicated 
``user-facility'' mode, not being parasitic to other sources. The 
Stanford Synchrotron Radiation Laboratory and the Los Alamos Neutron 
Scattering Center were, at one time, parasitic to the Stanford Linear 
Accelerator Center and the Los Alamos Meson Production Facility. When 
operated in this mode, the ability for a user to perform experiments 
was impaired. However, at present time, all the x-ray and neutron 
scattering facilities are dedicated to the users. In addition, the 
ability to use these sources relies on a peer-review process where the 
highest ranked proposals are granted appropriate levels of time to 
execute the proposed studies. This means that both small, individual 
investigator efforts can be accommodated, along with much larger 
efforts. At the National Synchrotron Light Source at the Brookhaven 
National Laboratory and the Advanced Photon Source at Argonne National 
Laboratory, Private Research Team and Collaborative Access Team efforts 
were introduced where teams of investigators could propose, plan, 
finance and commission a specific beamline. In return for this 
investment, these investigators were guaranteed a certain percentage of 
the beam time, while the remainder was made available to outside users. 
These were novel concepts to instrument these facilities allowing 
researchers to secure funding from government or industrial sources to 
establish a particular capability in x-ray science. Neutron sources 
have not implemented this mode of operation due, primarily, to the 
limited number of beamlines that can be accommodated by the sources.
    Whether the beamlines are provided by the DOE BES or via the PRT or 
CAT routes, the operation of the facilities has been excellent and have 
provided routes by which industrial, academic and government laboratory 
scientists could perform research that they were not capable of doing 
in there own laboratory. For industrial scientists, if the research is 
proprietary in nature, a full cost recovery of the operation of the 
beamline during the experiments is required and this, in my opinion, is 
as it should be. Proprietary research cannot be reviewed in a peer-
review manner and, as such, the investment the industrial laboratory is 
required to make to do the experiments is appropriate to circumvent the 
normal review process and, in a sense, is akin to a review process, 
since this investment would not be made unless it was cost effective. 
As an academic scientist and as a former industrial scientist 
interested in performing basic research, the allocation of beam time 
have been and is done in an objective and effective manner.
    Does this mean that the operation of the facilities cannot be 
improved? Absolutely not! Perhaps the major problem that I see with the 
operation of the facilities is the insufficient number of staff 
scientists or beamline scientists. These facilities operate 24/7 and it 
is virtually impossible for these scientists to operate in this manner. 
This is not an unusual level of staff support. Yet, these scientists 
are expected to accommodate the user community, maintain the operation 
of the beamline and maintain an active, independent research effort. In 
addition, the staff scientists tend to get burned-out and it is most 
difficult to attract and retain first-class researchers to these 
positions. I feel that this problem could be alleviated with a higher 
level of personnel support. Nonetheless, the beamline scientists 
perform an extraordinary service to the scientific community by 
interacting with seasoned users and those users who are new to either 
x-ray or neutron science.
    Are there too many facilities? In the United States there are three 
BES-maintained neutron sources currently operational: the Spallation 
Neutron Source and the High Flux Isotope Reactor at the Oak Ridge 
national Laboratory, and the Los Alamos Neutron Scattering Center at 
the Los Alamos National Laboratory. In addition, there is the Center 
for Neutron Research at the National Institute of Standards and 
Technology that is operated by the Department of Commerce. The Intense 
Pulsed Neutron Source at the Argonne National Laboratory is scheduled 
for closure. In comparison to European or Asian scientists, the 
availability of neutrons in the United States falls far behind. As an 
academician, this means that the competition for beam time at these 
facilities is stiff. There are three hard x-ray synchrotron sources: 
the Stanford Synchrotron Radiation Laboratory, the National Synchrotron 
Light Source and the Advanced Photon Source. Geographically, these 
sources are located on the western, eastern and central United States. 
Consequently, these facilities have taken on a regional character with 
many of the users coming from the respective parts of the United 
States. There is not question that there is overlap in the capabilities 
for the facilities, yet each facility offers unique capabilities that 
are used by scientists across the country. From the soft x-ray 
perspective, there are source at the National Synchrotron Light Source 
and the Lawrence Berkeley National Laboratory and, as such, the user-
base is far less regional in character. These facilities are operated 
24/7 and it is still difficult to get time on the instruments. Should 
there be more sources made available? While one can easily give a quick 
response based on the full-time use, I would only concur with this 
after an in-depth study, since the demand-surpassing-the-supply 
situation ensures that only the highest quality science is performed on 
these invaluable resources. The cost for the design, construction and 
operation of a single facility demands that the scientific or 
technological case be solidly made before considering taking this step.
    Do these facilities contribute to American Competiveness? The 
example that I cited about on the use of copolymers a templates for 
insulating and gate materials in microelectronics and the generation of 
ultrahigh density magnetic storage media represent on a small number of 
examples where these sources were key in understanding the fundamental 
science underpinning the processes used to generate these structures. 
Numerous other examples can be cited where these facilities have been 
essential in enabling a scientific advance that, in turn, led to a 
technological breakthrough or development. One example where these 
sources will be key to American Competiveness lies in the unique 
ability of these sources to characterize materials on the nanoscopic 
level over macroscopic distances. To understand this, in Figure 3 is an 
array of nanoscopic dots that are present over the entire surface of a 
disc that may be several centimeters in diameter. To be suitable as a 
magnetic storage medium we must know the exact position of each of the 
elements to within a nanometer. Industry is currently pushing to a goal 
of 10 terabits or 1013 magnetic elements per square inch. If we could 
read one element in a nanosecond, it would take us three hours to scan 
(which we cannot with any accuracy) a one-inch square just to 
characterize the surface. X-ray scattering, though, has the ability to 
sample an entire surface at once and provide information on the 
nanometer to sub-nanometer level in seconds. Consequently, I feel that 
these intense x-ray sources will play a key role in establishing 
metrics to characterize nanostructured materials with any degree of 
certainty. Such capabilities will be essential as the size of structure 
gets smaller and smaller.
    Aside from the scientific importance of the experiments that can be 
done on these facilities, they also provide an important tool for 
educating young scientists, not just in terms of the science that 
underpins the technique but, also, in the science that forms the basis 
of their own research and the research of others. At these facilities 
there are numerous scientists performing experiments on different 
beamlines and it is difficult not to interact with others during the 
course of the experiments. These facilities provide a beautiful setting 
in which the next generation of scientists can receive a basic 
education in their own discipline but, also, a fertile ground in which 
science, over a much larger spectrum, can be learned. This is, in my 
opinion, vital to the future of science and technology in the United 
States. I must, also, add that many of the facilities offer short 
courses where students from across the country travel to a particular 
source and receive a practical training on the theory and use of these 
facilities. I have personally sent numerous students to attend these 
courses where travel and accommodations are covered by the hosting 
facility. These short courses have been invaluable and beautifully 
augment the formal training that the students receive in the classroom.

Frontier Energy Research Centers

    The single-most important problem facing the United States and 
mankind in general is the identification of a reliable energy source 
that will, at some point, overcome our dependency on fossil fuel. 
Fossil fuel resources are finite in nature and where the resources will 
exhausted in 20 years or one hundred years, the ``writing is on the 
wall.'' A reliable, cost-effective energy source or sources must be 
found before we, as a nation, or as a species are forced in to a 
corner. I will not argue whether solar is better than hydrogen, 
hydroelectric or wind. Regardless of the method, a solution must be 
found. This is one of the DOE BES grand challenges. Last year, the DOE 
BES had a call for single to multiple investigator proposals that 
addressed this critical energy need. Even though hundreds of proposals 
were submitted, only a handful was supported. This was not a result of 
the quality of the proposals. On the contrary, based on peer review, 
many more proposals should have been funded but the funding cutbacks 
precluded supporting many of these proposals. This year we are faced 
with a similar situation. The DOE BES had been allowed to proceed with 
a call for Energy Frontier Research Centers (EFRCs) with a proposed 
total budget of $100M. The scientific community was very pleasantly 
surprised by this call, given the events of the previous year. These 
EFRCs are intended to support multi-investigator and/or multi-
institutional efforts that bring together scientists from different 
disciplines to attack this energy problem in a novel manner. The EFRCs 
are similar in ilk to the Materials Research Science and Engineering 
Center and will provide a beautiful framework in which significant 
advances can be made in resolving the impending energy crisis.
    The academic community is now faced with a possible repeat scenario 
of last year that must, in my opinion and in the opinion of many 
academic scientists across the country, be corrected! The academic 
community received the news of this call with great enthusiasm. It is 
very clear that the academic community, in general, must be involved, 
in some manner, in addressing the energy crisis. While national 
laboratories, like the National Renewable Energy Laboratory or the 
Lawrence Berkeley Laboratory, have established track records in energy 
science and some industrial laboratories have expertise in designing 
and fabricating energy devices, I can cite the recent developments at 
the University of Virginia where scientists succeeded in making a 
photovoltaic device with 50 percent efficiency. This is a tremendous 
advance in the field and demonstrates the key role that academic 
laboratories can play in this area of critical need. Currently, the 
Senate has removed this item from the budget of DOE BES, transferring 
it to EERE. This was done after the House of Representatives left the 
EFRCs in as a line item in the budget. The reasoning behind this is not 
obvious. Nonetheless, the person power that academic laboratories can 
bring to bear on this problem and the diversity in the research 
portfolio of the Department of Energy forces us to the conclusion that 
a peer-reviewed proposal process for EFRCs that is open to academic and 
industrial scientists and where expertise at the DOE-supported national 
laboratories is the logical route to follow. Not only will this lead to 
advances in resolving this critical problem but it will also serve to 
educate the next generation of scientists in problems associated with 
energy which, in turn, will ensure a retention of expertise and 
competitiveness of the United States in energy.

Ramifications of Budget Reductions

    Perhaps the most frustrating experiences that I have had with both 
facilities, specifically neutron sources, and the energy initiatives 
are budget reductions. Sometimes these reductions are known in advance 
and other times they occur rather rapidly. I fully realize that these 
reductions are outside the control of BES but that does not make them 
any less frustrating. For example, last year (2007) BES had a major 
initiative on renewable energy, soliciting proposal across the entire 
spectrum, ranging from hydrogen storage to photovoltaics. The response 
of the community was overwhelming, with over 300 proposals submitted. I 
happened to be involved in several of these proposals as a co-principal 
investigator. These proposals were peer reviewed and, in fact, the 
priorities for funding were established. After a significant delay, a 
continuing resolution was established for the federal budget with the 
funds promised to support this initiative, never materializing. The sum 
and substance of this was a massive waste of time. I assure you that 
most of the individuals involved in these proposals are under severe 
time constraints and I can also assure you that there were many 
investigators who were less than pleased. Aside from the investigators 
proposing research, the peer review process itself consumes a 
significant amount of time on the part of the referees. We can add to 
that the significant amount of time that was expended by the program 
managers at BES. It was also not an easy task to turn to the 
investigators and to the scientific community in general and announce 
that the funding to support research in the most important problem 
facing the United States, although promised, was not going to be there. 
This budget shortfall dumbfounded, surprised, frustrated, and irked 
everyone involved in this effort.
    With the EFRCs we are again faced with a similar situation that we 
must, in any way possible, prevent from happening again. Specifically, 
there was a call for EFRCs that was to be supported by $100M enabling 
the establishment of 20-40 EFRCs across the United States in academic, 
industrial and government laboratories. The House of Representatives 
approved this initiative while the Senate removed this from the BES 
budget, transferring the funds to EERE. This will essentially place the 
funds in the hands of NREL and/or industrial laboratories. While superb 
research can be done at these laboratories, as I mentioned above, 
engaging the entire scientific community, as BES is quite capable of 
doing, is essential. So, now we have a situation where the call for 
EFRCs has a proposal deadline of October 1. Putting together a 
competitive proposal for an EFRC that will involve multiple 
institutions will require several months of effort. With the 
recommendation made by the Senate and the budget being debated in 
committee the inevitable question arises as to whether one should write 
an EFRC proposal? Putting these proposals together is a massive effort. 
Not writing the proposal ensures losing an opportunity to bring your 
expertise to bear on a scientific engaging, societally important ad 
technologically challenging topic. Yet, there are absolutely no 
guarantees that if a proposal is written that there will be funds to 
support the effort. Do you take the chance that the funds will appear? 
Don't forget that the deadline is October 1 and proposals simply do not 
materialize out of thin air. I have decided to take this chance and I 
am gambling on the wisdom of our Congress to reinstate these funds to 
the BES budget.
    Let's move to the neutron facilities, both the reactor-based and 
accelerator-based (spallation) neutron sources. In the United States 
there are two reactors currently operational as user facilities: the 
Oak Ridge High Flux Isotope Reactor (DOE supported) and the Cold 
Neutron Research Facility at NIST (DOC supported). Both are superb 
instruments where researchers (faculty member, students, post-doctoral 
fellows, industrial scientists and government laboratory scientists) 
can perform experiments on a peer review basis. Reactor sources, 
particularly cold neutron sources which these facilities are, enable 
experiments on large objects (approaching microns in size) which is 
essential for the study of biological systems, plastics, colloids and 
metals. Through a combination of safety issues, budget reductions and 
bad publicity, the High Flux Brookhaven Reactor was decommissioned and 
the Advanced Neutron Source never materialized. Losing two facilities 
may not seem to be a major disaster. However, the paucity of neutrons 
has resulted in a loss in the number of scientists who have expertise 
with neutrons. This has deleteriously impacted nearly every scientific 
discipline and, therefore, technological advances that would have been 
enabled by studies using neutrons. Academicians were simply fearful of 
having doctoral theses reliant on the availability of neutrons. Funding 
agencies were reluctant to support research that relied on the 
availability of neutron Loss of funding for individual PI grants 
translates in to a further reduction in the number of students and so 
we go spiraling down. So many opportunities were lost by American 
scientists during this time. Even though an idea may have theoretically 
emanated from research in the United States, American scientists simply 
had to sit back while their European counterparts executed the studies. 
I experienced this anguish on several occasions, but there was imply 
nothing that could be done, so you move on.
    The situation with accelerator-based (spallation) sources was not 
that much better. At the time, the Intense Pulsed Neutron Source at the 
Argonne National Laboratory was operating like the Every Bunny (it kept 
on going and going). However, despite its name IPNS was not a high flux 
facility and only through the innovative and creative efforts of 
scientists at the IPNS were scientific and technological advances 
possible. Indeed, given the flux of the facility, it is amazing to see 
the number of outstanding contributions made by IPNS scientists. The 
Los Alamos Neutron Scattering Center, while being much more intense 
than IPNS, had seemingly incurable problems with availability and 
reliability of neutrons. As a result, the user base at Los Alamos 
deteriorated and, as an academic, I was reticent in establishing a 
research effort where students' theses relied on experiments at Los 
Alamos. As an industrial scientist, I was content to take my chances at 
Los Alamos, though there were numerous experiments that never occurred 
due to the unreliability of this facility. I do want you to appreciate 
the fact that to do experiments at these facilities is far more than 
the actual time you are at the facility. Sample preparation begins 
weeks to months ahead of the scheduled beam time. Second, you have to 
travel to the facility. Los Alamos, by design and intent, is not an 
easy facility to get to. The same holds true for Oak Ridge. You finally 
arrive at the facility, ready to do experiments 24 hours a day for 
three to four days and then the system fails. Why? Since the facilities 
are so complex, no one is really certain but ``We think it will be 
operational in a half an hour.'' I sympathize with the operators of the 
facilities, since they are trying their level best to get the facility 
back on line and want to be optimistic. However, after you hear this 
numerous times throughout the night, it becomes a little thin when the 
sun is rising and you are sleep deprived. But still, you do not leave, 
since maybe the facility will be back on line shortly and you may 
finally begin to do experiments that are key to your research. At the 
time, Los Alamos was operating in a parasitic mode. I can relate 
similar horror stories about my experiences at the Stanford Synchrotron 
Radiation Laboratory when it was operating in a paratistic mode.
    So, you can conclude that scientists who use the neutron and x-ray 
facilities are masochistic. This, however, is far from the truth. 
Rather, tolerating these abysmal conditions demonstrates the importance 
and unique capabilities of these facilities in addressing scientific 
and technologically important questions. This situation, however, does 
not exist at present and the efforts of Patricia Dehmer, lie at the 
solution to these problems. Through a series of workshops and panel 
reports, initiated by Dehmer and the late Iran Thomas, BES identified 
the sources of the problems and placed stringent conditions on the 
continued support of the facilities which led to a suite of x-ray and 
neutron facilities, including the spallation neutron source, that are 
available to the user in a reliable manner. I must also add that during 
the course of the renovations and new construction projects, Dehmer 
used the expertise of Daniel Lehman to scrutinize the planning and 
construction projects which resulted in tremendous cost savings, 
reductions in project cost overruns, and timely completion of the 
projects. Again, this reflects the attention that Dehmer has placed on 
detail and her commitment to the scientific community. These 
improvements are now paying off with a growth in the community and a 
return in competiveness of the United Stated in neutron science. As an 
academic scientist, I have no qualms in having students use these 
facilities and base a large fraction of their theses on results that 
emanate from these facilities.
    From my experiences on the Basic Energy Science Advisory Committee, 
and Steering and Advisory Committees of several facilities, an ever-
appearing problem that arises is budget reductions to the requested BES 
budget. Facilities represent only one component of the portfolio of 
responsibilities of BES. When the BES budget is passed down from 
Congress, BES is expected to fulfill all its commitments and, as such, 
budget reductions invariably impact all aspects of BES' portfolio. If 
budgets were inflated, a reduction would have minimal impact. However, 
this is clearly not the case. For example, the Advanced Light Source at 
Berkeley is shutting down for two months as a consequence of a budget 
reduction. This translates into a stall on all research that relies on 
the use of soft x-rays for research. Scientific research is intensely 
competitive and delays of this nature can make or break primary 
ownership of a discovery. If this were only a matter of the prestige or 
glory of a scientist, it really would not be of tremendous consequence. 
However, discoveries lead to intellectual property which, when viewed 
in terms of American Competitiveness, can have far reaching 
consequences.

                    Biography for Thomas P. Russell
    Thomas P. Russell is the Silvio O. Conte Distinguished Professor of 
Polymer Science and Engineering at the University of Massachusetts 
Amherst, the Director of the Materials Research Science and Engineering 
Center on Polymers, the Associate Director of MassNanoTech, Director of 
a Multi-University Research Initiative on Hierarchically Ordered 
Materials, an Associate Editor of Macromolecules, and on the Advisory 
Board of the Journal of Chemical Physics, the Journal of Polymer 
Science, Soft Matter and Macromolecular Chemistry and Physics. He was a 
Research Staff Scientist at the IBM Almaden Research Center in San 
Jose, CA for 16 years before moving to the University of Massachusetts 
in 1996. He has over 400 publications in peer-reviewed journals in the 
field of polymer science, nanostructured materials, and self-assembly 
of synthetic and natural nanoparticles and has eight patents in the 
field. He is a fellow of the American Physical Society, the American 
Association for the Advancement of Science and the Neutron Scattering 
Society of America. He has served on and chaired the Solid State 
Science Committee of the National Research Council, the Executive 
Committee of the Division of Polymer Physics of the American Physical 
Society, the Basic Energy Science Advisory Committee of the Department 
of Energy, the Steering Committee of the Spallation Neutron Source in 
Oak Ridge Tennessee, the Advisory Committee of the Intense Pulsed 
Neutron Source at the Argonne National Laboratory, the Advisory 
Committee for the Los Alamos Neutron Scattering Center and the Advisory 
Committee for Neutron Research at the National Institute of Standards 
and Technology. He is a lead investigator in the Global Research 
Laboratory on Energy at Seoul National University in Korea and in the 
World Premier Institute, Advanced Institute of Materials Science at 
Tohoku University in Sendai, Japan. He has received awards from the 
American Chemical Society, the American Physical Society and the Dutch 
Polymer Society and was elected to the National Academy of Engineering 
for his research accomplishments.

                               Discussion

    Investigation of Research and Development Across the Department 
                      of Energy and Other Agencies

    Chairman Lampson. Thank you very much, Dr. Russell. I 
happen to believe very much in what your last comment was 
about. We have truly taken away the opportunity to grow the 
knowledge that we need to solve the problems that we face, and 
it seems an awful lot of times. Hopefully we will be able to 
change some of that. Hopefully it will be quick enough to make 
the difference that all of us would like to see made, 
particularly those of us on this Committee.
    Let me start with Dr. Dehmer, and I will recognize myself 
for five minutes after which time I will pass to the next 
Member of Congress. Dr. Dehmer, in your testimony you note a 
number of ways that energy research and development is 
coordinated across the Department of Energy. However, we still 
hear significant issues of stovepiping at the Department. Do 
you agree and how can this coordination be improved, 
particularly between the Office of Energy Efficiency and 
Renewable Energy and the Office of Science?
    Dr. Dehmer. Well, I have also heard a lot of talk about 
stovepiping. I think a couple of things have happened in recent 
years that are working to change that. The first is this entire 
series of workshops that have really energized the scientific 
community. In all of my years in science, and it is quite a lot 
of years now, I have never seen the scientific community so 
energized as I have over the problems of energy. And this is 
real. Tom Russell said that 300 proposals were turned down. It 
was actually 700, Tom.
    Dr. Russell. My chances were less.
    Dr. Dehmer. Your chances were less. But something else has 
happened in the Department, and that is the creation of the 
Under Secretary for Science position. When Ray Orbach was 
confirmed as Under Secretary of Science, the first thing that 
he did was a DOE-wide assessment of basic and applied research. 
He had all of the technology offices come in and speak to him 
about what they were doing, and he specifically asked the 
Office of Science how could it help the various programs. As a 
result of those assessments, which took several months, Dr. 
Orbach came up with about two dozen areas that were ripe for 
R&D integration. Many of these actually appeared in the budget 
and will continue to appear in the budget in future years. 
These are areas that not coincidentally were topics of the 
basic research in the workshop series and areas where the 
technology offices and the Office of Science are coming 
together much more closely to devise road maps and planning 
scenarios, to integrate their performers in the field to hold 
joint workshops, to hold joint contractor meetings, to advise 
one another on how calls for proposals ought to be written and 
to help one another review the proposals.
    I have seen a change. I have been in the Department of 
Energy for 13 years, and I have seen a dramatic change in the 
last three, and I would like to see that continue.
    Chairman Lampson. An Interagency Biomass Research and 
Development Board was recently created that includes 
representatives from both the Office of Science and EERE within 
DOE as well as those from NSF, USDA, EPA, and several other 
relevant agencies. Do you think it is a good model to 
coordinate other energy research that is fostered by multiple 
programs and agencies like solar energy and advanced battery 
research?
    Dr. Dehmer. Yes, I have served on a large number of 
interagency working groups, and I am familiar with the biomass 
board; and in general, they are successful. I have particular 
experience with interagency working groups for the large-scale 
facilities, the Synchrotron Light Source and the Neutron 
Scattering Facilities and they have been very successful.
    Chairman Lampson. The Senate Energy and Water 
Appropriations Subcommittee has proposed cutting solar research 
out of the Basic Energy Sciences Program and shifting $60 
million to the solar program in the Office of Energy Efficiency 
and Renewable Energy. Does this make sense to you and if not, 
then why should the Office of Science be the steward of the 
kind of solar research it currently oversees?
    Dr. Dehmer. Well, the Basic Energy Sciences Program has had 
the largest solar photochemistry program in the Nation for 
decades, and I am personally very proud of that. As a result of 
the workshops, that solar photochemistry program has become 
integrated with the photosynthesis program so that plant 
photosynthesis and inorganic solar photochemistry are now 
completely integrated. It is a wonderful program. Of the 250 
letters of intent that the Basic Energy Sciences Program 
received for the Energy Frontier Research Centers, by far the 
largest number were in solar energy. Basic Energy Sciences is 
known for its fundamental research in solar energy. We support 
the activities in the Office of Energy Efficiency and Renewable 
Energy, and we note with great pride that some of the things 
that they are working on now were actually discovered in the 
Basic Energy Sciences Program and not very long ago. In my 
opinion, both the Office of Energy Efficiency and Renewable 
Energy and Basic Energy Sciences ought to be robustly funded 
for photochemistry and solar energy conversion.
    Chairman Lampson. Dr. Russell, will you comment on that as 
well, please?
    Dr. Russell. I think by removing or shifting the funds from 
BES to EERE, one of the things that will inevitably happen is 
that the amount of funds that will be going into the academic 
community is going to be much less. If you look at some of the 
advances that have been made and if I look at photovoltaics, 
the most efficient photovoltaic device is above 50 percent 
efficient. That was actually discovered in the academic 
community. If I look at some of the results that have been 
coming out in terms of the all organic type photovoltaic 
devices, advances have been made in the academic sector. I fear 
that if monies are shifted from BES to EERE, then that is going 
to remove those funds from the academic sector where I think a 
lot of basic research can be done. Development work clearly 
needs to be done as well, and that having the industrial sector 
involved as well is important. However, by removing this to 
EERE, the amount of funds that will be put into the academic 
sector is going to be much less. I think that is a mistake.
    Chairman Lampson. Thank you very much. Ms. Biggert, you are 
recognized for five minutes.

                 Retaining the Energy Science Workforce

    Ms. Biggert. Thank you, Mr. Chairman. I am going to 
continue with Dr. Dehmer and probably Dr. Russell. Hopefully we 
will have another round if we don't get--Dr. Dehmer, I think we 
are aware that the major facilities have struggled with an 
adequate operating budget, and we certainly had to add 
something into the supplemental budget for the labs to continue 
in 2008. But now we are worried about the 2009 budget and 
whether that will really go back to the 2007 budget. So we 
certainly aren't out of the woods as far as dealing with that 
budget. Are you concerned, and I think this ties in a little 
bit to the budget, about the expertise in the energy science 
going to foreign countries or our ability to attract scientists 
from abroad as we once did? Do you see that as a connection to 
the economic competitiveness?
    Dr. Dehmer. Yes, so let me talk for a second about the 
scientific user facilities. Those facilities should be funded 
probably 10 to 15 percent above where they are funded right 
now; and in 2007, 2008, and 2009, the BES budget request 
includes that funding. When the funding was not appropriated, 
those facilities survived largely by cannibalizing funds that 
they would normally use for routine maintenance, upgrades, 
spares, and so forth. Although the facilities for the most part 
continue to run at the 5,500 hours a year that Steve Dierker 
mentioned, they are really strained to do so; and a very bad 
outcome could happen if they don't get increased funding. So 
that is the situation with the scientific user facilities.
    In terms of attracting scientists to energy, U.S. 
scientists and foreign scientists, the scientific community is 
like herding cats. You can't herd them but you can move the 
food, and the large amount of money that was included in the 
BES budget in 2007, 2008, and 2009 for basic research and 
energy was certainly an attractor to the scientific community. 
And I mentioned a moment ago that we had to turn down 700 peer-
reviewed proposals when the funding didn't come through. But 
like cats, the scientific community learns and after three 
times, they learn pretty well that they won't go after that 
food again.
    So the answer to your question, although somewhat 
jocularly, is yes, I am concerned about retaining not only U.S. 
scientists but foreign scientists in fundamental research 
related to energy. If we cannot do this, as a country we will 
have been diminished; and as I said a moment ago, I have never 
seen the level of enthusiasm in the scientific community as I 
have seen as a result of these workshops. I don't want to lose 
that enthusiasm. I don't want to lose these scientists.
    Ms. Biggert. Thank you. Dr. Russell, how would you compare 
our national user facilities to those in other countries?
    Dr. Russell. I think what Pat Dehmer said is correct, that 
the facilities that the American scientists have available to 
them are absolutely world class. These facilities are as good 
as any facilities that you would get anywhere in the world and 
that would include Europe as well as Asia.
    Ms. Biggert. Thank you. Dr. Hall, if you can't get access 
to the user facilities when you need it, what are the 
repercussions to your research and are there other viable 
options for GE and other industrial users?
    Dr. Hall. We do have reasonably good access to these user 
facilities. The question often comes up as to the many 
different types of access that we need, and very much as you 
think about these facilities, they play two really important 
roles. One is as tools for fundamental research and the second 
is as probably the best characterization tools in the world. 
And what we generally are seeking is access in the latter 
category where we need to characterize materials. And so we are 
looking at trying to get better access on a number of 
timeframes, in some cases longer-range research where we can 
use the proposal system but also in a sort of a rapid access 
mode where we can investigate issues that occur during 
technology development. If we can't get access to these 
facilities since these are such superb facilities for materials 
characterization, it will definitely slow our programs. We will 
try to find alternatives. We can sometimes use in-house 
resources, but really, access to these superb facilities is 
critical and can be very problematical if as we have said the 
resources aren't there for both the facilities and the 
researchers at the national facilities.
    Ms. Biggert. Thank you. I yield back.
    Chairman Lampson. Thank you, Ms. Biggert. Dr. Bartlett, you 
are recognized for five minutes.

                    Alternative Transportation Fuel

    Mr. Bartlett. Thank you very much. I appreciate very much 
your testimony today. I have here an Energy News Roundup, and 
it notes that there were three editorials in The Hill today 
relative to energy. It notes that the Senate is working on an 
energy bill that nobody seems enthusiastic about. They have to 
get 60 votes there to pass something. The House is struggling 
to find an approach to an energy bill that can get the 
requisite 218 votes. There is an interview with Charles Maxwell 
who very correctly predicted the high price of oil now and just 
recently even higher who says that by I think 2015 oil will be 
$300 a barrel. I am very interested in your testimony and the 
potential that could come from this basic research that is 
being done, and I notice that most of that potential would 
result in the production of electricity. But the real crunch in 
the near-term and mid-term and far-term actually is not going 
to be for electricity because with a lot of solar and wind and 
much more nuclear and true geothermal where you tap into the 
molten core of the Earth and with microhydro that might produce 
as much as macrohydro without the environmental degradation, we 
could probably produce as much electricity as we ought to be 
using, maybe not as much as we would like to be using. But 
there is no such rosy outlook for liquid fuels. There is just 
no silver bullet out there. Two bubbles have already broken, 
the corn ethanol bubble which was destined to break because 
simple, back-of-the-envelope computations said that that was 
never going anywhere and it didn't; the hydrogen bubble broke 
before the corn ethanol bubble; and finally people figured out 
that hydrogen is not an energy source, it is simply a battery 
if you will that carries energy from one place to another. Now 
our hopes are on a third bubble which will shortly break 
because there is irrational exuberance about cellulosic 
ethanol. You will never get more energy from cellulose if you 
simply burned it. And it is inconceivable to me that we are 
going to get much more energy from a wasteland not good enough 
to grow anything on than we could get from all of our corn and 
all of our soybeans where you know the National Academy has 
said that we might displace 2.4 percent of our gasoline if we 
use all of our corn for ethanol and 2.9 percent of our diesel 
if we use all of our soybeans for soy diesel.
    What kind of prospects--and I am a scientist. I am one of 
three in Congress, and I know you do basic science, not because 
of any societal benefit because you want to advance knowledge, 
and there will be societal benefit if you advance knowledge. 
But what are we looking at that could possibly provide the 
quantity and quality of energy that we are getting from the 84 
or 85 million barrels of oil that we produce today, 21 or 22 of 
which are used by the United States, and each barrel has the 
energy equivalent of 12 people working all year? What is there 
in the future that could come even close to the quality in 
terms of density and quantity, quality and quantity that we get 
from oil?
    Dr. Dehmer. Are you asking me, sir?
    Mr. Bartlett. Any of you.
    Dr. Dehmer. Okay. Sir, you are absolutely right in 
everything you say. I agree with you completely. In the short-
term for transportation, we only have fuel switching as an 
option, and the fuel switching, corn ethanol, is not the 
answer. In the short-term, cellulosic ethanol may be a partial 
answer. There is also fuel switching to different kinds of 
petroleum-based products, oil shale, tar sands, and so forth. 
Again, a short-term solution but a solution nevertheless. What 
we really need is a long-term, sort of decades-to-century 
strategy here for transportation. It may well be that it 
involves a combination of ethanol produced, not cellulosically 
but perhaps biometrically combined with electric. So there may 
be some hybrids but right now, we have to do a transition from 
where we are today to a 10-, 20-, 30-year solution and 
ultimately to a 50- to 100-year solution. But I agree with all 
of the assessments that you just stated.
    Mr. Bartlett. Mr. Chairman, the real tragedy is that we 
knew of an absolute certainty 28 years ago that we were going 
to be here today because 28 years ago we could look back to 10 
years prior to that, 1970, where M. King Hubbert's prediction 
about oil production in the United States came true. We reached 
our maximum production. Today, in spite of drilling more oil 
wells than all of the rest of the world put together and 
finding oil in Alaska and the Gulf of Mexico which he had not 
included, today we produce half the oil that we did in 1970. It 
is really quite a shame that we are here today. Thank you very 
much.
    Chairman Lampson. We were also told in 1945 by the United 
States Army to diversify away from our dependence on fossil 
fuels, and we ignored that as well.
    Mr. Bartlett. Mr. Chairman, we are into ignoring things. 
Our government has paid for four studies in the last several 
years, two of them in '05, one of them the Hirsch Report, the 
second report by the Corps of Engineers, two of them last year, 
one by the Government Accountability Office, another by the 
National Petroleum Council. All four of them said the same 
thing. The peaking of oil is a certainty. It is either present 
or imminent with potentially devastating consequences, and 
nobody in leadership in our country has recognized any of these 
reports and the challenge that it provides us. So we are into 
ignoring things.
    Chairman Lampson. Well, unfortunately you are right, and it 
is going to take the scientific community to fix it for us. So 
we need to be about--you want to make a comment, Dr. Russell? 
Help yourself.
    Dr. Russell. We are in a situation now where it is 
inevitable and we can't ignore.
    Mr. Bartlett. I believe, sir, that we are in a situation 
where as predicted by the Hirsch Report that said that unless 
you anticipated the peaking of oil by a decade, to have no 
economic consequence, you have to anticipate it by two decades. 
To have meaningful but maybe manageable economic consequences, 
you need to precede it by a decade. It is here I believe, and 
we have done nothing.
    Dr. Russell. I agree with you completely, and the only 
point I am making is that we can't ignore this anymore because 
it is inevitable and I think that----
    Mr. Bartlett. We shouldn't but I am afraid that politicians 
can.

                      Industrial Use of Facilities

    Chairman Lampson. We better find a way. Let us start with 
Dr. Hall again. I did note that in your team's experience, 
``gaining access to sufficient beamtime on a timely basis can 
be challenging.'' Does GE have experience with the rapid access 
system that Dr. Dierker described in his testimony, and how 
would you recommend it be improved?
    Dr. Hall. I think we do have experience with that, and I do 
want to make it clear that the researchers at the Department of 
Energy labs certainly are as accommodating as they can be in 
many cases to meeting our needs. I think that my testimony 
really focused on sort of a philosophical shift as we think 
about these facilities, and this is again something that really 
needs to be considered at a policy level as to how these 
facilities would be best utilized. And we know as we heard 
about the history of these facilities and read about the 
history of these facilities that they came from a philosophy of 
doing basic science. I am here to say that they are also 
incredibly important tools for characterization and for moving 
technology forward as industry tries to solve the most 
important challenges. And so as we think about that, we need to 
think about what the priorities should be, how the Department 
of Energy should set priorities relative to basic research 
versus use of these facilities as characterization tools, and 
whether, for example, certain amounts of time should be set 
aside for industrial use, additional time set aside for rapid 
access use; and again, this is sort of a policy question that 
we are certainly very happy to--I am sure many of the 
industrial users are very happy to partner with DOE. I am not 
here to propose, you know, specific solutions but only to raise 
the question of how we want to best utilize these incredibly 
important facilities; and of course, much of the availability 
of both beamtime and researchers goes back to the budget 
question and the need to properly fund these facilities.
    Chairman Lampson. Dr. Dierker, would you comment?
    Dr. Dierker. The provision for rapid access is one that is 
becoming more common at the facilities as the need that Dr. 
Hall described has become more apparent. Often the kind of 
industrial characterization measurements that he is referring 
to I believe are ones that can be done very quickly, even as 
short as 10 minutes of access to beamtime can give a very 
important answer for industry.
    The challenge is getting access quickly and having the 
facility have the staff and the instrumentation to have a very 
high through-put of these kind of characterization measurements 
to serve the needs of industry. And so I think the facilities 
have established user access that is going in this direction 
even more and more and with proper support for staffing and 
operating the kinds of high through-put characterization 
facilities that are especially important to industry. I think 
that we can meet that need.
    Chairman Lampson. Thank you. In addition to scientific 
merit, do you think it would make sense to take American 
Competitiveness into account when reviewing proposals for time 
on the facilities and should this be a separate competition or 
would a separate user fee structure be justified for industrial 
research that doesn't need intellectual property protection? 
And I would like for Dr. Dierker and Dr. Hall to respond.
    Dr. Dierker. I think that the criteria used in evaluating 
proposals need to give proper recognition to the impact of 
research on industry so that both scientific impact and 
technological innovation that comes from the results of the 
measurements have to be equally recognized. I do believe that 
the peer-review process and open competition is proven to 
guarantee the best work is done, whether its goals are pure 
science or technological innovation. And so I believe that that 
kind of a process with proper guidance to the evaluation 
criteria is the best path for having the best work done, and I 
think that a ticket system would compromise that competitive 
peer-review process.

                    Energy Frontier Research Centers

    Chairman Lampson. Dr. Dehmer, I think we all appreciate 
your efforts to identify and prioritize your research in areas 
that can have the most impact on our future energy options. I 
do have a few questions on your proposal to create 25 to 35 
Energy Frontier Research Centers.
    You note in your testimony that they, ``should be viewed as 
a funding mechanism'' and that ``no building construction will 
be part of the awards.'' Given this, does it even make sense to 
call them centers which implies some kind of a permanence? 
Maybe they should be called Energy Frontier Research Awards or 
Collaborations. Your thoughts?
    Dr. Dehmer. Well, first of all, I didn't fully appreciate 
the ramifications of the word ``center.'' We had no intent to 
associate construction with these, and we also did not have any 
intention to continue them in perpetuity. They would be stood 
up for five years, and they would undergo regular peer-review 
competition; and I would envision, although I am no longer 
director of the Basic Energy Sciences Program, I had envisioned 
something like calls for proposals every, say, two to three 
years, and those centers or those collaborations that were 
completing their five-year term would be competed with new 
ones. So I would envision rotation in and out with the best of 
ideas and the best collaborations being successful.
    Chairman Lampson. Thank you. Dr. Russell, do you view this 
as a good proposal to get the best minds in the academic 
community more involved in tackling these issues?
    Dr. Russell. Yes, but I would like to address the issue of 
centers. I run a Materials Research Science and Engineering 
Center. That does not require a building and nor is there any 
permanence to this, and there are other precedents in that the 
National Science Foundation has science and Technology Centers 
and Engineering and Research Centers; and none of these 
requires you to have a building or any sort of structure that 
is going to have any permanence to it.
    In terms of these EFRCs that you are mentioning, 25 to 40 
of these, I think it is imperative that this be made available 
to the academic community, and this is a means by which one can 
get some of the best minds in the country working on these 
problems and being funded to work on these problems in a manner 
that they can actually conduct the research in a viable way.
    Chairman Lampson. Thank you. Ms. Biggert, you are 
recognized for five minutes.

                        Proprietary Information

    Ms. Biggert. Thank you. Dr. Hall, in your written testimony 
you talked about that there were concerns of proprietary 
research. Could you expound on that?
    Dr. Hall. Yes. Certainly you know, I can speak for some 
segment of the industrial user base. You should recognize that 
in the chemical and pharmaceutical industries which also 
heavily use these facilities, in some cases proprietary issues 
are even more significant, and I encourage you to explore their 
needs as well. I would like to just encourage us to have a 
mechanism since we need to on occasion bring materials to the 
facilities where we are trying to answer some questions about 
the structure and chemistry of these materials, materials that 
have been developed in our own labs; and we need, in order to 
do that if these are proprietary materials, we need proper 
protection to ensure that we own the results of those 
investigations. Again, they may be the types of investigations 
that Dr. Dierker was talking about where we may only need a 
very short amount of time on these facilities in order to get 
the answers that we need. So my encouragement here is that we 
have systems in place where we can very simply execute 
proprietary agreements that are clear and straightforward and 
that can enable us to do this. Again, I think this is key to 
moving American technology forward.
    Ms. Biggert. What do you mean by the total cost recovery 
option?
    Dr. Hall. There is a system in place and certainly probably 
Dr. Dierker can speak to this even more extensively than I can, 
there is a system in place where when an industry brings 
proprietary research to the facility that a fee is charged, and 
that is based on a total cost recovery. This is separate from 
the proposal process which generally involves non-proprietary 
work. I will tell you that in GE's case, most of the work that 
we actually do with the synchrotron is non-propriety and 
collaborative in partnership with the scientists at the 
facility. But speaking for industry as a whole, proprietary 
concerns when using these facilities are certainly large and 
important.
    Ms. Biggert. Is this materials that are patented? Is that--
--
    Dr. Hall. Patented or patentable, yes. Yes. Certainly once 
a material is fully patented, then we have the protection we 
need. These would be materials under development.
    Ms. Biggert. Dr. Dierker, would you like to add anything to 
that?
    Dr. Dierker. Yes. We do have procedures for proprietary 
work to be carried out which does not require the industry to 
review any proprietary information, and the total cost recovery 
you are referring to is a quite nominal fee I believe. Since 
the facility operates for so many hours per year and there may 
be dozens of beamlines operating at the same time, the 
operating costs are divided by the number of beamline hours; 
and so in a case of the National Synchrotron Light Source, for 
example, I think it is about $110 per hour as a proprietary 
fee. So I don't think it is any impediment to the industrial 
research, and there are safeguards in place that permit the 
work to be done and patents protected.

                       Supporting BES Facilities

    Ms. Biggert. Thank you. Dr. Dehmer, what is the right 
balance between the important new facilities such as NSLS-II 
and the continued operation of the very successful existing 
facilities such as the Advanced Photon Source?
    Dr. Dehmer. That is a difficult question that comes up all 
the time. You constantly have to work to be at the forefront of 
science and technology and that means making some difficult 
choices, perhaps with facilities that are past their time. We 
have a number of facilities in the Basic Energy Sciences 
Program that are very new and very modern, and all of those 
need to be supported. And at some point the new Director of 
Basic Energy Sciences may have to make some hard choices about 
the older facilities. But the ones that you mentioned, the 
Advanced Photon Source, the Spallation Neutron Source, the 
facility under construction that Steve Dierker is Chair of, 
these are cutting-edge facilities that will keep the United 
States at the forefront of the physical sciences and 
technology--and they will be supported.
    Ms. Biggert. I assume any time from the Department of 
Energy and what the top projects are, you know, the top 20, and 
we start talking about those, and then all of a sudden it 
changes. Do you see that these will remain the top priority?
    Dr. Dehmer. Yes, actually the Facilities for the Future, a 
brochure that was put out probably five years ago now, rank-
ordered a number of facilities. The ones in the top tier 
actually all have gone forward. There were a couple of changes; 
but over a five-year period, you would expect that you would 
have a few changes. Some facilities fell off the map, and a 
couple of other facilities rose in priority. But I can say that 
the ones in the top tier all have gone forward and have been 
very successful.
    Ms. Biggert. Okay. Just go back for a minute to the budget. 
We have tried and tried to double the funding for the Office of 
Science and so many opportunities, and it always seems that 
somehow it gets cut out. How can we, as Congress, and what we 
have tried to do is inform the other Members of the importance 
of this but from your point of view, what could we do really to 
impress upon the Congress that it really is our charge to 
ensure that we are going to be competitive through the use of 
basic science research?
    Dr. Dehmer. Well, I think perhaps if there has been a 
failure, it is a multi-point failure; and it is partly a 
failure of the scientific community and the agencies. We have 
not made the case clearly enough, that there is a link between 
fundamental research, discovery, innovation, and 
competitiveness. And I think that that link has to be made much 
more strongly. We have heard examples here today of it; but 
this is real, and I have seen from Congress a strong sense that 
doubling the physical sciences, doubling the budgets of these 
three agencies including the Office of Science, is critical. If 
other Members are not convinced, I think it is the 
responsibility of all of us to make the case more strongly.
    Ms. Biggert. Would anyone else like to add to that? Dr. 
Hall?
    Dr. Hall. I would only say that one important point once 
again is that to solve the most pressing problems that we are 
facing as a Nation, it is going to be critically important that 
we have strong industry-government-university partnerships 
around these technology areas. The availability of these types 
of facilities is a key part of that partnership.
    Ms. Biggert. Thank you. Thank you and I yield back.
    Chairman Lampson. Thank you. Dr. Bartlett, you are 
recognized.
    Mr. Bartlett. Thank you very much. Dr. Dehmer, when you 
mentioned failure, you were referring to what as failure?
    Dr. Dehmer. I personally strongly believe in the link 
between fundamental research, discovery, innovation and 
technology development. I spent the last six to eight years of 
my life leading these workshops to demonstrate that and to 
energize the basic research community so that they would be 
part of the common cause. If the message hasn't gotten through 
to those who make the decisions, then I think that is a failure 
on our part.

           Basic Research and Long-term Scientific Challenges

    Mr. Bartlett. Okay. Okay. When I first came to the Congress 
about 16 years ago, there was a proposal that we should fund 
only basic research that would have societal benefits, and I 
asked them, how were they going to do that because I am sure 
that Madam Curie had no idea what societal benefits would 
accrue to her early discoveries in radiation. They asked me, 
then what? I said, well, you just provide an adequate amount of 
money, which we do not, to support an adequate number of basic 
researchers, which we do not, and I will assure you that if you 
just leave them free to pursue their interest in discovering 
new information, that there will be societal benefits. I gather 
that, Dr. Hall, you are primarily interested in developmental 
things that will ultimately have societal benefits?
    Dr. Hall. I am here speaking on behalf of General Electric, 
and in my role, technology development is very critical. But I 
clearly said in my testimony that this needs to be particularly 
for these facilities, the characterization or technology 
development piece clearly needs to be balanced with the need 
for outstanding fundamental research.
    Mr. Bartlett. The rest of you are primarily interested in 
fundamental research, I gather from your testimony and your 
positions. I would hope that you would stoutly resist any 
attempt to try to direct you into basic research, fundamental 
research pursuits that are likely to have societal benefits; 
and I trust that you will do that. Yes, sir?
    Dr. Russell. Can I trust that you could speak to the 
funding agencies? And the reason why I say that is every 
academician, when they are writing a proposal to get funding 
for basic research, there must be a section of that proposal 
that discusses or treats what sort of societal impact that may 
potentially evolve from that research.
    Mr. Bartlett. That is too bad.
    Dr. Russell. Well, that is reality.
    Mr. Bartlett. That is too bad, and Mr. Chairman, we should 
strive to remove that requirement because no one knows when 
there will be societal benefits that comes to basic research.
    Dr. Russell. I agree with you wholeheartedly, and it would 
be wonderful if that could be removed.
    Mr. Bartlett. There are several of us in Congress, three 
scientists and several others that agree with us, and we will 
try. This hearing is focused on energy, and one of the things 
that I have supported and it is now the law, although not being 
implemented by the Administration who didn't like that law, and 
that is the creation of ARPA-E. I gather you are all familiar 
with DARPA. Their customer, of course, is the Department of 
Defense and they have been enormously successful because what 
they do is to fund far out things that the Board of Directors 
couldn't justify funding with their stockholders' money because 
the payoff is far too distant and the probability of a payoff 
is small, and ARPA-E of course would be a DARPA-like thing for 
energy. Do you think that there is a reasonable role for that 
as we tackle a problem we should have been tackling at least 28 
years ago?
    Dr. Dehmer. Well, as you correctly pointed out, ARPA-E was 
in the Authorization Act but has not been funded. And so I am 
not going to comment on the Administration's position because I 
think you know that. But perhaps I can speak to one other thing 
that talks about way-out, fundamental, long-term, high-risk 
research. After 11 basic research needs workshops in different 
areas of energy, I was hearing the same kinds of things over 
and over again, that we need to control the movement of 
electrons and materials, that we need to be able to assemble 
from the atomic level up. However, I got the sense from the 
community that they were too skewed toward the end product 
which was an energy technology. And so I was the one who 
empaneled a final workshop to look at grand challenges in 
science that had nothing to do with energy technologies and 
that were stripped of disciplinary labels. And that is the 
workshop that Tom Russell talked about in his opening remarks.
    I want to keep the Basic Energy Sciences research community 
as focused on long-term scientific challenges that may not have 
an immediate payoff as they are on the energy needs of the 
Department. And I can tell you, it is a very difficult 
challenge because as Tom said, researchers are programmed to 
put in the opening paragraph of their proposals the societal 
relevance; and in the case of the Department of Energy, the 
energy relevance. But from someone who stewarded a basic 
research program for 12 years, I know that you have to keep 
this community focused on long-term discovery science, and I 
have worked very hard to do it but it is a struggle.
    Mr. Bartlett. That requirement of course indicates the 
naivety and the ignorance of the general public and Congress, 
and we have truly representative government about basic 
research, what it is and how it should be conducted.
    Thank you all very much for your testimony and your 
service.
    Chairman Lampson. Thank you, Dr. Bartlett. I want to thank 
all of you. This has been fascinating. I have probably another 
dozen questions that I would like to ask. We will take a 
different track at this point, though. I will express my 
appreciation for your appearing before the Committee this 
afternoon and say that under the rules of the Committee, the 
record will be held open for two weeks for Members to submit 
additional statements and any additional questions such as mine 
that they might have for the witnesses. We appreciate your 
coming. Have a good day, and this hearing is now adjourned.
    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Patricia M. Dehmer, Deputy Director for Science Programs, 
        Office of Science, Department of Energy

Questions submitted by Chairman Nick Lampson

Q1.  In your testimony, you note that ``we are looking for new concepts 
and theories to understand how nature works'' and you are seeking ``a 
21st century equivalent to the development of quantum mechanics 100 
years ago.'' The importance of more emphasis on theoretical research is 
another area highlighted in your recent ``Grand Challenges'' report. Do 
you believe the current support for research into new theories and 
concepts in materials and chemical sciences is adequate?

A1. Theoretical research in materials and chemical sciences to 
understand how nature works is a key component of the research 
activities supported by Basic Energy Science (BES). The shortfall in 
appropriations compared to the FY 2007 and FY 2008 President's requests 
did not allow BES to provide support for new research in these critical 
scientific areas or for promising theoretical studies.
    The importance of theoretical research was emphasized not only in 
the BES Advisory Committee ``Grand Challenges'' report, but also in the 
recent series of Basic Research Needs workshop reports. The resulting 
increased emphasis on theoretical research has been reflected in the 
BES budget requests in the past three years. For example, over $80 
million of new funding was requested in FY 2007 and FY 2008 to increase 
research in solar energy utilization, hydrogen research, advanced 
nuclear energy systems, and mid-scale instrumentation, highlighting the 
need for theoretical approaches.
    The FY 2009 BES budget request contains funding increases to 
initiate new basic research to address the grand science and energy 
challenges, in line with the goals of the America COMPETES Act. The BES 
request includes funding for the proposed Energy Frontier Research 
Centers ($100 million) as well as funding for increased opportunities 
for single investigator and small group research awards in the BES core 
program (approximately $60 million). The development of new theories 
and concepts is at the core of most of these new research 
opportunities. If funded, these new research efforts would 
significantly enhance the current theoretical research activities 
supported by BES and would bring the total theoretical research effort 
in BES to a level that would adequately support BES program needs.

Q2.  A recent National Academics report has promoted biomaterials as an 
exciting new area of research without a real home. These can have some 
very useful properties like self-healing and the ability to detect 
hazardous substances, would it make sense for BES and the Office of 
Science's Biological and Environmental Research program to establish a 
joint initiative in this area?

A2. The report, Inspired by Biology: From Molecules to Materials to 
Machines, is the product of a study by the National Research Council 
(NRC) of the National Academy of Sciences (NAS) co-sponsored by BES and 
the National Science Foundation (NSF). We support the findings and 
recommendations of this report which recognizes that biology offers an 
extraordinary source of inspiration for the development of new 
materials, devices, and processes.
    BES and the Office of Science's Biological and Environmental 
Research (BER) program have several joint initiatives in the area of 
biomaterials. For example, BES and BER, along with NSF and the National 
Institutes of Health, are currently co-sponsoring an NRC study entitled 
Forefronts of Science at the Interface of Physical and Life Sciences. 
This study seeks to identify large-scale, complex problems at the 
interface of the physical sciences and life sciences that could produce 
unprecedented advances and breakthroughs in both areas. We anticipate 
the report will provide valuable insight into the scope of scientific 
opportunities spanning programs in BES and BER (as well as other 
federal agencies) and may help form the basis for new activities in 
these Offices.

Q3.  Corrosion is a major issue in both our transportation and military 
infrastructure, how significant is the attention to corrosion of 
materials in the BES program, and is there any integration with 
research efforts at the Department of Defense?

A3. The BES program is working with the Department of Defense through 
two studies by the National Research Council (NRC) of the National 
Academy of Sciences (NAS) on corrosion. BES is currently co-funding a 
study with the Department of Defense by the NRC entitled Research 
Opportunities in Corrosion Science and Engineering. This study is 
designed to identify the science opportunities which have arisen from 
recent advances in the field of fundamental corrosion research to 
further advance scientific understanding of the mechanisms of corrosion 
processes, materials degradation, and their mitigation. The study will 
prioritize a set of research grand-challenge questions to fill 
identified scientific gaps and will make recommendations on a national 
strategy for fundamental corrosion research to gain critical 
understanding of materials degradation and mitigating technologies. The 
resulting strategy is also expected to include recommendations on how 
to maximize dissemination of the results of corrosion research, so that 
results of this research can be incorporated into corrosion mitigation. 
BES also participated in the recently completed NRC study on Assessing 
Corrosion Education which the Department of Defense sponsored.

Q4.  In your testimony, you mention pilot studies on ways to improve 
the operation and utilization of the light sources, but budget 
restrictions did not allow you to implement them this year. Could you 
describe in greater detail what you would have done to better manage 
these facilities if you received the funds you requested?

A4. Operational costs for the light sources have increased 
significantly in recent years, largely because of increases in the cost 
of the electric power needed to operate these facilities. Yet 
appropriations in FY 2007 and FY 2008 were below the levels requested. 
These reductions forced us to reduce some operating hours and user 
access at the light sources; but, we were able to hold these reductions 
to a minimum by using funds that had been intended for accelerator 
maintenance and instrument upgrades, which have been deferred. So, 
there has been a cost. Also, present staffing levels are not sufficient 
to provide optimum utilization of the facilities. The FY 2009 budget 
request, if provided in full, would allow full operation of the light 
sources, increased staffing of the user beamlines, and some mitigation 
of the impact of deferred maintenance and upgrades. The DOE light 
sources are the ``crown jewels'' of our user facilities, and we are in 
danger of significantly damaging them if budget reductions continue.
    To better manage these facilities, given the recurrent budget 
shortfalls the BES program re-evaluated the metrics used to assess 
effective operation and utilization of the synchrotron light source 
facilities, looking to broaden the metrics from the previously used 
``hours of operation of the accelerator complex and numbers of users 
who annually visit the facilities.'' With the cooperation of the 
facilities, DOE devised new measures that provide quantitative 
assessments of instrument capability, instrument capacity, and staffing 
levels. These measures were piloted in FY 2005 and FY 2006, and data 
were collected for FY 2007 and FY 2008 as well. These pilot studies 
show that overall effectiveness of operation and utilization of the 
synchrotron light sources could be improved, but that usually such 
improvements would require additional operating costs, although some 
improvements could be gained from enhanced strategic planning within 
and across facilities.
    The BES program initiated the pilot study to develop two factors 
for assessing effective utilization of DOE light source capabilities. 
First, BES commissioned the classification of light source beamlines 
that resulted in twelve categories of instruments, four in each of the 
three major categories of spectroscopy, scattering, and imaging. 
Classifying the instruments at the light sources in this way revealed 
some of the differences among the facilities. For example, the APS, a 
hard x-ray light source, emphasizes scattering, while the ALS, a soft 
x-ray light source, emphasizes spectroscopy and imaging.
    Once all the beamlines were uniformly categorized, new data were 
collected for two assessment factors: quality of beamlines in operation 
and number of staff--including all relevant support staff--dedicated to 
the use of the beamlines versus an assessment of optimal staffing 
needed for each beamline.
    The quality factor data in FY 2005 indicated that only 18 percent 
of the beamlines at the four DOE facilities are operating at optimal 
performance. An equal number of operating beamlines required major 
upgrades or are marginally useful. The majority of beamlines, 64 
percent, required minor or moderate upgrades. Across the four DOE 
facilities, 46 beamlines (27 percent) were rated as ``best in class'' 
as bench-marked against similar capabilities worldwide.
    These data have been collected by the four DOE light sources 
annually since the initial pilot study and are used by facility 
management to assess utilization. The FY 2008 data will be available 
late in 2008, and BES will use the multi-year data to assess the trends 
for instrument and facilities utilization of the four DOE light sources 
during these recent years of constrained budgets.

Question submitted by Representative Bob Inglis

Q1.  Dr. Dehmer, in your testimony, you discuss the Basic Research 
Needs workshops, one of which was the Basic Research Needs for the 
Hydrogen Economy. Can you discuss how work on the basic sciences of 
hydrogen matter is helping to improve our ability to tap into this 
valuable energy source?

A1. As an energy carrier--not an energy source, hydrogen holds the 
potential to significantly transform the ways in which we use energy. 
The Basic Research Needs for the Hydrogen Economy workshop, held in 
2003, served as a basis for the first BES solicitation in the hydrogen 
program. As a result of that solicitation BES now funds hydrogen 
research under five categories, including Novel Materials for Hydrogen 
Storage; Membranes for Separation, Purification and Ion Transport; 
Design of Catalysts at the Nanoscale; Solar Hydrogen Production; and 
Bio-inspired Materials and Processes. In each of these five categories 
substantial progress has been made in understanding the issues that are 
``show stoppers'' in the technology programs.
    This work has enabled significant advances in understanding 
hydrogen-matter interactions. Recent accomplishments in BES-supported 
research include the discovery of atomic-scale mechanisms explaining 
reversible hydrogen storage within complex metal hydrides; the 
development of novel micro- and nano-patterning syntheses for a new 
generation of fuel cell membranes with superior power output; 
theoretical predictions and experimental validation of new 
architectures and compositions of catalyst alloys for efficient 
hydrogen production from fossil fuels as well as for fuel cell 
applications; the synthesis of mixed metal oxide photoelectrodes for 
solar hydrogen production; the identification of chemical pathways to 
convert biomass to hydrogen and other fuels; and advances in the 
development of oxygen-tolerant enzymes for bio-inspired hydrogen 
production.
    A number of these accomplishments have led to follow-up 
developments by the applied research programs. Of particular note is 
the successful development of electrocatalysts with ultra-low platinum 
content that are 20 times more active by mass and more stable than pure 
platinum for converting hydrogen to electricity in fuel cell 
applications dramatically reducing the potential cost of future fuel 
cell systems.
    The connection of basic research results with the applied 
technology needs is ensured by close collaboration between BES and the 
technology offices within DOE that are part of the hydrogen program, as 
well as with other government agencies that perform research and 
development on hydrogen and fuel cells. In order to further strengthen 
collaborations with the applied technology programs, BES program staff 
began participating in the DOE Hydrogen Program Annual Merit Review, 
which also involved the DOE Offices of Energy Efficiency and Renewable 
Energy, Fossil Energy, and Nuclear Energy, to promote information 
sharing. Beginning in FY 2006, the BES program staff organized parallel 
sessions at the Merit Review meeting for the BES principal 
investigators. Results from long-term research in hydrogen storage, 
fuel cells, and hydrogen production will allow continued cost 
reductions as ongoing scientific advances in areas like photochemical 
hydrogen production reach technological readiness. DOE and industry 
representatives have stated that fundamental science breakthroughs are 
needed to meet the 2015 technological readiness requirements.

Questions submitted by Representative Daniel Lipinski

Q1.  Both the National Academies and DOE's own ``Grand Challenges'' 
report recently identified materials synthesis as an area that needs 
much more attention if we're to come up with solutions for a broad 
range of our energy problems. Do you agree, and if so how should we 
address this? Are the new nanotechnology centers all we need?

A1. The discovery of new materials with superior properties is 
essential to energy-relevant areas such as superconductors for energy 
transmission, photovoltaics and batteries for energy storage, and 
thermoelectrics for power generation. The design, discovery, and growth 
of novel materials represent a national core competency, which is 
required for scientific progress and long-term economic growth. 
Currently, the U.S. infrastructure in materials synthesis is 
insufficient due in part to the decline of traditionally strong 
industrial expertise in synthesis and to the relatively small number of 
synthesis scientists being trained in U.S. universities and national 
laboratories.
    The Energy Frontier Research Centers (EFRCs) proposed in the Office 
of Science's FY 2009 budget request ($100 million) and the 
corresponding increased opportunities for single investigator and small 
group research awards in the BES core program (+  $60,000,000) will 
address this deficiency. The design, discovery, and synthesis of new 
materials and molecular assemblies through atomic scale control are 
prevailing themes in these efforts. Further, BES has a core research 
activity in Synthesis and Processing Science focused on atomic- to 
nanoscale scientific understanding using physical principles to enable 
reliable, reproducible, and innovative production of novel materials. 
We also expect that materials synthesis work done in the EFRCs will be 
coordinated and prioritized within this BES research activity.
    The DOE Nanoscale Science Research Centers are an integral part of 
the BES materials synthesis effort. Their specialized synthesis 
capabilities as well as their complementary analytical and 
computational tools are expected to be utilized by the EFRCs and also 
by the new single investigator and small group research investigators.

Q2.  Nanotechnology promises to yield significant advancements in many 
fields, perhaps most notably in the development of new energy 
technologies. Would you elaborate on your experiences with 
nanotechnology and how you envision it aiding in the fight to develop 
advance energy technologies that will wean us off fossil fuels and 
reduce emissions of climate changing gases?

A2. The relationship of nanoscale science and technology to the 
Nation's energy future was detailed in the report of an interagency 
workshop sponsored by DOE and the other member agencies of the 
Nanoscale Science, Engineering and Technology Subcommittee of the 
National Science and Technology Council in March 2004. The report 
(http://www.sc.doe.gov/bes/reports/files/NREN<INF>-</INF>rpt.pdf) 
contains many examples indicative of outcomes and expected progress in 
a broad range of research targets. Six foundational nanoscience 
research themes were highlighted: catalysis by nanoscale materials; 
using interfaces to manipulate energy carriers; linking structure and 
function at the nanoscale; assembly and architecture of nanoscale 
structures; theory, modeling, and simulation for energy nanoscience; 
and scalable synthesis methods.
    At the root of the opportunities provided by nanoscience and 
nanotechnology to impact our energy security is the fact that all the 
elementary steps of energy conversion take place at the nanoscale. 
There are many recent examples where quantum confinement in 
nanomaterials has produced unexpected phenomena exploitable for energy 
technologies. These examples include highly selective nanocatalysis for 
hydrogen fuel cells; quantum dots for high efficiency solid-state 
lighting; nanostructured electrodes for batteries and ultra-capacitors 
with higher energy and power densities; radiation-tolerant 
nanomaterials for next generation nuclear applications; and nano-
layered high-temperature superconductor wires for low-loss transmission 
lines.

Q3.  Major facilities have struggled with adequate operating budgets. 
How has reduced operating time at facilities like the Advanced Photon 
Source (APS) affected work like yours? What are the long-term impacts 
of inadequate funding?

A3. Despite requested increases in FY 2007 and FY 2008, the operations 
of BES major user facilities--the synchrotron radiation light sources, 
the neutron scattering facilities, the electron beam micro-
characterization centers, and the nanoscale science research centers--
have been nearly flat funded since FY 2006. As a result hours of 
operation were reduced, service to users was reduced, staffing levels 
were less than optimal, and staff layoffs occurred. We have, however, 
taken steps to mitigate as much as possible the impacts on facilities' 
operations and user access. To keep facilities operating at the highest 
possible levels, despite limited funding, we have deferred planned 
maintenance of the accelerators and instruments, as well as needed 
upgrades to the beamlines. Such compromises, however, are placing the 
facilities--especially the light sources that either operate or conduct 
maintenance 24 hours a day, seven days a week--in very difficult 
situations which will eventually have adverse effects on our research 
communities and their results.
    The Advanced Photon Source (APS) in Illinois illustrates the 
negative impacts of prolonged inadequate funding. The APS is the 
largest light source in the U.S.; it employs about 450 researchers and 
technicians and serves over 3,000 users annually. Total cost of 
maintaining the staff in FY 2009 is estimated to be $82 million. Fixed 
costs for central charges like servicing the experiment hall and 
providing electricity are $18 million; this includes a machine power 
bill of $8.5 million and a house power cost of $2 million. The cost of 
annual software licenses at the APS is more than $1 million, and liquid 
nitrogen alone costs about $300,000 annually. Moreover, electricity 
costs have increased 25 percent this year. Such rising fixed costs and 
salaries for on-board staff, coupled with flat budgets, leave scant 
funds for needed maintenance, materials, and supplies. Yet a prolonged 
lack of maintenance, materials, and supplies will eventually negatively 
impact safe reliable operations at the APS and could even result in a 
full shutdown. Obviously, this would severely impact users and their 
science output.
    Under a flat budget in FY 2009, the APS would likely have to layoff 
50-60 staff in April 2009, to allow funding for enough materials and 
supplies to operate at a reduced scope. The APS would operate only 
about 4,000 hours in 2009 and would lose about 15 percent of its users. 
This strategy would allow the APS to continue operating in a safe, 
reliable manner, though at reduced levels, and would retain key staff 
and users until budgets improve at some future time. The situation is 
similar at other BES facilities, and is unsustainable in the long-term.

Q4.  How do you compare U.S. investments in science and user facilities 
with those of other countries that you are familiar with?

A4. The question is a broad one, and I will limit my response to 
investment trends in two areas where BES has national stewardship 
responsibilities--synchrotron radiation light sources and high-flux 
neutron sources.
    One quantitative comparison of U.S. and international advanced 
capability and capacity comes from a consideration of these third 
generation synchrotron light sources and, in particular, from a 
consideration of the numbers of usable beamline ports. In general, the 
number of ports is a good indicator of the corresponding instrument 
capacity of a facility. Currently, the U.S. has about 30 percent of the 
total ports on third generation light sources. By 2010, that percentage 
will likely drop to 15 percent. The rate of investment in new 
synchrotron light sources with advanced capability and significant 
capacity is far greater internationally than within the U.S.
    A few years ago, BES upgraded the Stanford Synchrotron Radiation 
Laboratory at the SLAC National Accelerator Laboratory by completely 
rebuilding the magnetic lattice and control systems. Very recently, BES 
began funding for the National Synchrotron Light Source II project at 
Brookhaven National Laboratory. While these are very important 
contributions towards maintaining U.S. competitiveness in the field, 
there has also been significant growth of synchrotron radiation 
facilities worldwide. At the end of this decade, there will be 12 
intermediate energy (2.5-4 GeV, or billion electron volt) sources in 
the world, of which eight will have commenced operations between 2005 
and 2010. The U.S. will have only two of these.
    The state of neutron scattering facilities in the U.S. has improved 
in the past five years through the upgrade of the High-Flux Isotope 
Reactor and construction of the Spallation Neutron Source, both at Oak 
Ridge National Laboratory. The High-Flux Isotope Reactor provides the 
world's highest flux reactor-based neutron source, and the Spallation 
Neutron Source is the world's most intense pulsed accelerator-based 
neutron source. However, there are more neutron sources--both reactor- 
and spallation-based--in operation in Europe than in the U.S. As a 
result, the U.S. is outnumbered in instruments available to users by 
almost a factor of three.
                   Answers to Post-Hearing Questions
Responses by Steven B. Dierker, Associate Laboratory Director for Light 
        Sources; National Synchrotron Light Source II Project Director, 
        Brookhaven National Laboratory

Question submitted by Chairman Nick Lampson

Q1.  Most R&D in accelerators, which are the backbone of the major BES 
facilities, is now conducted by the high energy physics program. Do you 
think a joint program with a greater contribution from BES would be 
beneficial?

A1. A large number of outstanding and highly talented scientists and 
engineers with specialized knowledge and skills are supported by the 
BES program to design, construct, and operate the accelerators that 
form the backbone of the major BES user facilities. They represent a 
critical human resource that can be effectively leveraged by engaging 
them in R&D programs to advance the state of the art in accelerator 
science and technology. Such advances are essential to enable the next 
generation of scientific user facilities to be conceived and built in 
order to maintain U.S. leadership in this internationally competitive 
area of science and technology. Funding to enable the BES program to 
expand its present program would be very beneficial. Continuing to 
coordinate the R&D efforts in the different programs of the Office of 
Science would also be beneficial.

Question submitted by Representative Bob Inglis

Q1.  Dr. Dierker, you remark that the Basic Energy Sciences facilities 
have a regional character; for example, two-thirds of the users at the 
National Synchrotron Light Source are from the northeast. In your 
opinion, should BES develop outreach mechanisms to attract academic 
users from the United States at large? If so, how might they go about 
that?

A1. While the usage of the BES facilities does have a regional 
character, it is important to note that they nevertheless do serve 
large numbers of users from throughout the United States. The BES user 
facilities do engage in significant outreach programs to attract 
academic users from throughout the United States and I believe that 
additional outreach efforts would be unlikely to change the present 
regional character of the user base of the facilities. This usage 
pattern primarily results from the nature of the research carried out 
at such facilities, which often requires frequent, hands-on access 
which is most practical for the users that are relatively nearby the 
facility. The facilities do try to support remote users by 
collaborating with them, acting as their local ``hands and eyes'' on 
the experiment. Not all experiments lend themselves to being controlled 
remotely, but those that do still require a local person to install the 
sample, etc. At present, the facilities are chronically understaffed, 
and the shortage of staffing limits the amount of support they can 
provide to remote users. Additional operating funds would enable the 
facilities to hire the staff necessary to support more remote users.

Questions submitted by Representative Daniel Lipinski

Q1.  Major facilities have struggled with adequate operating budgets. 
How has reduced operating time at facilities like the Advanced Photon 
Source (APS) affected work like yours? What are the long-term impacts 
of inadequate funding?

A1. Reductions in operating time at the BES facilities directly 
translate to reduced scientific productivity by the academic, 
industrial, and government laboratory user community that depends on 
these facilities to carry out its research. If inadequate operating 
budgets persist, the long-term impact will be that U.S. researchers 
fall further behind researchers overseas, who have ready access to 
competing facilities in other countries, directly threatening the 
economic and technological competitiveness of the U.S. The additional 
funds needed to fully operate and utilize the BES facilities represent 
a small marginal investment that capitalizes on the significant 
investment in constructing and operating the facilities.
                   Answers to Post-Hearing Questions
Responses by Ernest L. Hall, Chief Scientist, Chemistry Technologies 
        and Materials Characterization, GE Global Research

Questions submitted by Chairman Nick Lampson

Q1.  In your testimony, you praise the Shared Research Equipment 
program at Oak Ridge National Laboratory as ``a good model for access 
to advanced instrumentation for both academic and industrial 
researchers.'' Can you explain in more detail what you find useful 
about this program, and how easy you think it would be to replicate in 
BES's larger facilities?

A1. I specifically mentioned the DOE/BES SHaRE program at Oak Ridge 
National Laboratory (which deals primarily with electron beam and atom 
probe instrumentation) since I have personal experience with that 
program, and it contains many of the attributes that I feel would 
comprise a successful external-user program. I have also been able to 
observe the impact of this program on the research of both academic and 
industrial users over the past 30 years. Some of the key aspects of 
SHaRE are:

        <bullet>  A very clear and user-friendly website interface 
        http://www.ms.ornl.gov/share/index.shtml, which specifically 
        invites faculty and students of U.S. accredited universities, 
        industrial researchers, and scientists at national laboratories 
        to participate.

        <bullet>  Easy access to information about the capabilities 
        that are available, and an excellent on-line proposal 
        application.

        <bullet>  Proposals can be submitted and considered at any 
        time.

        <bullet>  Submitted proposals are assigned a senior researcher 
        who works to understand the technical needs of the applicants 
        and ensure scientific value and applicability. If the proposal 
        is accepted, this ONRL staff member will be the host and key 
        collaborator for the research, and will help with experiment 
        set-up, execution, and interpretation. This maximizes the 
        potential for success for the visiting scientists.

        <bullet>  Although I do not currently see mention of this, I 
        believe at one point there was modest funding to help defray 
        travel and living costs for academic researchers.

        <bullet>  ORNL ShaRE researchers are very active at major U.S. 
        technical meetings in presenting scientific results from the 
        collaborative ShaRE projects, and promoting the program to 
        external scientists.

    There may be other similar programs at DOE's major facilities that 
I am not aware of. It would seem to me that it would be possible to 
incorporate the aspects listed above into successful user outreach 
programs at any facility.

Questions submitted by Representative Bob Inglis

Q1.  Dr. Hall, you remark in your testimony that DOE should give 
industry preferential access to their facility time. Can you explain 
your position and elaborate on how DOE can better balance the need for 
industrial research and fundamental academic research?

A1. In my written statement, I asked that DOE consider giving higher 
priority than at present to the needs of industrial users. I also 
indicated the need for a proper balance between outstanding fundamental 
or basic research, and the use of these facilities as materials 
characterization tools in the development of new technologies by 
industry. It seems to me that basic energy science will continue to be 
the dominant use of the very large facilities. If we look to Europe and 
Asia, where some synchrotron and neutron facilities have aggressively 
worked to increase access by industry, we see that perhaps 20 percent 
of the usage is devoted to industrial needs. That may be a good 
benchmark. In my written testimony, I also argue for several aspects 
that would benefit U.S. industry: a mechanism for rapid short-term 
access; good maintenance and reliability of the source and end-station 
beamlines; access to expert facility staff; and an easy, clear, and 
cost-effective method to deal with proprietary concerns.
    Last March there was a three-way meeting between the APS (DOE, 
U.S.), ESRF (Europe), and SPring-8 (Japan) synchrotron communities. In 
reporting about the meeting, Synchrotron Radiation News wrote: 
``SPring-8 Director General Akira Kira delved into the ``Socialization 
of SPring-8.'' This is a continuation of a move to develop a more 
inclusive user base: bringing in not only synchrotron radiation 
experts, but also non-experts, and providing more assistance and user-
friendly equipment for the industrial as well as academic users.'' This 
would seem to be a good model for increasing industrial impact.

Questions submitted by Representative Daniel Lipinski

Q1.  Nanotechnology promises to yield significant advancements in many 
fields, perhaps most notably in the development of new energy 
technologies. Would you elaborate on your experiences with 
nanotechnology and how you envision it aiding in the fight to develop 
advance energy technologies that will wean us off fossil fuels and 
reduce emissions of climate changing gases?

A1. At GE Global Research, we have a large nanotechnology effort. We 
view nanotechnology as a key enabler in the drive for new materials 
that will impact solar energy, energy storage systems including 
batteries for hybrid vehicles, stronger and lighter materials for 
higher-efficiency engines and turbines, catalysts for waste gas 
reduction, membranes for CO<INF>2</INF> separation, and many other 
technologies. We have already used the existing U.S. synchrotron and 
neutron facilities in many of these projects. In addition, we have been 
working with the National Synchrotron Light Source at Brookhaven 
National Lab in the design of the NSLS-II, which has some specific 
features designed to extend capabilities to the nanoscale. High source 
brightness, combined with x-ray optics and new imaging techniques, 
should allow studies at the sub-10 nanometer scale. We look forward to 
utilizing this capability. However, at the same time, it is important 
to maintain the flexibility for studies at the micro and even macro-
scale. At GE, many of our products in the energy field are physically 
large compared, for example, to microelectronics. A key question is, 
``can we maintain nanoscale structure and properties uniformly in a 
large part?'' The synchrotrons and neutron facilities are very well 
suited to answer that question.

Q2.  How do you compare U.S. investments in science and user facilities 
with those of other countries that you are familiar with?

A2. As I'm sure you are aware, there has been a significant increase in 
the number of synchrotron and neutron facilities in Europe and Asia 
that are in operation or under construction. Among other facilities, we 
are familiar with the FRM-II neutron facility on the campus of the 
Technical University of Munich, Germany, which is close to our European 
Research Center adjacent to the campus. In China, the government is 
building the Shanghai Synchrotron Research Facility across the street 
from our China Technology Center. We have done some limited technical 
work with the former, and anticipate a good working relationship with 
the latter. From GE's point of view, with our current U.S. group of 
synchrotron and neutron sources, and new facilities such as the 
Spallation Neutron Source at Oak Ridge and the National Synchrotron 
Light Source II at Brookhaven coming on line in the future, we feel 
that our research needs, and those of other U.S. industries, can be 
met. As I have stated previously, the key is to invest in the 
maintenance, upgrading, and staffing of existing and future planned 
facilities so they can be fully and optimally utilized. It is critical 
that we have world-class scientists working on the staff of the U.S. 
facilities.
    Since my particular areas of expertise also include electron beam 
instrumentation, I would also urge DOE to continue to think broadly 
about investment in advanced materials characterization facilities such 
as electron microscopes and atom-probe instruments. In the cases where 
this instrumentation becomes sufficiently specialized, sophisticated, 
and costly, it is difficult for U.S. industry, especially smaller 
businesses, to have all of the needed instruments in house. DOE has 
recently invested in the TEAM program for advanced transmission 
electron microscopy, and these types of facilities are also extremely 
important, especially for nanotechnology and micro/nano electronics.
    Finally, I wanted to again mention the benefits from the regional 
approach currently used by DOE in terms of better access for U.S. 
researchers. Investment in advanced facilities in different regions of 
the U.S. makes utilization much easier.

Q3.  Are you concerned about loss of expertise in energy science to 
foreign countries at our research institutions, or our ability to 
attract scientists from abroad as we once did? Do you see a connection 
to economic competitiveness?

A3. We have discussed above the investment that foreign governments are 
making in major tools for the conducting of advanced research. In 
keeping with the purpose of this hearing, I think a case can be made 
that in order to maintain and grow our world-class expertise in energy 
science in academia, government, and industry, and to be able to 
develop technically superior products, U.S. scientists need access to 
the best research tools in the world. As I've said previously, this 
means world-class facilities staffed by top researchers with sufficient 
funding and good access models for external users.
                   Answers to Post-Hearing Questions
Responses by Thomas P. Russell, Silvio O. Conte Distinguished 
        Professor, Polymer Science and Engineering Department, 
        University of Massachusetts-Amherst; Director, Materials 
        Research Science and Engineering Center; Associate Director, 
        MAssNanoTech

Questions submitted by Representative Daniel Lipinski

Q1.  As a former college professor and student of engineering, I 
believe it's critical that we strongly support our research 
institutions that help train the next generation of scientists. Without 
ample funding support, young researchers will not be interested in 
pursuing degrees in areas that appear to have no future or very little 
reward. And without these young students filling up the pipeline, we 
will effectively cede scientific progress to other countries.

     As I'm sure you would agree, we need to capture the imagination of 
our students who are the future of our scientific enterprise. What are 
you doing at the University of Massachusetts to attract students to the 
field and keep them there? What additional efforts do you believe we 
could be doing to better assist in this effort?

A1. I have the good fortune of being a faculty member in the top-ranked 
Polymer Science and Engineering Department in the country. This ranking 
has come about from the excellence in the curriculum, the success of 
the faculty in achieving support for their research, the diverse 
research culture in the department (similar to what I enjoyed at IBM), 
and the forefront research that is ongoing in the department. 
Performing forefront research that is exciting, publishing in the top-
ranked journals, providing a quality research infrastructure, and 
advertising this via the World Wide Web are perhaps the keys in 
attracting students who are interested in pursuing a career in 
materials science. Quite honestly, I, personally, do not have a problem 
in recruiting superb students and post-doctoral fellows to my group and 
other faculty members share a similar luxury.
    With that said, I should also say that I have a large number of 
foreign students and postdoctoral fellows in my group. This is not 
uncommon. In fact, if I look at the overall trends, the number of 
American students who are assuming a career in materials or polymer 
science is decreasing. The same can be said for our European colleagues 
where they are experiencing similar types of decreases. The difference, 
of course, has been made up by an increasing number of oriental 
students, Korean and Chinese, in particular, who are aggressively 
pursuing careers in these areas. These individuals see the benefits in 
pursuing careers in materials science and are not afraid to put in long 
hours that may be required to be successful. Perhaps this arises from a 
scientific ``pipeline'' that has been established throughout their 
educational system where students are given the support and nurturing 
in the sciences that allow them to succeed. Perhaps this is where the 
American system is failing. An effective pipeline, where students are 
thoroughly trained in the sciences has been falling off in the United 
States and we need to re-invigorate this for the benefit, well-being 
and competitiveness of the United States on a global level.
    At the University of Massachusetts we have active educational 
programs, outreach programs, designed to reach out to students across 
all grade levels. The most important age group, in my opinion, is the 
middle school. It is this age group where students are really making up 
their minds or, perhaps, can be most easily influenced or excited by 
materials science. A very effective route to bring across an excitement 
about research is through their teachers. Exciting the teachers about 
research can have significant impact. Over the years we have had a 
Research Experience for Teachers program that has been supported by the 
National Science Foundation (NSF), where teachers are brought into the 
laboratories, work with graduate students and post-doctoral fellows, 
perform research and can, actually, obtain publishable results. More 
importantly, the teachers get a true flavor for research and become 
invigorated themselves. This excitement and vigor is then brought back 
into the classroom where the teachers can convey this excitement to 
nearly 125 students every day. The teachers are the ones who have the 
most influence with the students. They work with the students and know 
how to reach the students. If they can excite a couple of students in 
each class to pursue a career in the sciences, I am certain the number 
of career scientists would increase. In addition to the excitement, 
these research experiences inject confidence into the teachers and, in 
my opinion, improve the level and quality of their teaching. As part of 
this program, the teachers can also develop curricula that they can use 
in their classes. In addition, the teachers can also recommend their 
students to participate in outreach efforts that we provide for 
students at this level. This includes a program where students can come 
to the university, learn about polymers and some advanced 
instrumentation, and actually use these instruments to do mentored 
experiments. These latter programs are run by graduate students and the 
entire experience is an ``eye opening'' experience for middle and high 
school student and the participating graduate students.
    So what happens to the students when they go to college? At this 
point is more effective to bring the students into the laboratories to 
perform research. The National Science Foundation has supported a 
Research Experience for Undergraduates (REU) programs where students 
are brought into the laboratory and work with students and post-
doctoral fellows to perform meaningful research. This program provides 
a mechanism by which the students interested in a research career can 
be engaged in a research activity over the course of eight to ten 
weeks. This truly allows the students to get a good sense of a research 
career and serves as an excellent venue by which the students can make 
a decision about a specific research direction or whether they want to 
pursue research in the future. From my own personal experience, I 
participated in an REU program at Brown University for two summers and 
this experience convinced me that I had the ability to do research. It 
instilled a confidence in my own abilities and it excited me about 
pursuing research for a career. I must add that I was attending a four-
year college designed to train teachers where there were really no 
research activities. It made a huge difference in my life and I am 
certain the same happens to others.
    While it is wonderful to reach out to students and teachers we, as 
scientists, must also reach out to the public. There is, in my opinion, 
a disconnect between the general American public and the world of 
materials research. With space exploration, NASA has done a superb job 
in educating the public about space. This, of course, has come at a 
reasonable expense, but is has been effective to say the least. As 
materials scientists we have, in my opinion done a terrible job in 
educating the public and in the government about the excitement and 
importance of materials science. During the Cold War it was easy to 
make the argument to make that materials science was important for the 
security of the country and there was a much larger number of people 
who assumed careers in science and, though there was still mysticism 
about science in general, the public knew that it was important to have 
a cadre of people who were doing complex thing for the good of the 
country. Times have changed, though the importance of materials science 
as certainly not diminished in importance. It is, quite frankly, 
difficult to compete with other career choices that may be much more 
rewarding financially. The appeal of intellectual reward is not what is 
used to be. Nonetheless, we, as scientists, must do a much better job 
in educating the public and conveying the importance of the work in 
which we are involved. This should not be an easy task, though we 
appear to have failed. We are beginning to come out of our ivory towers 
and to reach out to the public sector. At the University of 
Massachusetts, in particular in the NSF Materials Research Science and 
Engineering Center, we have a program called VISUAL where images taken 
in the laboratory during the course of actual experiments are framed 
and hung for viewing. Along with the image comes a description, in 
plain English, of the science underpinning the image. These images are 
stunning, eye-catching and audience capturing. We have had hangings at 
museums, galleries, hospitals, coffee houses and even the Department of 
Motor Vehicles. They have uniformly received a tremendous reception and 
have made a very small inroad in educating the everyday person about 
some of the science that is going on in the laboratories at the Center. 
In a sense, this is just what NASA did with space. The images from 
space are truly stunning and draw you in. On the way in you receive 
information about stars, galaxies, black holes, etc. We need much more 
of this in materials science, since, if the public is won over, it will 
be far easier for the funding agencies to argue for support and, in 
turn, far easier for us to get funding to support the research we want 
to do. Once this ball got rolling, I am certain the interest in 
individuals assuming careers in science and technologically related 
areas would increase.
    As the Director of the Materials Research Science and Engineering 
Center at the University of Massachusetts Amherst I have been a very 
strong proponent of all of these efforts. I honestly believe that we 
must continue to promote research on all levels, establish a research 
pipeline for the overall good of the United State and to ensure 
competitiveness of the United States in the future. This, however, also 
requires the support from the government. These programs do require a 
financial commitment and, if the programs are executed effectively, the 
return on the investment will be substantial.

Q2.  Nanotechnology promises to yield significant advancements in many 
fields, perhaps most notably in the development of new energy 
technologies. Would you elaborate on your experiences with 
nanotechnology and how you envision it aiding in the fight to develop 
advance energy technologies that will wean us off fossil fuels and 
reduce emissions of climate changing gases?

A2. Many areas of research that are being pursued to solve the energy 
problem rely, in some form or other, on nanoscopic structures to enable 
a specific function. With fuel cell, the membranes that are used 
consist of nanoscopic channels to transport protons. With hydrogen, 
membranous materials with nanoscopic features will be required for 
storage. Catalysts, used in fuel cells and hydrogen based systems, are 
classic examples where nanoscopic size is crucial, since it is the 
surface area of the catalyst that is important and, as the size of the 
particle gets smaller and smaller, the surface to volume ratio 
increases, i.e., there is more surface area available for the catalysts 
to function. In photovoltaic devices light excites a molecule, 
generates an exciton (an electron-hole pair) that moves through the 
material. The exciton diffuses about 5-10 nm before the electron and 
hole recombine and it is essential to extract the electron before this 
occurs. This forces the structures in a photovoltaic device to be 
nanoscopic in size. Even if we go to microbial fuel cells, the microbes 
rely on the transport of electrons from the microbe to an electrode 
surface through nanoscopic tubes, called pili. So, nanoscience, and by 
default, nanotechnology pervade the science that will underpin the 
solution to the energy problem, relieve our dependency on oil and lead 
to lower emissions and the generation of carbon dioxide. I do not know 
whether one or a combination of routes will be the solution, but I am 
certain that objects on the nanoscopic level will play a key role. When 
we are considering the mass production of material for general use, 
fabricating these structures will require advances in nanotechnology, 
our understanding and fabrication of nanostructured materials. I must 
add, at this point, that the neutron and synchrotron x-ray facilities 
that are operated by the Department of Energy are ideally suited to 
characterize materials on this level and, hence, will be instrumental 
in advancing nanoscience and nanotechnology.

Q3.  How do you compare U.S. investments in science and user facilities 
with those of other countries that you are familiar with?

A3. I can only reiterate the statement that I made and that Dr. 
Patricia Dehmer made at the hearing. The facilities in the United 
States are best-in-class facilities. The Spallation Neutron Source 
(SNS) in Oak Ridge is (will be) the most intense source of neutrons in 
the world. While the Europeans can claim bragging rights with the most 
intense reactor source, the Institut Laue-Langevin (ILL) in Grenoble, 
the SNS will be able to perform as well, if not better, in all areas of 
scattering science. The U.S. had plans for an intense reactor source, 
the Advanced Neutron Source, but the cost to build the facility and 
issues associated with the Uranium core, prevented the continuation of 
the project. The SNS is certainly a part of the solution to this 
problem. The SNS is also complemented by the less intense spallation 
source at the Lujan Neutron Scattering Center at the Los Alamos 
National Laboratory. Also at Oak Ridge is the High Flux Isotope 
Reactor, though not being as intense a source as the ILL, is certainly 
competitive in several areas of neutron scattering science. The 
Department of Commerce, through the National Institute of Standards and 
Technology operates a reactor in Gaithersburg and, with the NSF, U.S. 
scientists have access to the National Center for Neutron Research. 
Like HFIR, NCNR has been a tremendous resource to research in many 
disciplines and has operated with very high availability and 
reliability. NCNR has been a source that has operated continuously 
while other neutron sources were being renovated or built. In terms of 
synchrotron radiation sources, the U.S. has the Advanced Photon Source 
(APS) at the Argonne National Laboratory which is as intense as the 
European Synchrotron Radiation Facility (ESRF) in Grenoble. In 
addition, there is the National Synchrotron Light Sources (NSLS) and 
the Stanford Synchrotron Radiation Laboratory, affectionately termed 
generation-1 light sources, which afford the U.S. scientific community 
with intense sources of x-rays. The Brookhaven National Laboratory has 
plans to construct a third generation source, NSLS II, which will 
surpass the capabilities at APS and ESRF. These hard x-ray sources are 
complemented by the soft x-ray sources that are available at the 
Brookhaven National Laboratory and the Advanced Photon Source at the 
Lawrence Berkeley National Laboratory. These facilities provide the 
users with the capabilities of doing spectroscopy with an intense 
source of radiation. So, whether one wants to consider the availability 
of neutron and x-ray sources of varying intensities, the United States 
is certainly competitive. The Department of Energy has done a 
tremendous service to the American Scientific community as stewards for 
these facilities, providing the American scientific community with 
these capabilities. There is a significant amount of science, ranging 
from individual investigator to larger scale efforts that required 
either short-term or long-term efforts that these facilities enable.

Q4a.  Are you concerned about loss of expertise in energy science to 
foreign countries at our research institutions........

A4a. I do not think there is a simple answer to this problem. Am I 
concerned about a loss of expertise in energy science? Not as long as 
there is funding to support the scientific enterprise in this country. 
Last year we experienced a situation where the funding for an energy 
initiative was removed from the DOE budget. There was a tremendous 
effort by the scientific community to propose a large range of science. 
The removal of the funds was alarming, to say the least. In my 
testimony, I referred to the frustration that I experienced personally 
with this and this could be multiplied by a factor of 700 where both 
seasoned scientists and young investigators were left out in the cold. 
We face a similar situation this year with the Energy Frontier Research 
Center initiative. The deadline for submission of these proposals was 
October 1. I do not know the exact number of proposals that were 
submitted. However, the academic community submitted these proposals 
even though the funding of this effort was removed by the Senate. We 
all are hoping that better judgment will prevail and that the funds 
will be reinstated in the DOE Basic Energy Science budget. There are no 
guarantees, we know. However, the American scientific community is 
energized to perform research in this area and the lack of funds will 
certainly be a blow to the community in this area. Dr. Dehmer stated it 
properly. The scientific community is like a group of cats. You cannot 
corral them, but you can move the food. If the food is not provided in 
this country, then the community will be forced to look elsewhere. We 
realize the importance of this problem and science does not have 
boundaries. If it happens that the funding is not in the federal 
budget, then I am very concerned about the loss of expertise and 
leadership in energy research in the United States.

Q4b.  ........, or our ability to attract scientists from abroad as we 
once did?

A4b. At present, I am not concerned with our ability to attract some of 
the best minds from abroad to perform research in energy science. There 
is no question that other countries have competitive, if not more 
advanced efforts than that found in the United States. We will 
certainly run into problems if the funding for energy research is not 
increased. In Europe and in Asia, the importance of energy is clearly 
reflected in the funds that the governments of these countries are 
placing into this area. This is simply to important an area for the 
United States not to support. So, yes, I am concerned with our 
abilities in the future to attract some of the best minds in this area 
and with our ability to retain some of the best minds in the United 
States. Already we are seeing situation where, in some of the Arabian 
countries, large sums of monies are being offered to academicians to 
establish research institutes in energy related areas. Some scientists 
have already accepted these offers and, quite frankly, it is 
understandable. If you have ideas to pursue that may potentially lead 
to a solution to the energy problem, whether this is in photovoltaics 
or fuel cells, and is only logical. Is this unpatriotic? Absolutely 
not! Energy is a problem facing all mankind and finding a solution 
should be nation-independent. However, leading the effort is, in my 
opinion, important and the United States must play a lead role. Energy 
is just one area of science and where the best minds go will invariably 
influence other areas of science as well.

Q4c.  Do you see a connection to economic competitiveness?

A4c. While the problem of energy transcends borders, the economic 
impact of finding a solution to the energy problem does have 
boundaries. We would be foolish and myopic to think otherwise. Whoever 
is first in on the solution will clearly have a competitive advantage. 
The advance in science will lead to a technology transfer and whoever 
is there first will have the technology first.

                                   

</pre></body></html>
